<html>
<title> - COAST GUARD AND PORT INFRASTRUCTURE: BUILT TO LAST?</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


          COAST GUARD AND PORT INFRASTRUCTURE: BUILT TO LAST?

=======================================================================

                                (116-34)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 25, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation                             
                             
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-852 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                            
                             
                             
                             
             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair
ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland             Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
    Georgia                          JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
    Chair                            BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California
                                ------                                7

        Subcommittee on Coast Guard and Maritime Transportation

                 SEAN PATRICK MALONEY, New York, Chair
ELIJAH E. CUMMINGS, Maryland         BOB GIBBS, Ohio
RICK LARSEN, Washington              DON YOUNG, Alaska
STACEY E. PLASKETT, Virgin Islands   RANDY K. WEBER, Sr., Texas
JOHN GARAMENDI, California           BRIAN J. MAST, Florida
ALAN S. LOWENTHAL, California        MIKE GALLAGHER, Wisconsin
ANTHONY G. BROWN, Maryland           CAROL D. MILLER, West Virginia
CHRIS PAPPAS, New Hampshire, Vice    SAM GRAVES, Missouri (Ex Officio)
    Chair
PETER A. DeFAZIO, Oregon (Ex 
    Officio)
                                CONTENTS

                                                                   Page

                 STATEMENTS OF MEMBERS OF THE COMMITTEE

Hon. Sean Patrick Maloney, a Representative in Congress from the 
  State of New York, and Chairman, Subcommittee on Coast Guard 
  and Maritime Transportation:

    Opening statement............................................     1
    Prepared statement...........................................     3
Hon. Bob Gibbs, a Representative in Congress from the State of 
  Ohio, and Ranking Member, Subcommittee on Coast Guard and 
  Maritime Transportation:

    Opening statement............................................     4
    Prepared statement...........................................     5
Hon. Peter A. DeFazio, a Representative in Congress from the 
  State of Oregon, and Chairman, Committee on Transportation and 
  Infrastructure:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    63

                               WITNESSES
                                Panel 1

Rear Admiral Nathan A. Moore, Assistant Commandant for 
  Engineering and Logistics, U.S. Coast Guard:

    Oral statement...............................................     8
    Prepared statement...........................................     9
Nathan Anderson, Director, Homeland Security and Justice, U.S. 
  Government Accountability Office:

    Oral statement...............................................    11
    Prepared statement...........................................    13

                                Panel 2

Rear Admiral Ann C. Phillips, U.S. Navy (Ret.), Special Assistant 
  to the Governor for Coastal Adaptation and Protection, Office 
  of the Governor, Commonwealth of Virginia:

    Oral statement...............................................    34
    Prepared statement...........................................    36
Daniel Cox, Ph.D., CH2M-Hill Professor in Civil Engineering, 
  Oregon State University:

    Oral statement...............................................    46
    Prepared statement...........................................    48
Sean B. Hecht, Co-Executive Director, Emmett Institute on Climate 
  Change and the Environment, University of California at Los 
  Angeles School of Law:

    Oral statement...............................................    50
    Prepared statement...........................................    52

                       SUBMISSIONS FOR THE RECORD

Letter Referenced in Testimony of Rear Admiral Phillips, Dated 
  February 22, 2019, from Matthew J. Strickler, Secretary of 
  Natural Resources, Commonwealth of Virginia, Office of the 
  Governor, Submitted for the Record by Hon. Anthony G. Brown....    63
Statement of the American Society of Civil Engineers, Submitted 
  for the Record by Hon. Anthony G. Brown........................    66

                                APPENDIX

Question from Hon. Sean Patrick Maloney for Rear Admiral Nathan 
  A. Moore, Assistant Commandant for Engineering and Logistics, 
  U.S. Coast Guard...............................................    69
Questions from Hon. Rick Larsen for Rear Admiral Nathan A. Moore, 
  Assistant Commandant for Engineering and Logistics, U.S. Coast 
  Guard..........................................................    69
Questions from Hon. Stacey E. Plaskett for Rear Admiral Nathan A. 
  Moore, Assistant Commandant for Engineering and Logistics, U.S. 
  Coast Guard....................................................    70
Questions from Hon. Bob Gibbs for Rear Admiral Nathan A. Moore, 
  Assistant Commandant for Engineering and Logistics, U.S. Coast 
  Guard..........................................................    71
Questions from Hon. Sean Patrick Maloney for Nathan Anderson, 
  Director, Homeland Security and Justice, U.S. Government 
  Accountability Office..........................................    72
Questions from Hon. Rick Larsen for Nathan Anderson, Director, 
  Homeland Security and Justice, U.S. Government Accountability 
  Office.........................................................    73
Questions from Hon. Sean Patrick Maloney for Rear Admiral Ann C. 
  Phillips, U.S. Navy (Ret.), Special Assistant to the Governor 
  for Coastal Adaptation and Protection, Office of the Governor, 
  Commonwealth of Virginia.......................................    74
Questions from Hon. Anthony G. Brown for Rear Admiral Ann C. 
  Phillips, U.S. Navy (Ret.), Special Assistant to the Governor 
  for Coastal Adaptation and Protection, Office of the Governor, 
  Commonwealth of Virginia.......................................    75
Questions from Hon. Sean Patrick Maloney for Daniel Cox, Ph.D., 
  CH2M-Hill Professor in Civil Engineering, Oregon State 
  University.....................................................    77
Questions from Hon. Rick Larsen for Daniel Cox, Ph.D., CH2M-Hill 
  Professor in Civil Engineering, Oregon State University........    78
Questions from Hon. Sean Patrick Maloney for Sean B. Hecht, Co-
  Executive Director, Emmett Institute on Climate Change and the 
  Environment, University of California at Los Angeles School of 
  Law............................................................    78
Question from Hon. Rick Larsen for Sean B. Hecht, Co-Executive 
  Director, Emmett Institute on Climate Change and the 
  Environment, University of California at Los Angeles School of 
  Law............................................................    80

 
          COAST GUARD AND PORT INFRASTRUCTURE: BUILT TO LAST?

                              ----------                              


                     WEDNESDAY, SEPTEMBER 25, 2019

                  House of Representatives,
          Subcommittee on Coast Guard and Maritime 
                                    Transportation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2 p.m., in room 
2253, Rayburn House Office Building, Hon. Sean Patrick Maloney 
(Chairman of the subcommittee) presiding.
    Mr. Maloney. The committee will come to order. Thank you 
all for being here. To start, I would ask unanimous consent 
that the chair be authorized to declare a recess during today's 
hearing, if needed.
    Without objection, so ordered.
    Well, good afternoon and welcome to this afternoon's 
hearing to take stock of the conditions of the Coast Guard's 
shoreside infrastructure and the risks facing ports and 
maritime operators in this new era of climate uncertainty.
    When Hurricanes Irma and Maria struck the Caribbean and 
Southeast United States in 2017, it was, of course, the Coast 
Guard who worked tirelessly and relentlessly to conduct search 
and rescue, reopen ports, remove debris, and bring lifesaving 
relief to hurricane-stricken areas.
    At the same time, however, it is worth remembering that the 
Coast Guard's own shoreside infrastructure, which is vulnerable 
and located directly along the coastline, suffered over $800 
million in damages. Offices lost roofs, communications went 
dark, and piers suffered extreme damage from flying debris.
    In Puerto Rico, while servicemembers worked to save lives 
across the island, their own families were forced to relocate 
from shoreside facilities rendered inoperable and inhospitable. 
To date, many of the servicemembers working in Sector San Juan 
still work out of trailers while their base remains under 
repair.
    This circumstance was not solely an issue of extreme storms 
in freak events. Rather, these events provide a painful 
snapshot of the very tenuous operating conditions Coast Guard 
servicemembers work through, caused by the Service's 
longstanding mismanagement of the maintenance and repair of its 
shoreside infrastructure and housing.
    Few people realize it, but the Coast Guard owns or leases 
more than 20,000 shore facilities, far and away more real 
estate than all other properties under the control of the 
agencies within the Department of Homeland Security, yet the 
Service's outdated, uncoordinated, and underresourced 
infrastructure management policies and practices have resulted 
in a $2.6 billion backlog in deferred maintenance, repairs, and 
reconstruction.
    That servicemembers have been reported to conduct repair 
work while off duty is not only a slight to those members, but 
a condemnation of the Coast Guard's collective leadership in 
this area that would allow such mismanagement to persist at the 
expense of a workforce already strained and stretched thin. And 
that is simply unacceptable.
    Furthermore, the deterioration of the Coast Guard's 
shoreside infrastructure will only be exacerbated by climate 
change. We spend billions on new assets, cutters and aircraft, 
that are critical, indeed, to execute the Coast Guard's 11 
statutory missions, while at the same time the basics--piers, 
boathouses, barracks, airstrips--slowly crumble away. That is 
not semper paratus.
    You know, the Commandant of the Coast Guard, Admiral Karl 
Schultz, has stated that it is his objective to ensure that the 
Coast Guard is ready, relevant, and responsive. And we need to 
add resilient to that list of the three R's.
    As sea levels rise, extreme storms become more powerful, 
and coastal lands subside or erode away, the Coast Guard needs 
a rigorous new strategy to identify, design, budget and build 
its shore infrastructure. It is up to this committee, of 
course, and this Congress to provide the Coast Guard with the 
resources necessary to address its infrastructure backlog and, 
even more importantly, to build infrastructure that will be 
more durable and less costly to maintain over its lifetime.
    If we are apportioning blame, we should look in the mirror 
as well. We must additionally take stock of our commercial 
ports and maritime terminal investments in the coastal zones. 
Each year, more than 1.2 billion metric tons of foreign 
commerce comes through American ports.
    If the United States wants to remain globally competitive 
and avoid future dislocation of the maritime supply chain at 
vital ports, such as the Port of New York and New Jersey, right 
down the river from my district, we need a rigorous assessment 
of our critical port infrastructure and its vulnerability to 
coastal hazards, especially sea-level rise. To date, no such 
assessment exists, and I will be interested to hear our second 
panel's thoughts on this idea.
    Whether you believe climate change is a hoax, and I 
certainly hope you do not, the reality is that Government 
agencies, local communities, maritime stakeholders and others 
are dealing with the physical, observable impacts caused by 
climate change, and those impacts are happening right in front 
of us. They are happening now.
    So let's talk about how we can adapt to and mitigate these 
impacts. This hearing brings together an exemplary panel of 
experts from coastal engineering, adaptation planning, and risk 
management, to illustrate how agencies like the Coast Guard 
might better adapt to increasing coastal hazards.
    In closing, today's extreme flood is tomorrow's daily high 
tide. To successfully navigate a changing climate will demand 
strategic design, planning, and investment across the public 
and private sectors, and we need to do that in time to do us 
some good.
    As a Government and economy deeply invested and dependent 
upon a global maritime supply chain, how we respond to this 
challenge today will have a direct bearing on whether we 
maintain our standard of living or not. This hearing will help 
us intelligently assess the vulnerability of the maritime 
transportation system and build back better as we move into an 
era of unprecedented risk.
    [Mr. Maloney's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Sean Patrick Maloney, a Representative in 
  Congress from the State of New York, and Chairman, Subcommittee on 
                Coast Guard and Maritime Transportation
    Good afternoon, and welcome to this afternoon's hearing to take 
stock of the condition of the Coast Guard's shoreside infrastructure, 
and the risks facing ports and maritime operators in this new era of 
climate uncertainty.
    When Hurricanes Irma and Maria struck the Caribbean and Southeast 
United States in 2017, it was the Coast Guard who worked tirelessly and 
relentlessly to conduct search and rescue, re-open ports, remove 
debris, and bring lifesaving relief to hurricane-stricken areas.
    At the same time, however, the Coast Guard's own vulnerable 
shoreside infrastructure, much of it located directly along the 
coastline, suffered over $800 million in damages. Offices lost roofs, 
communications went dark, and piers suffered extreme damage from flying 
debris. On Puerto Rico, while service members worked to save lives 
across the island, their own families were forced to relocate from 
shoreside facilities rendered inoperable and inhospitable. To date, 
many of the service members working in Sector San Juan still work out 
of trailers while their base remains under repair.
    This circumstance was not solely an issue of extreme storms and 
freak events. Rather, these events provide a painful snapshot of the 
very tenuous operating conditions Coast Guard service members work 
through caused by the Service's longstanding mismanagement of the 
maintenance and repair of its shoreside infrastructure and housing.
    Few people realize it, but the Coast Guard owns or leases more than 
20,000 shore facilities--far and away more real estate than all other 
properties under the control of agencies within the Department of 
Homeland Security. Yet, the Service's outdated, uncoordinated and 
under-resourced infrastructure management policies and practices have 
resulted in a $2.6 billion dollar backlog in deferred maintenance, 
repairs and reconstruction.
    That service members have been reported to conduct repair work 
while off-duty is not only a slight to those members, but a 
condemnation of the Coast Guard's collective leadership that would 
allow such mismanagement to persist at the expense of a workforce 
already strained and stretched thin. This is simply unacceptable.
    Furthermore, the deterioration of the Coast Guard's shoreside 
infrastructure will only be exacerbated by climate change. We spend 
billions on shiny new assets--cutters and aircraft that are critical to 
execute the Coast Guard's eleven statutory missions--while their piers, 
boathouses, barracks, and airstrips slowly crumble away. Semper 
Paratus, indeed.
    You know, the Commandant of the Coast Guard, Admiral Karl Schultz, 
has stated that it is his objective to ensure that the Coast Guard is 
Ready, Relevant and Responsive. Well, I say we add ``Resilient'' to 
that list, too.
    As sea levels rise, extreme storms become more powerful, and 
coastal lands subside or erode away, the Coast Guard needs a rigorous 
new strategy to identify, design, budget, and build its shore 
infrastructure.
    It is up to this committee and this Congress to provide the Coast 
Guard with the resources necessary to address its infrastructure 
backlog, and even more importantly, to build infrastructure that will 
be more durable and less costly to maintain over its lifetime.
    We must additionally take stock of our commercial ports and marine 
terminal investments in the coastal zone. Each year, more than 1.2 
billion metric tons of foreign commerce comes through American ports.
    If the United States wants to remain globally competitive and avoid 
future dislocation of the maritime supply chain at vital ports, such as 
the Port of New York/New Jersey downriver from my district, we need a 
rigorous assessment of our critical port infrastructure and its 
vulnerability to coastal hazards, especially sea level rise. To date, 
no such assessment exists, and I will be interested to hear our second 
panel's thoughts on this idea.
    Whether you believe climate change is a hoax, or not, the reality 
is that government agencies, local communities, maritime stakeholders 
and others are dealing with the physical, observable impacts caused by 
climate change that are happening right now. So, let's talk about how 
we can adapt to and mitigate these impacts.
    This hearing brings together an exemplary panel of experts from 
coastal engineering, adaptation planning, and risk management to 
illustrate how agencies like the Coast Guard might better adapt to 
increasing coastal hazards.
    In closing, today's extreme flood is tomorrow's daily high tide. To 
successfully navigate a changing climate will demand strategic design, 
planning, and investment across the public and private sectors. As a 
government and economy deeply invested in and dependent upon a global 
maritime supply chain, how we respond to this challenge today will have 
a direct bearing on whether we maintain our standard of living, or not. 
This hearing will help us intelligently assess the vulnerability of the 
marine transportation system and build back better as we move into an 
era of unprecedented risk.

    Mr. Maloney. I would now like to call on the ranking member 
for any remarks.
    Mr. Gibbs. Thank you, Chairman Maloney.
    As we all know, since 2000, the Coast Guard was faced with 
its cutters and aircraft operating more than 50 miles offshore 
becoming obsolete. Understandably, the Coast Guard has chosen 
to focus its extremely limited capital acquisition funds to the 
purchase of those assets, and there is good news on that front. 
The Coast Guard just announced the home port for its 42nd Fast 
Response Cutter, and the Coast Guard has awarded a contract for 
construction of the 10th and the 11th National Security Cutter. 
The Coast Guard has also acquired new medium-range patrol 
aircraft and is recapitalizing its long-range patrol aircraft. 
Unfortunately, the single largest recapitalization contract for 
the Offshore Patrol Cutter is not executable, and we await the 
Coast Guard's solution to that problem.
    However, while the Coast Guard has made those important and 
significant investments, it has developed a large and growing 
shoreside construction and maintenance backlog, and its IT 
systems have aged to the point that the Coast Guard operations 
are constrained. Investments in those areas are becoming 
crucial if we expect the Service to continue to carry out its 
missions.
    The Coast Guard estimates its construction and deferred 
maintenance backlog is $2.6 billion, but this is a one-for-one 
replacement of assets and does not reflect a strategy for 
carrying out Coast Guard missions in an efficient manner.
    Given the specific needs of the Coast Guard for coastal 
facilities, the Service is particularly vulnerable to the 
impacts of coastal storms, yet GAO has found that the Coast 
Guard does not follow the Department of Homeland Security's 
risk management framework. In addition, the GAO found that the 
Coast Guard has not identified all the shoreside assets that 
are vulnerable to potential storm damage, such as piers and 
runways.
    I am also interested in whether the Coast Guard has 
followed through on its modernization effort. It has 
established the Shoreside Infrastructure Logistics Center, but 
it seems to continue to operate a highly decentralized 
infrastructure repair and maintenance operation out of its six 
civil engineering units.
    I look forward to hearing from Rear Admiral Moore how the 
Coast Guard is centralizing its review and prioritization of 
shoreside infrastructure. I am also interested to know more 
about how the Coast Guard is preparing facilities for its new 
cutters and aircraft. The new assets are larger and more 
sophisticated than the old assets and require improved 
shoreside support. I am hopeful that the planning process for 
those assets and their support infrastructure is being well-
coordinated.
    Fortunately, my district does not suffer direct impacts by 
coastal storms, but I sympathize for my coastal colleagues. I 
know subcommittee member Congressman Graves of Louisiana has 
had major flood events in his district, and Congressman Weber 
has floods going on right now in Jefferson County, Texas. In 
addition, Puerto Rico and the Virgin Islands were visited by 
Hurricane Karen yesterday. Therefore, I look forward to hearing 
the suggestions of witnesses on panel 2 for the construction of 
more resilient port facilities to better withstand such coastal 
storms and flooding.
    [Mr. Gibbs' prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Bob Gibbs, a Representative in Congress from 
the State of Ohio, and Ranking Member, Subcommittee on Coast Guard and 
                        Maritime Transportation
    As we all know, as far back as 2000, the Coast Guard was faced with 
its cutters and aircraft operating more than 50 miles offshore becoming 
obsolete. Understandably, the Coast Guard has chosen to focus its 
extremely limited capital acquisition funds to the purchase of those 
assets.
    And there is good news on that front. The Coast Guard just 
announced the homeport for its 42nd Fast Response Cutter, and the Coast 
Guard has awarded a contract for construction of the 10th and 11th 
National Security Cutters. The Coast Guard has also acquired new medium 
range patrol aircraft and is recapitalizing its long-range patrol 
aircraft.
    Unfortunately, the single largest recapitalization contract for the 
Offshore Patrol Cutter is not executable, and we await the Coast 
Guard's solution to that problem.
    However, while the Coast Guard has made those important and 
significant investments, it has developed a large and growing shoreside 
construction and maintenance backlog, and its IT systems have aged to 
the point that Coast Guard operations are constrained.
    If we expect the Service to continue to effectively carry out its 
missions in the future, investments in these areas are crucial.
    he Coast Guard estimates its construction and deferred maintenance 
backlog at $2.6 billion, but this is a one-for-one replacement of 
assets and does not reflect a strategy for carrying out Coast Guard 
missions in the most efficient manner.
    Given the specific needs of the Coast Guard for coastal facilities, 
the Service is particularly vulnerable to the impacts of coastal 
storms. Yet GAO has found that the Coast Guard does not follow the 
Department of Homeland Security's Risk Management Framework. In 
addition, GAO found that the Coast Guard has not identified all 
shoreside assets that are vulnerable to potential storm damage such as 
piers and runways.
    I am also interested in whether the Coast Guard has followed 
through on its modernization effort. It has established the Shoreside 
Infrastructure Logistics Center but seems to continue to operate a 
highly decentralized infrastructure repair and maintenance operation 
out of its six civil engineering units.
    I look forward to hearing from Rear Admiral Moore about how the 
Coast Guard is centralizing its review and prioritization of shoreside 
infrastructure.
    I am also interested to know more about how the Coast Guard is 
preparing facilities for its new cutters and aircraft. These new assets 
are larger and more sophisticated than old assets and require improved 
shoreside support. I'm hopeful the planning process for those assets 
and their support infrastructure is well coordinated.
    Fortunately, my district does not suffer direct impacts by coastal 
storms, but I sympathize for my coastal colleagues. I know Subcommittee 
Member Garret Graves of Louisiana has had major flood events in his 
district, and Congressman Weber has floods going on right now in 
Jefferson County, Texas. In addition, Puerto Rico and the Virgin 
Islands were hit by Tropical Storm Karen yesterday.
    Therefore, I look forward to hearing the suggestions of witnesses 
on Panel II for the construction of more resilient port facilities to 
better withstand such coastal storms and flooding.

    Mr. Gibbs. Mr. Chairman, thanks for holding the hearing 
today, and I yield back.
    Mr. Maloney. I thank the gentleman.
    I would now like to recognize Chairman DeFazio for any 
remarks.
    Mr. DeFazio. I thank the chairman. I wish that I could 
stay. I, unfortunately, have to be in a briefing on the 737 MAX 
very shortly. So I just want to first recognize a member of the 
second panel, Dr. Daniel Cox--and I know how hard it is to get 
here from Oregon; I appreciate him traveling--a professor at 
the College of Engineering, Oregon State University, and has 
tremendous experience in dealing with coastal engineering 
resilience. And hopefully, his testimony will give us some 
direction.
    The Coast Guard has been mentioned. There is a $2.6 billion 
backlog. I think the Coast Guard has for many years done an 
excellent job with not enough resources. I have been to many 
stations where the Coasties themselves are doing the work. We 
are maintaining some very unique older boats in the Northwest 
and the facilities are beautiful, but we need to better partner 
with the Coast Guard and better invest. The Coast Guard is the 
only uniformed service that has not done extensive studies on 
the impacts of climate change, sea-level rise, and more violent 
weather events. It is critical before we invest some of this 
$2.6 billion in areas that will be more at risk, that we will 
take into account what we should do to better protect these 
facilities in the not too distant future or--heck, you know, 
given what has been going on this year--next year.
    So I hope to hear from the Coast Guard on that. We did put 
a provision in the Coast Guard authorization, which passed out 
of the House quite some time ago. And the, Senate as usual, is 
dithering around. But we did put a provision in there to 
require that the Coast Guard do such an assessment, and I think 
it will be experts like Dr. Cox who can help you work your way 
through this.
    So we don't want to have to rebuild it twice, and that goes 
to all of our infrastructure. Surface infrastructure, 47,000 
bridges need substantial repair or replacement; 40 percent of 
the National Highway System deteriorated to the point where you 
have to rebuild it; and transit. And we have to make those 
investments in a way that anticipates the continued detrimental 
effects of climate change, and the Coast Guard should do 
likewise.
    So I am fully supportive of any initiatives the Coast Guard 
takes in this area. I am supportive of getting them more 
resources to deal with these problems.
    [Mr. DeFazio's prepared statement follows:]

                                 <F-dash>
   Prepared Statement of Hon. Peter A. DeFazio, a Representative in 
     Congress from the State of Oregon, and Chairman, Committee on 
                   Transportation and Infrastructure
    Mr. Chairman, thank you for scheduling this afternoon's hearing to 
assess the Coast Guard's substantial backlog in deferred maintenance 
and repair for its infrastructure, and examine policies to ensure that 
our Nation's port infrastructure is built to withstand the impacts of 
climate change.
    I want to take a moment first, to acknowledge Dr. Daniel Cox, an 
esteemed professor in the College of Engineering at Oregon State 
University (OSU) and an expert on coastal engineering and thank him for 
traveling from Corvallis to testify on today's second panel.
    OSU for decades has been a leader in ocean and coastal engineering 
research. I look forward to hearing more from Dr. Cox about OSU's 
ongoing initiatives to improve building codes to better withstand river 
flooding and coastal storm surge.
    According to a study released earlier this year by the Government 
Accountability Office, the Coast Guard has a deferred maintenance and 
repair backlog of $2.6 billion for its shore side infrastructure, 
housing, and support facilities. And this total only reflects those 
needs for which the Coast Guard has affixed a cost estimate--the 
backlog is likely much, much higher.
    It is no reach to conclude that while the Coast Guard's active duty 
force may be Semper Paratus, or Always Ready, the vital infrastructure 
that every service member relies on to perform their demanding work 
falls far short from meeting that motto.
    Consequently, unless we address the circumstances that have 
contributed to this backlog, the situation will get much worse, much 
faster.
    If anything was made clear by the recent hurricanes over the past 
three summers that made landfall in the Southeast United States and the 
Caribbean, Coast Guard facilities and port infrastructure in general 
are exposed to increased risks wrought by more powerful, slower moving 
hurricanes, higher storm surges, torrential rains and more frequent 
flooding.
    To address facilities damaged through these storms, Congress 
provided the Coast Guard with more than $1.4 billion in emergency 
supplemental appropriations to rebuild and recover from the 
devastation, and more importantly, to rebuild to more resilient 
construction standards. I expect Admiral Moore to provide an update on 
this rebuilding.
    Clearly, this funding was necessary to get affected Coast Guard 
units back up and operational. But just as clear to me is that this is 
no way for the Congress or the Coast Guard to address a chronic 
liability impacting operational readiness and capability.
    A long-term strategy must be developed to address the backlog in a 
systematic and dedicated manner. Moreover, such a strategy should be 
guided by new modeling and data management systems, paired with modern 
advances in coastal science and engineering.
    We must completely re-think where we locate Coast Guard units, and 
how we build the facilities they depend on to meet mission needs. For 
if we do not, all we will accomplish is to continue to throw good money 
after bad and end up with a Coast Guard less able to meet the 
increasing risks of operating along our Nation's shores. We can, and 
ought to, do better.

    Mr. DeFazio. And, again, I wish I could stay, and I can't. 
So thank you, Mr. Chairman.
    Mr. Maloney. Well, I thank the gentleman.
    I should also point out I will also be required on the 
House floor at some point during the course of today's hearing, 
so I may also have to depart for a period of time, depending on 
the floor schedule. So I apologize in advance that I miss some 
of the testimony today.
    But I would like to thank our first two witnesses: Rear 
Admiral Nathan Moore, Assistant Commandant for Engineering and 
Logistics; and Mr. Nathan Anderson, Director of Homeland 
Security and Justice for the Government Accountability Office.
    Gentlemen, we thank you both for being here.
    Without objection, your full statements will be included in 
the record. And since your written testimony has been made part 
of the record, the subcommittee requests that you limit your 
oral testimony to 5 minutes.
    With that, Admiral Moore, you may proceed.

TESTIMONY OF REAR ADMIRAL NATHAN A. MOORE, ASSISTANT COMMANDANT 
  FOR ENGINEERING AND LOGISTICS, U.S. COAST GUARD; AND NATHAN 
    ANDERSON, DIRECTOR, HOMELAND SECURITY AND JUSTICE, U.S. 
                GOVERNMENT ACCOUNTABILITY OFFICE

    Admiral Moore. Chair Maloney, Ranking Member Gibbs, members 
of the subcommittee, good afternoon and thank you for the 
opportunity to speak about Coast Guard infrastructure today, 
and thank you for entering my written testimony into the 
record, as you have stated.
    As the Assistant Commandant for Engineering and Logistics, 
I am honored to lead the 5,000 men and women of the Coast Guard 
dedicated to maintaining our diverse portfolio of operational 
assets and shore-based infrastructure. As I speak to you today, 
our engineering and logistics workforce is providing critical 
support to Coast Guard operations around the clock and across 
the globe. Every Coast Guard mission begins and ends at a shore 
facility. Not only is our shore infrastructure relevant to 
operations, it is essential to our readiness.
    The Coast Guard is all about readiness. Admiral Schultz has 
outlined in the Coast Guard strategic plan that a resilient 
shore infrastructure is directly connected to operational 
readiness and successful mission execution. While my engineers 
take pride in our efforts to support operations, we face 
challenges related to the maintenance and recapitalization of 
our infrastructure. As the largest shore asset portfolio in the 
Department of Homeland Security, much of the Coast Guard's 
infrastructure is aging faster than we can maintain or replace 
it.
    With the growing depot-level maintenance and 
recapitalization backlogs totaling more than $2.7 billion, our 
installations are geographically dispersed and range from large 
operational or industrial facilities in urban areas to small 
tactical units in remote areas. As many of our facilities are 
located on or very near the coast, they experience the daily 
corrosive effects of saltwater and wind and are vulnerable to 
flooding and increasingly severe weather. The devastation that 
we have seen from recent hurricanes underscores that risk.
    Despite these challenges, we have observed the benefits of 
modern resilient infrastructure at locations where we have made 
investments. Thanks to support from both the administration and 
Congress, we have constructed new facilities to resilient 
standards, with high return on investment. We are working 
expeditiously to execute nearly $1.2 billion in supplemental 
procurement, construction, and improvement appropriations for 
the 2017 and 2018 hurricanes. We make our infrastructure more 
resilient by modernizing design specifications and construction 
technologies at every opportunity.
    We aim to maximize our limited resources to invest in 
resilient infrastructure that directly enhances the Coast 
Guard's operational readiness. For example, our new 
infrastructure at Sector Houston-Galveston has proved critical 
to Hurricane Harvey response operations, during which the Coast 
Guard rescued 11,000 people. We have recapitalized the 100-
year-old facilities in Massachusetts and recently finished 
facilities for new aircraft and cutters in Alaska, California, 
Hawaii, North Carolina, and New Jersey, with others under 
construction in Guam and Texas.
    Despite this progress, the Coast Guard has made and 
continues to make difficult decisions within a constrained 
budget environment to balance the recapitalization of our 
operational assets with investments in our shore 
infrastructure.
    We thank the Congress for the opportunity to further 
communicate our infrastructure needs through the annual 
Unfunded Priority List. Our fiscal year 2020 UPL includes over 
$570 million to address our most critical shore infrastructure 
priorities. At the same time, we continue to align our property 
with our mission needs. Since receiving direct sale authority 
in 2010, we have divested more than 205 real property assets 
and deposited more than $26 million in proceeds into the Coast 
Guard housing fund, which supports the recapitalization of 
housing for our servicemembers and their families.
    While we highlight our progress, we recognize that we can 
do even better. With the benefit of insightful reviews from the 
Government Accountability Office, we are already improving our 
shore infrastructure management practices and incorporating 
them into our strategic planning.
    Moving forward, we will employ a holistic approach that 
includes establishing performance goals and measures to track 
the effectiveness of our investments, aligning our shore 
infrastructure portfolio with mission needs, to include 
pursuing divestitures, establishing more detailed guidance for 
planning boards, and employing modeling to optimize our 
investments.
    In closing, as one of the Nation's five Armed Forces, the 
Coast Guard's ability to remain semper paratus, always ready, 
to answer the Nation's call, fundamentally depends on reliable 
and resilient shore infrastructure. With the support of 
Congress and the administration and informed by GAO's 
recommendations, we will continue to overcome our 
infrastructure challenges and successfully execute our missions 
in service to the Nation. I appreciate the opportunity to 
testify today, and I look forward to your questions.
    [Admiral Moore's prepared statement follows:]

                                 <F-dash>
     Prepared Statement of Rear Admiral Nathan A. Moore, Assistant 
       Commandant for Engineering and Logistics, U.S. Coast Guard
    Good afternoon Chairman Maloney, Ranking Member Gibbs, and 
distinguished members of the subcommittee. I appreciate the opportunity 
to testify today and thank you for your continued support of the United 
States Coast Guard.
    As a global maritime Service, the Coast Guard provides operational 
capabilities essential to a wide range of national security needs. With 
a variety of unique authorities, in addition to our organic missions, 
the Coast Guard operates daily in partnership with other Federal 
agencies to carry out law enforcement, regulatory, and emergency 
response missions. As a member of the Intelligence Community, the Coast 
Guard helps to secure the seas by combating transnational criminal 
organizations and ensuring the safety of commercial activities on 
America's waters and abroad. As a member of the Armed Forces, the Coast 
Guard supports Department of Defense operations by providing Joint 
Force capabilities.
    The Coast Guard excels at safeguarding American security and 
economic prosperity because of our distinct set of capabilities and 
authorities. Thanks to your unwavering support, the Coast Guard 
consistently succeeds in providing these critical services to the 
Nation.
    All Coast Guard missions begin and end at shore facilities. The 
Coast Guard's Directorate of Engineering and Logistics, which contains 
the Office of Civil Engineering, is a professional, specialized, and 
innovative organization that manages a diverse portfolio of shore 
facilities nationwide. These facilities enable our operations, support 
our workforce, and strengthen our ability to remain Ready, Relevant, 
and Responsive. Our facilities are geographically distributed along 
America's coasts and inland waterways, allowing the Coast Guard to 
maintain presence throughout the Nation's Marine Transportation System, 
Exclusive Economic Zone, and strategically important areas of the high 
seas. In all these areas, the Coast Guard's presence ensures that our 
national interests are protected.
    The Coast Guard's Civil Engineering Program executes construction 
and sustainment of shore infrastructure in support of Coast Guard 
personnel and their families, enabling mission resilience in the face 
of natural and man-made threats. Our goal is to maximize the lifecycle 
of Coast Guard shore infrastructure--from docks and hangars to housing 
and childcare facilities--managing assets using globally recognized 
standards, such as the International Organization for Standardization 
55000, and benchmarking to industry and other agency best practices.
    By holding ourselves to these standards, we deliver mission-ready 
facilities, which support Coast Guard operations around the world. We 
continuously adapt and improve our processes to maintain our current 
portfolio of facilities and pave the way to meet our shore 
infrastructure demands of the future.
    The Coast Guard invests wisely, using strategic and risk-based 
decision-making to improve shore asset performance. Nevertheless, we 
want to do even better. The Civil Engineering Program manages the 
largest shore asset portfolio in the Department of Homeland Security, 
with over 41,000 assets, valued at $20 billion.
    As the shore plant inventory ages, funding challenges affect our 
ability to maintain our facilities. Infrastructure scoring 
methodologies derived from the American Society of Civil Engineers give 
our portfolio an overall grade of C minus. Our deferred maintenance 
backlog continues to grow and at present exceeds $900 million. Our 
shore infrastructure recapitalization backlog is now more than $1.7 
billion, with over 100 projects currently identified and estimated.
    These projects address deficiencies in facilities that play a 
direct support role in front line Coast Guard operations and personnel 
support. They include operational facilities like bases, sectors, small 
boat stations and aviation facilities, as well as family housing and 
support facilities. The highest priority projects from the backlog are 
included in the Coast Guard's Fiscal Year (FY) 2020 Unfunded Priority 
List (UPL). These projects comprise $62 million in critical facility 
improvements to support our new cutters, $79 million in housing, family 
support and training facility needs, $391 million for improvements and 
recapitalization of operational facilities, and $6.7 million to 
recapitalize aids to navigation. Additionally, the FY 2020 UPL includes 
$35.7 million for critical shore depot-level maintenance.
    To improve, the Coast Guard must shift from corrective to 
preventative facilities maintenance, establish enterprise-level 
strategic management for the appropriate facility inventory, and 
implement modern information technology (IT) systems to aid in 
decision-making for infrastructure investments. Implementing modernized 
IT systems is especially important because of the decentralized nature 
of the Coast Guard's shore infrastructure portfolio. The dynamic 
balance of these elements is the framework that will allow us to define 
affordable solutions for the Coast Guard's long-term shore facilities 
requirements and improve the resiliency and energy efficiency of our 
infrastructure.
    Your support makes a palpable impact. In 2018 and 2019, the Coast 
Guard completed $152 million in shore infrastructure recapitalization, 
improving the physical condition and resilience of facilities in 
Massachusetts, New York, New Jersey, North Carolina, California, 
Oregon, and Hawaii. We awarded contracts for another $73 million of 
construction in Maine, Virginia, South Carolina, Texas, California, 
Alaska, and Guam.
    We further appreciate Congress taking action to support the Coast 
Guard in the wake of recent natural disasters. Following the 
devastating hurricane seasons of 2017 and 2018, you provided nearly 
$1.2 billion in disaster supplemental funding to reconstitute damaged 
Coast Guard infrastructure with a focus on improving resiliency. We are 
working diligently to execute repair and reconstruction projects, and 
restore the full capability of our shore plant as quickly as possible.
    While we are proud of these achievements, we appreciate the review 
of external agencies like the Government Accountability Office (GAO). 
We view these external agency reviews as opportunities to assess our 
internal processes, identify capability gaps, and develop plans of 
action to better manage our shore infrastructure program.
    In its February 2019 report on Coast Guard Shore Infrastructure, 
GAO found that the Coast Guard met, fully or partially, six of nine 
leading practices for managing shore infrastructure. It provided six 
recommendations to improve our program. The Coast Guard concurred with 
these recommendations and is in the process of implementing several 
actions for improvement. One such action includes the recent 
implementation of a process guide for facility condition assessments 
which streamlines, standardizes, and improves our ability to identify 
and prioritize deficiencies across the shore infrastructure portfolio. 
The Coast Guard is also working to develop clear performance goals and 
baselines to track the effectiveness of maintenance and repair 
investments as well as a framework by which we can validate the 
alignment of our shore infrastructure assets with mission needs. To 
better manage our vast, decentralized shore portfolio, the Coast Guard 
is working to modernize its IT applications to improve investment 
scenario modeling, analyze trade-offs, and optimize decisions among 
competing investments. All of these initiatives will help us make 
capital investments in a smarter and more effective manner.
    GAO further recommended a new assessment focused on how the Coast 
Guard manages risk in order to improve the resilience of shore 
facilities. Based on the nature of our missions, Coast Guard facilities 
are in areas prone to hurricanes, flooding, earthquakes, and other 
natural disasters. The Nation trusts that the Coast Guard will continue 
to act as a first responder after theses disasters, which underscores 
the importance of our facilities remaining ready for operations. To 
proactively address risk management for shore infrastructure, the Coast 
Guard is completing a study to assess risk from natural disasters 
across our infrastructure portfolio. To us, it's not just simply 
maintenance, repairs, and construction--it's about building a robust 
and resilient shore plant that will enable the Coast Guard to fulfill 
its many responsibilities in the maritime domain, support our national 
interests, and protect the nation for decades to come.
    Coast Guard shore infrastructure readiness is a critical component 
of the Service's ability to carry out its missions. Your stalwart 
support, and that of the Administration, ensures the Coast Guard will 
continue to be Semper Paratus, Always Ready, to answer the Nation's 
call.
    Thank you for the opportunity to testify before you today and for 
all that you do for the men and women of the United States Coast Guard. 
I look forward to your questions.

    Mr. Maloney. I thank the gentleman.
    Mr. Anderson.
    Mr. Anderson. Chairman Maloney, Ranking Member Gibbs, and 
members of the subcommittee, good afternoon. My testimony today 
discusses our findings and recommendations from three recent 
reports on Coast Guard's management of its shore 
infrastructure. I will discuss the condition of the Coast 
Guard's shore infrastructure, actions it has taken to improve 
its management of shore infrastructure, and key actions the 
Coast Guard needs to take to better manage these assets, which 
may help us save money and reduce risks.
    Regarding the condition of the Coast Guard's shore 
infrastructure, the Coast Guard's inventory is vast, aging, and 
vulnerable to damage from extreme weather. The Coast Guard 
houses more than 20,000 shore facilities with a replacement 
value of over $18 billion, and nearly half are beyond their 
service lives. The Coast Guard data show that it will cost at 
least $2.6 billion to address current and deferred maintenance 
and recapitalization backlogs.
    Now, recent funding levels and with existing business 
practices, it will take the Coast Guard nearly 400 years to 
address the projects currently on their backlogs. This brings 
me to my next point. The Coast Guard has taken some steps to 
manage its aging infrastructure. Specifically, the Coast Guard 
classifies its infrastructure under a tier system that 
differentiates mission critical assets from mission support 
assets. Additionally, Coast Guard guidance prioritizes 
investments in infrastructure for frontline operations, such as 
piers or runways, over assets like administrative buildings. 
The Coast Guard has also initiated an assessment of 
vulnerabilities that its shore infrastructure faces. From 2015 
to 2018, the Coast Guard analyzed occupied buildings for 
vulnerabilities to natural disasters, such as hurricanes and 
earthquakes.
    However, significant work remains if the Coast Guard is 
going to make headway on reducing its backlog and to ensure 
wise use of limited resources. And this brings me to my final 
point about key actions the Coast Guard needs to take. First, 
the Coast Guard should employ models to optimize infrastructure 
investments. Earlier this year, we found the Coast Guard used a 
model to optimize its investment in aviation pavement for the 
repair of assets such as runways. This model showed that 
changing when and where such repairs take place could save 
nearly $14 million. Despite having this model, the agency has 
not yet implemented the model's results. The Coast Guard should 
use the results of this model and should employ such models to 
its entire portfolio of shore infrastructure, which may enable 
it to achieve cost savings across its 12 other asset lines.
    Second, the Coast Guard should standardize facility 
assessments. In February 2019, we found that different units 
responsible for assessing the condition of infrastructure did 
not always follow consistent processes, and inconsistent 
processes raise questions as to whether the Coast Guard has the 
information it needs to set risk-based priorities for shore 
infrastructure and subsequent project selection decisions.
    Third, the Coast Guard needs to fully implement DHS's risk 
management framework to improve shore infrastructure 
resilience. In a report we issued today, we found that the 
Coast Guard has not fully aligned its processes for improving 
shore infrastructure resilience with DHS's five key steps for 
critical infrastructure risk management.
    Since 2005, Congress has appropriated more than $2 billion 
in supplemental funding to rebuild and repair Coast Guard 
infrastructure after severe storms. Data show it is often far 
cheaper to enhance the resilience of infrastructure before 
extreme weather strikes rather than to fix it after it is 
damaged. Nevertheless, while the Coast Guard selects projects 
to fund every year from its backlogs, officials were unable to 
verify that they consistently select projects with resilience 
in mind, that is, projects that will protect infrastructure 
before it is damaged and cost pennies on the dollar compared to 
rebuilding after extreme weather. Aligning its processes with 
DHS steps would provide greater assurance that the Coast Guard 
is investing resources to minimize potential damage and 
expenses caused by future extreme weather events.
    In closing, while the Coast Guard faces significant 
expenses and time to repair, recapitalize, and make more 
resilient its shore infrastructure, it can augment its business 
practices in such a way that more efficiently allocates its 
resources and better positions the agency to respond to risks 
from extreme weather.
    Mr. Chairman, Ranking Member Gibbs, members of the 
subcommittee, this concludes my statement. I will be happy to 
take any questions you may have.
    [Mr. Anderson's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Nathan Anderson, Director, Homeland Security and 
             Justice, U.S. Government Accountability Office
    Chairman Mahoney, Ranking Member Gibbs, and Members of the 
Subcommittee:
    I am pleased to be here today to discuss our recent work, including 
a report that is being released today, on the condition of the U.S. 
Coast Guard's (Coast Guard) shore infrastructure and recommendations we 
have made to improve it. The Coast Guard, within the Department of 
Homeland Security (DHS), is the principal federal agency charged with 
enforcing laws intended to prevent death, injury, and property loss in 
the maritime environment. All Coast Guard missions begin and end at the 
shore.\1\ To help carry out its missions, the Coast Guard owns or 
leases more than 20,000 facilities--such as piers, boat stations, air 
stations, runways, and housing units--at more than 2,700 locations. 
Such infrastructure are often positioned along the nation's coastlines 
where facilities can be vulnerable to damage from extreme weather. We 
have reported that some Coast Guard facilities have required repair and 
recapitalization after being damaged by superstorm Sandy, and 
hurricanes Harvey, Irma, Maria, and Matthew.\2\ The costs for some of 
those recovery efforts, combined, were about $1 billion.\3\
---------------------------------------------------------------------------
    \1\ Under 6 U.S.C.  468(a), the Coast Guard's 11 statutory 
missions are divided between ``non-homeland security missions'' and 
``homeland security missions.'' Non-homeland security missions include 
(1) marine safety, (2) search and rescue, (3) aids to navigation, (4) 
living marine resources (fisheries law enforcement), (5) marine 
environmental protection, and (6) ice operations. Homeland security 
missions include (1) ports, waterways, and coastal security; (2) drug 
interdiction; (3) migrant interdiction; (4) defense readiness; and (5) 
other law enforcement.
    \2\ In general, recapitalization refers to major renovation or 
reconstruction activities (including facility replacements) needed to 
keep existing facilities modern and relevant in an environment of 
changing standards and missions. Recapitalization extends the service 
life of facilities or restores lost service life. See, among other 
reports, GAO, Coast Guard Shore Infrastructure: Applying Leading 
Practices Could Help Better Manage Project Backlogs of at Least $2.6 
Billion, GAO-19-82 [https://www.gao.gov/products/GAO-19-82], 
(Washington, D.C.: Feb. 21, 2019).
    \3\ The Disaster Relief Appropriations Act, 2013, Pub. L. No. 113-
2, 127 Stat. 4, 28 (2013) appropriated around $274 million to the Coast 
Guard for Acquisition, Construction, and Improvements for necessary 
expenses related to the consequences of Hurricane Sandy. Bipartisan 
Budget Act, 2018, Pub. L. No. 115-123, 132 Stat. 64, 82-83 (2018) 
appropriated around $719 million to the Coast Guard for Acquisition, 
Construction, and Improvements for necessary expenses related to the 
consequences of Hurricanes Harvey, Irma, Maria, and Matthew.
---------------------------------------------------------------------------
    In my testimony today, will discuss (1) the condition of the Coast 
Guard's shore infrastructure, (2) actions the Coast Guard has taken to 
improve its management of shore infrastructure, and (3) key actions 
needed for the Coast Guard to better align its management of shore 
infrastructure with leading practices and key risk management steps.
    This statement is based on three reports we issued from October 
2017 to September 2019 on Coast Guard shore infrastructure, including 
management of its boat stations, overall shore infrastructure, and 
shore infrastructure resilience, as well as selected updates we 
conducted in September 2019 on Coast Guard efforts to address our 
previous recommendations.\4\ To perform our work for the previous 
reports, we analyzed relevant Coast Guard documents, management 
processes, as well as applicable laws, regulations, and data for 
managing Coast Guard shore infrastructure. We also interviewed Coast 
Guard officials responsible for managing shore infrastructure. Further 
details on the scope and methodology for these reports are available 
within each of the published products. In addition, to conduct our 
selected updates, we reviewed Coast Guard information about actions 
taken to address recommendations we had made in our previous reports.
---------------------------------------------------------------------------
    \4\ GAO, Coast Guard: Actions Needed to Close Stations Identified 
as Overlapping and Unnecessarily Duplicative, GAO-18-9 [https://
www.gao.gov/products/GAO-18-9] (Washington, D.C.: Oct. 17, 2017); Coast 
Guard Shore Infrastructure: Applying Leading Practices Could Help 
Better Manage Project Backlogs of at Least $2.6 Billion, GAO-19-82 
[https://www.gao.gov/products/GAO-19-82], (Washington, D.C.: Feb. 21, 
2019); and Coast Guard Shore Infrastructure: Processes for Improving 
Resilience Should Fully Align with DHS Risk Management Framework, GAO-
19-675 [https://www.gao.gov/products/GAO-19-675] (Washington, D.C., 
Sept. 25, 2019).
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe the 
evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               Background
    The Coast Guard owns or leases more than 20,000 facilities 
consisting of various types of buildings and structures.\5\ The Coast 
Guard's shore infrastructure is organized into five product lines and 
13 asset types, known as asset lines.\6\ For example, within its shore 
operations asset line, the Coast Guard maintains over 200 stations 
along U.S. coasts and inland waterways to carry out its search and 
rescue operations, as well as other missions such as maritime security.
---------------------------------------------------------------------------
    \5\ According to Coast Guard guidance, a building is generally 
defined as a fully enclosed structure that is affixed to the ground, in 
which personnel work or live or where equipment is stored. Buildings 
include regional operations centers, aircraft hangars, and houses. A 
structure is generally defined as any other construction affixed to the 
ground that does not meet the definition of a building. Structures 
include helicopter landing pads, docks, and aircraft runways.
    \6\ Coast Guard's five product lines and the 13 asset lines within 
them are: (1) Tactical Operations--Aviation, Waterfront, Shore 
Operations; (2) Mission Support--Civil Works, Base Services, 
Industrial; (3) Mission Readiness--Housing, Community Services, 
Training; (4) Strategic Operations--Sector/District, Technology; and 
(5) Waterways Operations--Fixed and Floating Aids to Navigation (ATON), 
Marine Environmental Response and Signal Equipment.
---------------------------------------------------------------------------
    Much of the Coast Guard's infrastructure is vulnerable to the 
effects of extreme weather and can be costly to repair or replace after 
major storms. From December 2005 through June 2019, the Coast Guard 
received about $2 billion in supplemental appropriation funds to, among 
other things, rebuild or relocate 15 facilities damaged by hurricanes. 
During this time, the Coast Guard relocated facilities further inland 
or to higher ground, upgraded facilities to be more resilient, and 
designed new facilities with features to protect them from natural 
disasters. For example, after being damaged by Hurricane Ike in 2008, 
the Coast Guard relocated a regional facility in Houston, Texas further 
inland to help protect the new facility from extreme weather. The 
facility was also designed to withstand wind speeds of up to 115 miles 
per hour. In February 2017, the Coast Guard's Civil Engineering program 
also issued guidance intended to increase the likelihood that new or 
recapitalized buildings would be designed to withstand natural 
disasters, and to enable the Coast Guard to better manage risks to its 
operations and personnel, among other things.\7\
---------------------------------------------------------------------------
    \7\ U.S. Coast Guard, Shore Facilities Planning Factors Job Aid 
(Norfolk, VA: Feb. 23, 2017). The Coast Guard guidance establishes 
building elevation requirements to account for storm surge, sea level 
rise, or periodic flooding, and utility and communication system 
placement to ensure operational continuity and safety, among other 
things.
---------------------------------------------------------------------------
  Almost Half of the Coast Guard's Shore Infrastructure is Beyond Its 
 Service Life, and Project Backlogs Will Cost at Least $2.6 Billion to 
                                Address
    We found in February 2019 that the condition of the Coast Guard's 
shore infrastructure was deteriorating and almost half of it was past 
its service life \8\--resulting in (1) recapitalization and new 
construction and (2) deferred maintenance backlogs of at least $2.6 
billion as of 2018.\9\ In 2018, the Coast Guard graded \10\ its overall 
shore infrastructure condition as a C minus \11\ based on criteria it 
derived from standards developed by the American Society of Civil 
Engineers. Table 1 shows information about the number of assets, 
replacement value, service life of, and condition grades assigned by 
the Coast Guard for each of its asset lines for fiscal year 2018.
---------------------------------------------------------------------------
    \8\ According to the Coast Guard its overall shore inventory has a 
65 year service life, and its asset service life ranges from 6 to 75-
years, depending on the type of asset.
    \9\ GAO-19-82 [https://www.gao.gov/products/GAO-19-82].
    \10\ The Coast Guard assigned each asset line a letter grade to 
provide a snapshot of what the Coast Guard considered the condition of 
its shore infrastructure to be for that year. Adapted from standards 
used by the American Society of Civil Engineers, the Coast Guard 
considered the following eight attributes: Capacity, Funding, 
Operations and Maintenance, Resilience, Condition, Future Need, Public 
Safety, and Innovation. As noted by the Coast Guard's fiscal year 2018 
shore infrastructure reports, these infrastructure grades provide a 
broad basis for performance analysis and consider how well the Coast 
Guard is able to achieve mission objectives in relation to its 
dependencies on shore infrastructure.
    \11\ According to the American Society of Civil Engineers, an ``A'' 
is generally excellent condition, a ``B'' is in good to excellent 
condition, a ``C'' is in mediocre/fair to good condition but showing 
signs of deterioration and increasingly vulnerable to risk, a ``D'' is 
in poor to fair condition and mostly below standard, and an ``F'' is 
failing/critical, unfit for purpose, and in an unacceptable condition 
with widespread advanced signs of deterioration.

   Table 1: Asset Numbers and Replacement Values, Percent of Assets Operating Past Service Life, and Condition
               Grades of Select Assets, for Fiscal Year 2018 as Determined by the U.S. Coast Guard
----------------------------------------------------------------------------------------------------------------
                                                                                   Percent of
                                                                                     assets
                            Number of     Replacement Value  Percent of assets   operating more   2018 condition
       Asset line             assets       ($ in millions)      past service      than 5 years        grade
                                                                   life          past service
                                                                                     life
----------------------------------------------------------------------------------------------------------------
            Aviation              334             2,570                  63               35              D
       Base services            4,180               880                  50               33               C-
         Civil works            6,665             1,872                  55               33              C
  Community services            1,135             1,394                  68               37               D+
             Housing            2,901             2,923                  28               26               B-
          Industrial               52               467                  57               38               D-
     Sector/District              459             2,029                  27               16              C
    Shore operations            1,056             1,951                  38               19              B
          Technology            1,910               835                  24               15               D+
 Training facilities              174               421                  35               25               C+
          Waterfront            1,577             2,494                  55               26               C-
               Total           20,433            17,835                  46               29               C-
----------------------------------------------------------------------------------------------------------------
 Source: GAO analysis of U.S. Coast Guard documents. GAO-19-711T
 Note: Table excludes two asset lines--fixed and floating aids to navigation and signal equipment--which are
  used to mark federal waterways to safeguard maritime safety and commerce, among other things. We have ongoing
  work related to Coast Guard's fixed and floating aids to navigation.
  The Coast Guard does not have complete service life data on all of its assets. For example, the Coast Guard
  does not have data on the remaining service life for 16 percent of its aviation assets.
  According to the American Society of Civil Engineers, upon which Coast Guard based its grades, an ``A'' is
  generally in excellent condition; a ``B'' is in good to excellent condition; a ``C'' is in mediocre/fair to
  good condition but showing signs of deterioration and increasingly vulnerable to risk; a ``D'' is in poor to
  fair condition and mostly below standard; and an ``F'' is failing/critical, unfit for purpose, and in an
  unacceptable condition with widespread advanced signs of deterioration. The formula the Coast Guard uses to
  assign grades is based on a number of factors, including the results of its facility inspections, and the
  percent of assets past service life is independent of the grade calculation. According to Coast Guard
  officials, in 2018 some of its data on shore infrastructure may not be complete if field inspectors did not
  identify and record problems at facilities they inspected. As a result, condition grades could be overly
  positive.

    The aging and deteriorating condition of the Coast Guard's shore 
infrastructure has led to at least $2.6 billion in deferred 
construction projects and maintenance backlogs. With almost half of its 
infrastructure past its service life, and given recent Coast Guard 
funding requests for its shore infrastructure, it will take many years 
for the agency to address these backlogs. For example, in 2018 the 
Coast Guard estimated that it would take almost 400 years \12\ to 
address just the $1.774 billion recapitalization and new construction 
backlog--assuming an overall 65-year service life and that funding 
would continue at the fiscal year 2017 appropriations level. This time 
frame estimate excludes the Coast Guard's $900 million deferred depot-
level maintenance backlog.\13\ Table 2 provides information on the 
Coast Guard's two shore infrastructure backlogs as of August 2018.
---------------------------------------------------------------------------
    \12\ The number of years it would take to address the backlog is 
dependent on appropriated amounts, which have varied considerably.
    \13\ This estimate is as of August 2018. Deferred depot-level 
maintenance consists of major maintenance tasks that are beyond the 
capability of an individual unit, such as replacing exterior doors and 
windows.

 Table 2: U.S. Coast Guard's Estimated Shore Infrastructure Backlogs, as
                             of August 2018
------------------------------------------------------------------------
                      Backlog
      Account       Total ($ in                Description
                     millions)
------------------------------------------------------------------------
      Procurement,        1,774    The backlog for which the Coast Guard
  Construction, and                 had prepared cost estimates included
       Improvements                         125 recapitalization and new
                                     construction projects. In 2017, the
                                   Coast Guard removed 132 projects from
                                  the backlog that it determined were no
                                                     longer a priority.
 
   Deferred Depot-          900        The backlog had increased by $300
              Level                   million since fiscal year 2012 and
       Maintenance                     includes more than 5,600 deferred
                                                   maintenance projects.
 
             Total        2,674                     --
------------------------------------------------------------------------
Legend: ``--'' = not applicable.
Source: GAO analysis of U.S. Coast Guard data. GAO-19-711T
 According to Coast Guard officials, in 2017 the Coast Guard reviewed
  all projects on the recapitalization backlog to determine if each
  project was needed and valid based on input from area leadership,
  Civil Engineering Units, and facility engineers, and removed projects
  that it determined were no longer necessary based on mission change,
  alternative solutions, or the need being met through another project.
  The Coast Guard was not able to identify the estimated total cost for
  the 132 projects it removed.

    Nevertheless, the size and estimated costs of the Coast Guard's 
backlogs may be understated. We found in February 2019 that the Coast 
Guard's estimated costs did not include hundreds--or the majority--of 
the projects on the recapitalization and new construction backlog. For 
example, we reported that there were 205 projects on the backlog 
without cost estimates.\14\ Officials explained that they had not 
prepared cost estimates for these projects because they were in the 
preliminary stages of development.\15\
---------------------------------------------------------------------------
    \14\ In 2017, the Coast Guard removed 132 projects that it 
determined were no longer necessary based on mission change, 
alternative solutions, or the need being met through another project. 
We did not assess the process the Coast Guard applied to remove 
projects from its list. The Coast Guard was not able to identify the 
estimated total cost for projects it removed.
    \15\ In 2018, the Coast Guard's projected costs for individual 
shore projects with cost estimates ranged from $2 million to about $95 
million per project. We did not evaluate the Coast Guard's cost 
estimating practices.
---------------------------------------------------------------------------
Coast Guard Has Taken Initial Steps toward Improving Its Management of 
                        Its Shore Infrastructure
    Our previous reports have identified various steps the Coast Guard 
has taken to begin to improve how it manages its shore infrastructure. 
Some of the steps the Coast Guard has taken align with leading 
practices for managing public sector backlogs and key practices for 
managing risks to critical infrastructure, including identifying risks 
posed by the lack of timely investment, identifying mission-critical 
facilities,\16\ disposing of unneeded assets,\17\ and beginning an 
assessment of shore infrastructure vulnerabilities.\18\ Specifically, 
the Coast Guard has:
---------------------------------------------------------------------------
    \16\ GAO-19-82 [https://www.gao.gov/products/GAO-19-82].
    \17\ GAO-18-9 [https://www.gao.gov/products/GAO-18-9].
    \18\ GAO-19-675 [https://www.gao.gov/products/GAO-19-675].

    <bullet>  Identified risks posed by lack of timely investment. In 
February 2019, we found that the Coast Guard had a process to identify, 
document, and report risks to its shore infrastructure in its annual 
shore infrastructure reports for fiscal years 2015 through 2018.\19\ 
These reports identified the types of risks the Coast Guard faces in 
not investing in its facilities, including financial risk, capability 
risk, and operational readiness risk. The Coast Guard met this leading 
practice to identify risk in general terms--for example, in terms of 
increased lifecycle costs, or risk to operations.
---------------------------------------------------------------------------
    \19\ According to leading practices, agencies should identify the 
types of risks posed by not investing in deteriorating facilities, 
systems, and components because this is important for providing more 
transparency in the decision making process, and for communicating with 
staff at all organizational levels. See GAO, Federal Real Property: 
Improved Transparency Could Help Efforts to Manage Agencies' 
Maintenance and Repair Backlogs, GAO-14-188 [https://www.gao.gov/
products/GAO-14-188] (Washington, D.C., January 23, 2014).
---------------------------------------------------------------------------
    <bullet>  Identified mission-critical and mission-supportive shore 
infrastructure. In February 2019, we found that since at least 2012, 
the Coast Guard had documented its process to classify all of its real 
property under a tier system and established minimum investment targets 
by tier as part of its central depot level maintenance expenditure 
decisions.\20\ These tiers--which range from mission-critical to 
mission-supportive assets--were incorporated into guidance that Coast 
Guard decision makers are to follow in their deliberations about 
project funding, and to help them determine how to target funding more 
effectively. For example, Coast Guard guidance for fiscal years 2019 
through 2023 prioritized expenditures on shore infrastructure 
supporting front line operations, such as piers or runways, over shore 
infrastructure providing indirect support to front line operations, 
such as administrative buildings.
---------------------------------------------------------------------------
    \20\ Leading practices state that agencies should identify 
buildings as mission-critical and mission-supportive to help establish 
where maintenance and repair investments should be targeted, to ensure 
that funds are being used effectively. See GAO-14-188 [https://
www.gao.gov/products/GAO-14-188].
---------------------------------------------------------------------------
    <bullet>  Assessed selected buildings for vulnerabilities. We 
issued a report today that discusses the Coast Guard Civil Engineering 
program's efforts to conduct a vulnerability assessment of its owned 
and occupied buildings,\21\ which the Coast Guard initiated in 2015 and 
aims to complete in 2025.\22\ The Coast Guard calls this infrastructure 
review the Shore Infrastructure Vulnerability Assessment. The focus of 
Phase I of this assessment, completed in 2019, was to determine the 
vulnerability of certain occupied buildings to 10 natural 
disasters.\23\ Further, the assessment results are intended to assist 
with contingency planning by identifying which Coast Guard facilities 
are likely to remain operational after a natural disaster.
---------------------------------------------------------------------------
    \21\ According to DHS's Risk Management Framework, it is important 
to identify assets that are both nationally significant and those that 
may not be significant on a national level but are, nonetheless, 
important to state, local, or regional critical infrastructure security 
and resilience and national preparedness efforts.
    \22\ See GAO, Coast Guard Shore Infrastructure: Processes for 
Improving Resilience Should Fully Align with DHS Risk Management 
Framework, GAO-19-675 [https://www.gao.gov/products/GAO-19-675] 
(Washington, D.C., September 25, 2019).
    \23\ Specifically, the Shore Infrastructure Vulnerability 
Assessment analyzed all Coast Guard owned and occupied buildings over 
1,000 gross square feet for vulnerabilities to natural disasters. The 
10 natural disaster vulnerabilities assessed were: seismic/ earthquake, 
flood, tsunami, sea level rise, coastal vulnerability index (CVI), 
hurricane/typhoon wind, wildfire, volcano, tornado/wind, and drought. 
CVI quantifies the likelihood that physical changes may occur in the 
coastal zone based on analysis of the location's tidal range, ice 
cover, wave height, coastal slope, historical shoreline change rate, 
geomorphology, and sea level rise. The Coast Guard's CVI analysis was 
based on the U.S. Geological Survey National Assessment of Coastal 
Vulnerability to Sea-Level Rise.

       During Phase I of this assessment, completed in 2019, the Coast 
Guard analyzed 3,214 buildings, almost 16 percent of its 
infrastructure, for vulnerabilities to disasters such as floods, 
earthquakes, and hurricanes. The analysis identified Coast Guard-wide 
infrastructure vulnerabilities to coastal risks such as shoreline loss, 
coastal erosion and earthquakes, as well as tsunami risks on the West 
Coast of the United States, Alaska, Guam, and Hawaii, and immediate and 
serious flood risks in Puerto Rico and the Gulf and East Coasts. The 
Phase I report recommended that Coast Guard units and contingency 
planners consider these vulnerabilities when preparing contingency 
plans or making capital investments. The Coast Guard has also initiated 
a follow up effort involving structural analyses for buildings it 
believes to be more susceptible to damage from earthquakes and wind. 
Officials involved said their aim is to complete this effort in 2025.
   Coast Guard Has Not Fully Applied Leading Practices and Key Risk 
         Management Steps in Managing its Shore Infrastructure
    The Coast Guard has taken actions to begin to improve its shore 
infrastructure management. However, as we previously reported, the 
Coast Guard has not fully applied leading practices and key risk 
management steps to improve its shore infrastructure management. 
Specifically, we found, among other things, that the following actions 
could help improve the Coast Guard's shore infrastructure management 
efforts:

    <bullet>  Employ models for predicting the outcome of investments 
and analyzing tradeoffs. In February 2019, we found that a 2017 Coast 
Guard Aviation Pavement Study employed a model that found that the 
Coast Guard could more efficiently prioritize investment in aviation 
pavement.\24\ A subsequent Coast Guard aviation pavement plan 
recommended actions to use the study results and potentially save $13.8 
million. However, we found that the Coast Guard had not fully 
implemented its own recommended actions to achieve the cost savings.
---------------------------------------------------------------------------
    \24\ To ensure that investment decisions are aligned with agency 
missions and goals, agencies should employ models to predict the future 
condition and performance of its facilities as a portfolio, according 
to leading practices. GAO-19-82 [https://www.gao.gov/products/GAO-19-
82].

       Additionally, we found that while a similar analytical approach 
to efficiently prioritizing investments in aviation pavement could be 
applied to all of the shore infrastructure asset lines, the Coast Guard 
had not applied the approach to other asset lines. By not employing 
similar models across its asset lines for predicting the outcome of 
investments, analyzing tradeoffs, and optimizing decisions among 
competing investments, the Coast Guard is missing opportunities to 
potentially identify and achieve cost savings across other asset lines. 
We recommended that the Coast Guard employ models for its asset lines 
that would predict the investment outcomes, analyze tradeoffs, and 
optimize decisions among competing investments. The Coast Guard agreed 
with our recommendation but as of August 2019 had not addressed it. The 
Coast Guard stated that it plans to assess the use of modeling tools 
used by the Department of Defense as well as other alternatives to 
enhance its real property asset management capability. We will continue 
---------------------------------------------------------------------------
to monitor its actions.

    <bullet>  Dispose of unneeded assets. In October 2017, we found 
that disposing of unneeded assets, such as closing unnecessarily 
duplicative boat stations,\25\ based on a sound analytical process, 
could potentially generate $290 million in cost savings over 20 
years.\26\ Specifically, the Coast Guard identified 18 unnecessarily 
duplicative boat stations with overlapping coverage that could be 
permanently closed without negatively affecting the Coast Guard's 
ability to meet its mission requirements, including its 2-hour search 
and rescue response standard.\27\ In 2017, the Coast Guard affirmed 
that its leadership believes the study remains valid, but as of 
September 2019 it has not closed any stations. Figure 1 depicts the 
extent of the Coast Guard's overlapping boat and air station search and 
rescue coverage, as identified by the Coast Guard, some of which the 
Coast Guard determined to be unnecessarily duplicative.
---------------------------------------------------------------------------
    \25\ In 2010, federal law required that within departments and 
government-wide we identify programs, agencies, offices, and 
initiatives with duplicative goals and activities and report annually. 
Pub. L. No. 111-139,  21, 124 Stat. 29 (2010), 31 U.S.C.  712 Note. 
See GAO's Duplication and Cost Savings web page for links to the 2011 
to 2017 annual reports: http://www.gao.gov/duplication/overview. 
Overlap occurs when multiple agencies or programs have similar goals, 
engage in similar activities or strategies to achieve them, or target 
similar beneficiaries. Duplication occurs when two or more agencies or 
programs are engaged in the same activities or provide the same 
services to the same beneficiaries.
    \26\ GAO-18-9 [https://www.gao.gov/products/GAO-18-9]. In February 
2019 we reported that leading practices state that agencies should 
efficiently employ available resources, limit construction of new 
facilities, and that facilities that are not needed to support an 
agency's mission should be disposed of whenever it is cost effective to 
do so. GAO-19-82 [https://www.gao.gov/products/GAO-19-82].
    \27\ Coast Guard guidance calls for its stations to plan to arrive 
to the scene of the search and rescue distress cases within their area 
of responsibility within 2 hours. The analytical process the Coast 
Guard used to identify unnecessarily duplicative stations was designed 
to ensure the Coast Guard was able to meet or exceed requirements to 
maintain search and rescue coverage, and to account for such factors as 
boat downtime and surge capacity to respond to incidents. Further, the 
boat station analysis did not include consideration of potential search 
and rescue responses by the Coast Guard's air stations and facilities, 
which can provide additional overlapping coverage. U.S. Coast Guard, 
U.S. Coast Guard Addendum to the United States National Search and 
Rescue Supplement to the International Aeronautical and Maritime Search 
and Rescue Manual, COMDTINST M16130.2F (Washington, D.C.: January 
2013).
---------------------------------------------------------------------------
Figure 1: Overlap of U.S. Coast Guard Search and Rescue Coverage 
        Provided by Boat Stations, Air Stations, and Air Facilities, 
        May 2017
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

       In February 2019, we found that 5 of the 18 boat stations 
recommended for closure had projects listed on the Coast Guard's 
current project backlog.\28\ For example, Station Shark River, in New 
Jersey, was recommended for recapitalization in fiscal year 2017, 
despite Coast Guard recommendations to close the station in 1988, 1996, 
2007, and 2013.\29\ Notably, the Coast Guard has made multiple attempts 
in previous years to close such stations but was unable to due to 
congressional intervention, and subsequent legislation prohibiting 
closures.\30\
---------------------------------------------------------------------------
    \28\ Leading practices state that agencies should efficiently 
employ available resources, limit construction of new facilities, adapt 
existing buildings to new uses, and transfer ownership of unneeded 
buildings to other public or private organizations to align real 
property with mission needs. In addition, facilities that are 
functionally obsolete, not needed to support an agency's mission, not 
historically significant, or not suitable for transfer or adaptive 
reuse should be demolished whenever it is cost effective to do so, 
under this leading practice.
    \29\ Projects added to the recapitalization and new construction 
backlog in 2017 involving stations previously recommended for closure 
included Station Oxford in Maryland, Station Ocracoke in North 
Carolina, Station Fortescue in New Jersey, and Station Kenosha in 
Wisconsin.
    \30\ Department of Transportation and Related Agencies 
Appropriations Act, 1989, Pub. L. No. 100-457, 102 Stat. 2125, 2126 
(1988). Id. at  350, 102 Stat. 2156. See also, 14 U.S.C.  910 
(formerly cited as 14 U.S.C.  675). See Howard Coble Coast Guard and 
Maritime Transportation Act, 2014, Pub. L. No. 113-281,  225(b), 128 
Stat. 3022, 3039 (2014). See also, 14 U.S.C.  912 (formerly cited as 
14 U.S.C.  676a). In 1990, we reported that the Department of 
Transportation Inspector General recommended that the Coast Guard close 
21 stations, and the Coast Guard recommended additional closures. See 
GAO/RCED-90-98 [https://www.gao.gov/products/GAO/RCED-90-98]. We have 
reported on the Coast Guard's efforts to close stations over many 
years. In 1994, we reported that the Coast Guard had created a new 
process for determining the need for boat station changes. We also 
found that the new process included detailed criteria to evaluate the 
appropriate need for stations, such as boating and economic trends and 
the availability of alternative search and rescue resources. The Coast 
Guard then unsuccessfully attempted to close stations in 1995 using 
this process, and again in 2008. GAO, Coast Guard: Improved Process 
Exists to Evaluate Changes to Small Boat Stations, GAO/RCED-94-147 
[https://www.gao.gov/products/GAO/RCED-94-147] (Washington, D.C.: Apr. 
1, 1994); See also, GAO-18-9 [https://www.gao.gov/products/GAO-18-9].

       In October 2017, we recommended that the Coast Guard establish 
and implement a plan with target dates and milestones for closing boat 
stations that it has determined provide overlapping search and rescue 
coverage and are unnecessarily duplicative. In February 2019, we 
further recommended disposing of unneeded assets to more efficiently 
manage resources and better position the Coast Guard and Congress to 
address shore infrastructure challenges. The Coast Guard agreed with 
our recommendations. As of September 2019, the Coast Guard reported 
that it was considering changes in the operational status of several 
stations, such as closing the stations during the winter months when 
they conduct few, if any, search and rescue cases. The Coast Guard 
estimated that it will continue to consider changes until March 2020. 
These are positive steps, but we continue to believe that it is 
important for the Coast Guard to dispose of unneeded assets. Given the 
Coast Guard's competing acquisition, operational, and maintenance 
needs, and its existing $1.774 billion project backlog of 
recapitalization and new construction projects, these actions may help 
to mitigate some of its resource challenges. We will continue to 
---------------------------------------------------------------------------
monitor the Coast Guard's efforts to implement these recommendations.

    <bullet>  Report shore infrastructure project backlogs accurately. 
In February 2019, we found areas in which the Coast Guard could 
increase budget transparency for shore infrastructure by accurately 
reporting project backlogs and costs in Congressionally-required 
plans.\31\ Specifically, we found that the Coast Guard had not provided 
accurate information to Congress necessary to inform decision-makers of 
the risks posed by untimely investments in maintenance and repair 
backlogs.\32\ For example, the Coast Guard had not provided complete 
information to Congress in its Unfunded Priorities Lists of shore 
infrastructure projects, including information about tradeoffs among 
competing project alternatives, as well as the impacts on missions 
conducted from shore facilities in disrepair.\33\ We also found that 
Coast Guard budget requests related to shore infrastructure for fiscal 
years 2012 through 2019 generally did not identify funding to address 
any backlogs of deferred maintenance or recapitalization, except for 
one fiscal year--2012--when the Coast Guard requested $93 million to 
recapitalize deteriorated/obsolete facilities.
---------------------------------------------------------------------------
    \31\ According to leading practices, agencies should structure 
maintenance and repair budgets to differentiate between funding 
allotted for routine maintenance and repairs, and funding allotted to 
addressing maintenance and repair backlogs, among other things. GAO-19-
82 [https://www.gao.gov/products/GAO-19-82].
    \32\ Coast Guard and Maritime Transportation Act, 2012, Pub. L. No. 
112-213,  213, 126 Stat. 1540, 1552-53 (codified as amended at 14 
U.S.C.  5102, formerly cited as 14 U.S.C.  2902). The Coast Guard was 
statutorily required to annually provide a list of each unfunded 
priority, including unfunded shore infrastructure priorities, to 
certain committees of Congress to support the President's budget, and 
its 5-year Capital Investment Plan. 14 U.S.C.  2902 (2018). See 14 
U.S.C.  5108.
    \33\ The term `unfunded priority' means a program or mission 
requirement that (1) has not been selected for funding in the 
applicable proposed budget; (2) is necessary to fulfill a requirement 
associated with an operational need; and (3) the Commandant would have 
recommended for inclusion in the applicable proposed budget had 
additional resources been available, or had the requirement emerged 
before the budget was submitted. 14 U.S.C.  2902(c) (2018). See 14 
U.S.C.  5108.

       We also found that the Coast Guard had not provided accurate 
information about its requirements-based budget targets for shore 
infrastructure in its budget requests. According to Coast Guard 
officials, a requirements-based budget is an estimate of the cost to 
operate and sustain its shore infrastructure portfolio of assets over 
the lifecycle of the asset, from initial construction or capital 
investment through divestiture or demolition.\34\ Further, we found 
that Coast Guard recapitalization targets showed a far greater need 
than was reflected in the appropriations it requested from fiscal years 
2012 through 2019. Specifically, Coast Guard targets for 
recapitalization of shore assets indicated the Coast Guard needs $290 
to $390 million annually for its recapitalization efforts. However, its 
budget requests for fiscal years 2012 through 2018 have ranged from 
about $5 million to about $99 million annually.
---------------------------------------------------------------------------
    \34\ According to the Coast Guard, its requirements-based budget 
planning is based on industry standards and that it aligns with the 
National Academy of Sciences benchmarks for sustainable facility and 
infrastructure management. National Research Council of the National 
Academy of Sciences, Stewardship of Federal Facilities: A Proactive 
Strategy for Managing the Nation's Public Assets (Washington, D.C.: 
National Academies Press: 1998).

       We recommended that the Coast Guard include supporting details 
about competing project alternatives and report tradeoffs in 
Congressional budget requests and related reports. Without such 
information about the Coast Guard's budgetary requirements, the 
Congress will lack critical information that could help to prioritize 
funding to address the Coast Guard's shore infrastructure backlogs. 
While the Coast Guard agreed with our recommendation, in August 2019 
officials reported that they will continue to develop budgets as the 
agency has done but will include additional information in future 
required reports to Congress. We will continue to monitor these 
---------------------------------------------------------------------------
actions.

    <bullet>  Fully implement DHS's Critical Infrastructure Risk 
Management Framework. In September 2019, we found that the Coast Guard 
has taken some steps to improve the resilience of its shore 
infrastructure by rebuilding storm-damaged facilities and initiating a 
vulnerability assessment, but its processes to improve shore 
infrastructure resilience are not fully aligned with the five steps DHS 
has identified for critical infrastructure risk management (DHS 
Critical Infrastructure Risk Management Framework).\35\ The five steps 
include: (1) setting goals and objectives, (2) identifying critical 
infrastructure, (3) assessing and analyzing risks and costs, (4) 
implementing risk management activities, and (5) measuring the 
effectiveness of actions taken.\36\
---------------------------------------------------------------------------
    \35\ See GAO, Coast Guard Shore Infrastructure: Processes for 
Improving Resilience Should Fully Align with DHS Risk Management 
Framework, GAO-19-675 [https://www.gao.gov/products/GAO-19-675] 
(Washington, D.C., September 25, 2019).
    \36\ In 2013, DHS updated its National Infrastructure Protection 
Plan guidance for critical infrastructure owners and operators to 
emphasize security and resilience as the primary aim of homeland 
security planning efforts for critical infrastructure. As part of this 
effort, DHS established a five step risk management framework for 
assessing critical infrastructure (DHS Risk Management Framework) and 
recommended that owners and operators of critical infrastructure 
whether private or public use the framework to identify priorities, 
articulate clear goals, mitigate risk, measure progress, and adapt 
based on feedback and the changing environment. See, Department of 
Homeland Security, 2013 National Infrastructure Protection Plan, 
Partnering for Critical Infrastructure Security and Resilience 
(Washington, D.C.: December 2013).

       We found that the Coast Guard is not positioned to provide 
decision makers with complete details of which infrastructure 
facilities are critical, and the type of information the DHS Critical 
Infrastructure Risk Management Framework recommends for making cost 
effective risk management decisions. The Coast Guard identified 
occupied buildings that may be important to operations and assessed 
their vulnerability through its Shore Infrastructure Vulnerability 
Assessment process, but this process did not identify all shore 
infrastructure assets that are critical to its missions--such as 
aircraft runways--or screen them for all vulnerabilities, such as 
flooding. Similarly, we found that while the Coast Guard identified 
almost 800 buildings that may be vulnerable to tornadoes and another 
1,000 buildings vulnerable to hurricanes, it has not analyzed the 
potential consequences, such as economic losses, costs for rebuilding, 
and impact on mission, should this infrastructure suffer damage from 
---------------------------------------------------------------------------
those vulnerabilities.

       Without a complete understanding of both the vulnerabilities of 
its infrastructure and the consequences to its mission operations if 
its infrastructure is damaged, the Coast Guard risks questionable 
recapitalization investments for improving resilience when selecting 
projects to fund. Such an understanding is especially important given 
its existing project backlogs of at least $2.6 billion. The five steps 
of the DHS Critical Infrastructure Risk Management Framework are 
intended to guide decision making and prioritize actions to more 
effectively achieve desired outcomes. Therefore, in September 2019 we 
recommended that the Coast Guard implement risk management processes 
that more fully align with the five key steps outlined in DHS's 
Critical Infrastructure Risk Management Framework to better guide its 
shore infrastructure investment decisions. The Coast Guard agreed with 
our recommendation. It stated that it plans to make progress towards 
implementing the recommendation while developing and implementing its 
Component Resilience Plan, in accordance with the recently mandated DHS 
Resilience Framework.\37\ It intends to complete these efforts by the 
end of 2021. The Coast Guard also intends to develop, by July 2020, 
goals and objectives for measuring the effectiveness of actions taken 
to identify resilience readiness gaps and resource needs. We will 
continue to monitor these efforts.
---------------------------------------------------------------------------
    \37\ In 2018, DHS required all operational components to 
participate in the development of the DHS Resilience Framework, 
including developing individual component resilience plans, to guide 
DHS's approach to resilience planning. According to the Coast Guard 
officials, their plan was submitted to DHS in August 2019.

    Chairman Maloney, Ranking Member Gibbs, and Members of the 
Subcommittee, this completes my prepared statement. I would be happy to 
---------------------------------------------------------------------------
respond to any questions you may have at this time.

    Mr. Maloney. I thank the gentleman.
    We will now proceed to Members' questions under the 5-
minute rule. I will begin by alternating between the majority 
and the minority. I will begin by recognizing myself for 5 
minutes.
    Admiral Moore, there were some eye-popping parts of Mr. 
Anderson's testimony. Would you like to respond to any of that? 
I mean, I can ask you about each one or I can just let you go.
    Admiral Moore. Well, I think I can say, sir, just as an 
opening statement, that we are certainly appreciative of GAO's 
recommendations. And I think for me, as the chief engineer of 
the Coast Guard, as we work through our plan and how we get 
after this issue when we see the readiness that is impacted in 
the field, we really appreciate the outside look that an 
organization like GAO gives us.
    They have created in this report six specific 
recommendations, and we concur with all six of those. In fact, 
we have already taken action on a couple of them, most recently 
some of this standardized facilities condition assessments. I 
actually control that out of my office and signed that out 
about a month ago, and we are doing that now Coast Guard-wide.
    So I think, you know, as an overall statement, I would 
certainly say we appreciate the outside look, and we are taking 
action to address those recommendations.
    Mr. Maloney. Anything in the report you disagree with?
    Admiral Moore. Not as a functional, you know, set of 
comments. I mean, no, sir. I mean----
    Mr. Maloney. So we can expect progress on all those 
recommendations?
    Admiral Moore. Yes, sir. I have got my folks working 
towards each one of those six recommendations, and we have 
detailed timelines on how to get there.
    Mr. Maloney. Let me try and understand the scope of the 
problem. So I am told that 46 percent of the shore 
infrastructure is beyond its service life, that the project 
backlog will cost at least $2.6 billion. But, as I understand 
it, the majority of projects don't have cost estimates. And of 
the projects that do, they represent less than half of the 
total number of projects. The average cost for the ones that do 
have cost estimates is about $17 million. And if you are doing 
the math, you get to a notional number that would be far in 
excess of the $2.6 billion total cost.
    So how do we, in the absence of cost estimates for the 
majority of the projects, have any idea what the true size of 
the backlog is, or can you shed some light on that?
    Admiral Moore. Yes. Thank you, sir. We do have cost 
estimates and different fidelity. What I would say about that 
backlog is everything on the backlog is not equal. There are 
certainly projects on that list that are more critical to our 
operations and to our support of our personnel, in terms of 
housing, et cetera. So we focus our effort and the limited 
funding that we do have for shore infrastructure on those 
projects that are executable.
    So, while the backlog itself is large, we certainly focus 
our efforts on things that we believe are executable and 
projects that we are going to actually undertake to increase 
our readiness.
    Mr. Maloney. Admiral, could you also say a word about the 
risk management framework that DHS has, and could you expand on 
that? Is that the same process you are talking about 
implementing, or are you talking about something else?
    Admiral Moore. Sir, that risk management framework is 
something a little bit different. Underneath the Department of 
Homeland Security's guidelines, we have submitted our first 
component plan for resilience. My office just signed that out a 
couple months ago.
    That is our first effort into a plan for resiliency, and 
included in that are several specific steps that we are taking. 
One is a complete shore infrastructure vulnerability analysis 
that we have undertaken for all of our facilities. We have 
started with a phase 1 report, which we have completed already, 
which analyzes all of our facilities against natural threats, 
such as hurricanes, tornadoes, earthquakes, tsunamis, 
wildfires, that kind of thing. Phase 2 will be to look at our 
buildings, based on seismic and wind vulnerabilities. And then 
phase 3 is what are we going to do about it. Phase 3 is the 
actual plan for how we tackle that. So that is all underneath 
the component plan for resilience that we submitted to DHS.
    Mr. Maloney. Can I ask you for a little preview of coming 
attractions on that? I have only got about a minute. But do you 
have any visibility into that phase 1 assessment? I mean, 
common sense would tell you they are all on the water, aren't 
they? I mean, are all of them vulnerable to sea rise? How 
sweeping is that finding going to be?
    Admiral Moore. I think, at some level, all of our 
infrastructure is vulnerable. It is all on or near the water 
and accessible to that air, salt air in particular, and water. 
Different levels of vulnerability, though.
    The initial assessments that I have seen will show us that 
there are some locations where you are in an elevated location. 
Some locations are newer than others, so built to modern 
standards.
    Mr. Maloney. Is it fair to say that common sense or an 
early glimpse at the survey would suggest that you are going to 
have a sweeping set of concerns, that the scope of this issue 
could be massive? Is that fair to say?
    Admiral Moore. It is going to be a significant backlog of 
work in addition to what we already know, but I think we 
already know most of it, sir. I think that is where--you know, 
we have been doing this for years, and we know that these 
assets that we place on the water are vulnerable to these 
natural threats. So it will be a significant report, but I 
don't think there will be that much new information that we 
didn't already know.
    Mr. Maloney. All right. I thank the gentleman.
    I yield to Mr. Gibbs.
    Mr. Gibbs. Thanks.
    Thanks, Admiral, and thanks, Mr. Anderson, for being here.
    Admiral, in your testimony, you talk about how the shore 
facilities are directly connected to all operations, which is 
obvious, I think. And then Mr. Anderson testified about 400 
years to fix the backlog, which is staggering. So, obviously, a 
lot of planning and prioritization is going to have to occur 
with funding, of course.
    Admiral, is the shoreside infrastructure planning 
initiative separate from the planning, design, and acquisition 
process for the new assets?
    Admiral Moore. Sir, there is some overlap there. We use our 
same people, our same set of resources to attack both those 
problems. We have what is called a Major Acquisition Systems 
Infrastructure budgetary line item, MASI we call that. The MASI 
account is specifically programmed to us for the arrival of new 
assets, so new ships, aircraft, C4IT, basically to prepare the 
shore infrastructure for arrival of those new assets.
    So what we do is we fold together that MASI funding for new 
assets with our current depot shore infrastructure money that 
we use for existing assets because there is obvious overlap 
there as we roll assets into our operating bases today.
    Mr. Gibbs. Yes, it is important to have that coordination, 
you know, is what you are saying. OK. The GAO found that the 
piers and airstrips are not necessarily included in the $2.6 
billion maintenance and repair backlog. What actions need to be 
taken to review those assets so we have a more complete Coast 
Guard capital assets backlog?
    Admiral Moore. Sir, we do include piers and runways and all 
those facilities, including housing, into that backlog. So, 
again, everything on the backlog is not equal. There are some 
things that are deemed more essential. We look at anything 
supporting that operational readiness. We look at our housing 
program, any of those things that directly affect our members 
as most important.
    Again, we have a very detailed prioritization process that 
we use on 6-month intervals to analyze all of those projects 
and prioritize which ones are going to be funded.
    Mr. Gibbs. What would be the long-term impacts of operation 
of the Coast Guard personnel of carrying such a large backlog?
    Admiral Moore. Sir, thank you for asking that question. We 
know there are impacts to our people on this. I mean, we talk a 
lot about boats and aircraft and cutters that get underway, but 
in particular on the housing side, there are significant 
impacts to our people as we face backlogs there.
    Our people do tremendous things, and we have seen the 
recent response to Hurricane Dorian and the Coast Guard being 
on scene there quickly. And, from my perspective, we realize 
that all of that response a couple weeks ago to the Bahamas, 
all that response came from shore facilities and assets where 
we are struggling on the shore infrastructure side. So the 
impacts to our people are real, both operationally and from the 
housing front.
    Mr. Gibbs. Recently, Ranking Member Sam Graves toured the 
Barbers Point in Hawaii, the hangar there, which has an 
unfunded mandate listed for a $100.5 million project that would 
include housing, the C-130Js and the MH-65s.
    What is the likelihood this funding will be included in the 
administration's fiscal year 2020 budget request? Are you guys 
recommending for that to be in there?
    Admiral Moore. Sir, we continue to make tough choices as we 
look at our funding constraints on where we place new assets 
and what gets put into the budget for acquisition. I can tell 
you from the shore infrastructure side, a new hangar facility 
is needed in Hawaii, and that is why you see that on the 
Unfunded Priority List.
    We greatly appreciate the ability to provide that list to 
you and to demonstrate our highest priority needs, and that Air 
Station Barbers Point hangar is certainly one of them.
    Mr. Gibbs. OK. I appreciate that. When we talk about 
modernization, we saw with Hurricane Katrina and the 
restructuring called modernization. Does the Coast Guard intend 
to implement a national process of reviewing and rating 
individual projects? I guess that is where we get into the 
prioritization. How are we doing that and reviewing each 
individual project?
    Admiral Moore. We have a very detailed process. I mentioned 
these every 6-month reviews. We centrally review projects for 
prioritization, and then we regionally review them as well, and 
that way we get a field operator's perspective and also a 
centralized view for the larger recapitalization projects. That 
process is very time-tested and well-worn for us. It gives us a 
good opportunity to provide those highest prioritized projects.
    Mr. Gibbs. I have just got one last question before I run 
out of time. Of the 10 recommendations in the last 3 GAO 
shoreside infrastructure reports, how many have been fully 
implemented, partially implemented, or received no action?
    Admiral Moore. Sir, I would have to refer to the record to 
give you a detailed breakdown from all 10 of those reports, but 
we have taken action on a significant number of GAO's 
recommendations, including this most recent report. As I 
mentioned, we are in agreement with all six of those 
recommendations.
    Mr. Gibbs. Thank you. I yield back.
    Mr. Maloney. The gentleman, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Good afternoon, gentlemen.
    Admiral Moore, can you kind of give us a little bit of 
color in terms of with this deferred maintenance and the repair 
backlog, about the impact on the mission? Give us some 
examples. You know, how is it impacting the mission? How is it 
impacting your members' families? Just kind of tell us a story 
or two.
    Sometimes we get lost in these numbers, or at least I do, 
and I like to--I haven't yet been out to visit a Coast Guard 
facility. It is on my list. I am new to this committee. But 
tell us about the impact.
    Admiral Moore. Yes, sir. We would be happy to host you at 
any facility any time to show you. I can think of lots of 
impacts, I mean, and specific examples. If we think on the 
maintenance side in my world, we have infrastructure at our 
Coast Guard yard in Baltimore where we have cranes for doing 
that heavy work in the dry-docks and docksides. And on the 
shore infrastructure budget, we have been unable to fund repair 
of those cranes, and that ends up meaning that we deliver ships 
a little later. The work has to be done harder, sometimes in a 
more expensive, more manual way.
    If you look at operational units, places where we have 
piers, where we have temporary shore tie facilities set up 
because the electrical system may not be as robust as we need 
it to be. We have places in housing where we badly need to do 
renovations and remodeling. We have office space that often 
has, you know, sort of substandard ventilation equipment and 
things that need to be upgraded.
    So all that puts a stress on our people. And when we ask 
them to go out and do these hard missions and do the Nation's 
business, it makes it much more difficult for them.
    Mr. Brown. Thank you.
    And for Mr. Anderson, you gave us a time period in which it 
would take for the Coast Guard to get well, in terms of the 
backlog and the maintenance. What was that time period again? 
Was that 40 years?
    Mr. Anderson. 400.
    Mr. Brown. 400 years. Tell me a little bit about the 
assumptions you make, and is that a flat sort of steady level 
of investment? Is that a declining investment in maintenance 
and repairs? What are some of the assumptions that you made to 
reach that?
    Mr. Anderson. Unfortunately, the news doesn't get better. 
That is a 400-year estimate, based on projects that are on the 
backlog right now and does not consider any projects that will 
come on in future years. And that is clearly going to happen. 
That is just a reality.
    So the assumptions that we used were what is being spent 
right now on the backlogs, what is being requested from 
Congress, and what is being appropriated for the purposes of 
trying to buy that down.
    Mr. Brown. And just so I understand sort of like the 
magnitude of this $2.6 billion in backlog, could either of you 
tell us, what is the current year's appropriation and spend for 
maintenance and repair of infrastructure?
    Admiral Moore. Sir, I am happy to take that one. For fiscal 
year 2019, we had $195 million enacted, in our enacted budget 
for us. We are looking at about the same level with the 
President's budget for fiscal year 2020, about $200 million. 
That is in our depot-level shore maintenance funding.
    We also have a significant chunk of money for the new 
acquisitions that come online. So most of that is also shore 
infrastructure. In terms of depot maintenance, it is around 
$200 million a year, sir.
    Mr. Brown. Got it. I think this will probably be my final 
question. Admiral, you mentioned that the Coast Guard has 
divested itself of how many properties you mentioned?
    Admiral Moore. It is just over 200 in the past----
    Mr. Brown. And that is real property? OK.
    Could you just tell a little bit about your process, the 
criteria that you use to divest of certain properties, and does 
that list of criteria include your ability to maintain it?
    Admiral Moore. Yes, sir. We do look at--we are really 
constantly looking at our shore infrastructure portfolio for 
opportunities to divest. As we bring new assets online, there 
is a constant balance of what the shore footprint needs to look 
like to support those assets and operate them.
    Housing is also a significant portion of that. We have over 
3,000 housing units, both owned and leased, around the world. 
So we do go through a rigorous process of determining where we 
can divest certain properties, and we follow the standard 
Federal procedure for doing that, including providing a real 
property report to the Congress every year of our progress.
    Mr. Brown. Thank you.
    I will yield back the balance of my time, Mr. Chairman.
    Mr. Maloney. I thank the gentleman.
    Mr. Weber.
    Mr. Weber. Thank you, Mr. Chairman.
    Admiral, you say there are 5,000 Coasties. Was that what I 
understood you to say?
    Admiral Moore. In my organization, shore----
    Mr. Weber. In your organization.
    Admiral Moore [continuing]. Maintainers. Yes, sir.
    Mr. Weber. OK. Can you break those out by State? Do you 
know how many are in each State? I mean, not here, but----
    Admiral Moore. I can take that for the record, sir. We can 
provide that.
    Mr. Weber. You can get that for me. And one of the 
questions I had is, in the shoreside infrastructure planning 
initiative, is it separate from the planning, design, and 
acquisition of new assets?
    Admiral Moore. They are linked. To answer your question, 
yes, they are separate, but they are linked through that MASI 
account. So the idea of that is we bring new infrastructure on. 
We know that we are going to be--we want to make sure that new 
infrastructure that comes with new assets is a complement to 
what we already have.
    Mr. Weber. As more and more disasters happen--and Ranking 
Member Gibbs alluded to it--you know, we are the first three 
coastal counties of Texas from Louisiana, that other foreign 
country, coming down the gulf coast. And both Hurricane Harvey 
inundated us and then Imelda inundated us just a week ago.
    And the Coast Guard has been great, you know, being Johnny 
on the spot and just doing everything needed. But as more and 
more disasters happen, is it pushing that planning process back 
for acquisition of new assets?
    Admiral Moore. No, sir, it really isn't. You know, in my 
world, in the maintenance world and in rebuilding the shore 
infrastructure, we have been very fortunate and very 
appreciative of the hurricane supplementals that we receive 
from Congress. That supplemental funding has provided us the 
ability to repair projects from the damage that we received in 
the storms.
    Our shore infrastructure that happens around the country 
elsewhere is, you know, is largely a--you know, those are 
separate projects, obviously, that go on around that.
    I would say specifically for, in your district, sir, and in 
other coastal areas, we have made great strides in resiliency 
of those facilities. And I think about Sector Galveston and 
Sabine Pass there that were destroyed by Hurricane Ike back in 
2008.
    Mr. Weber. I have been to both.
    Admiral Moore. Yes, sir. And you likely know that the day 
after Hurricane Harvey came through, we were operating out of 
those facilities.
    Mr. Weber. Absolutely.
    Admiral Moore. What that shows me is, if we make a wise 
investment and recapitalize at new resilient standards, we 
won't have to come back and do this again.
    Mr. Weber. So 400 years that he is talking about, we won't 
have to worry about this.
    Admiral Moore. Yes, sir. That is exactly right.
    Mr. Weber. Yeah, I got you. You said there are 200 
properties that you all have divested of. How many properties 
would you say are on our ledger sheet?
    Admiral Moore. Estimating, I think we have got around 
10,000 properties of different size. Some are very small; some 
are large. But it is around 10,000.
    Mr. Weber. And you said you had divested some of the 
properties around the world? You had housing units, I think 
3,000 housing units in the world?
    Admiral Moore. Yes, sir, including places like Guam and 
obviously the outer-continental locations in Alaska and 
everywhere. So----
    Mr. Weber. Are we divesting ourselves of those?
    Admiral Moore. The ones that are no longer needed. I mean, 
we are constantly looking at where we need more housing, where 
we no longer need housing, based on changes in our footprint, 
changes in the local economies, ability to support our members, 
et cetera.
    Mr. Weber. Are you divesting of those properties, 
obviously, in the various 50 States?
    Admiral Moore. We are. It isn't restricted by any 
particular geography. We look at it holistically.
    Mr. Weber. And is there a list of those who may be on the, 
quote/unquote, ``chopping block''?
    Admiral Moore. Yes, sir. That real property report that we 
provide every year details the assets that we are in the 
process of divesting.
    Mr. Weber. OK. Does it take into account the length of 
waterways that move a lot of commerce, like Mississippi or the 
Sabine-Neches Waterway? Does it take that into account?
    Admiral Moore. Yes, sir. I mean, before we make any 
decision to pursue divestiture, all those factors are included.
    Mr. Weber. So you do an analysis on the amount of freight 
or trade or the military personnel, as you may know, Beaumont, 
Port of Beaumont in my district moves more military personnel 
and equipment than any other port in the other lesser 49 
States.
    And so you all take that into account as you are looking at 
those divestitures, and you have a list of those that you might 
be considering that is every year?
    Admiral Moore. Yes, sir. I mean, that real property report 
tells us exactly where we are at, which ones have been 
divested, and how we are moving forward in the process.
    Mr. Weber. I would like to get that list, if I could, 
Admiral, if you could get that to my office. I am basically out 
of time. I am going to yield back.
    Thank you, Mr. Chairman.
    Mr. Maloney. I thank the gentleman.
    Ms. Plaskett.
    Ms. Plaskett. Thank you very much, Mr. Chairman.
    Good afternoon, gentlemen. I always have to bring up that 
the Coast Guard has been exemplary in the Virgin Islands, and 
we could not do many of the things that we do to protect 
ourselves without their support. And so I am grateful for that.
    Acting Director Anderson, the Coast Guard received over 
$700 million in supplemental appropriations to restore 
facilities damaged by Hurricanes Harvey, Irma, Maria and then 
Matthew. How has disaster funding been applied by the Coast 
Guard to rebuild island facilities to date?
    Mr. Anderson. Portions of that question I may have to get 
back to you on. We do have some indepth analysis about where 
the funding went, which stations were hardened as a result of 
some of that.
    But what I can say is the Coast Guard does deserve credit 
in this space for using the supplemental appropriations to 
rebuild and repair to higher building standards. There have 
been several instances where doing so has actually saved money 
down the road when extreme weather has struck those same areas 
again. Sector Houston-Galveston was an example of that.
    Ms. Plaskett. You're discussing in Texas?
    Mr. Anderson. Exactly. It was a role model effort there, 
where it was hardened; the infrastructure was hardened. When 
extreme weather struck, they were able to use that as a central 
command post and do a lot of their emergency operations out of 
that.
    Ms. Plaskett. OK. Do you see mechanisms in place for 
creating strategies to do improvement in this?
    Mr. Anderson. Our central point of our report that was 
issued today is really that the Coast Guard has an opportunity 
to be a little bit more forward-looking in this space. And what 
I mean by that is getting supplemental appropriations after the 
fact and hardening that infrastructure after the fact is good, 
but there are some statistics out there by the National 
Institute of Building Sciences that says for every dollar 
invested in resilience, you save $3 to $12 down the road. So 
doing it on the front end helps.
    And what we haven't seen is that integration of vulnerable 
facilities, vulnerable infrastructure, kind of integrating that 
into the project selection when you are trying to buy down the 
backlog. So that is an opportunity the Coast Guard has.
    Ms. Plaskett. OK. So not just using those that are damaged, 
but recognizing those that need hardening so that they will be 
able to withstand?
    Mr. Anderson. Exactly. And that comes from having a firm 
and comprehensive understanding of where the vulnerabilities 
are. Our report that we issued today found that the Coast Guard 
has information on 16 percent of its infrastructure.
    Ms. Plaskett. What can we do to support them in being able 
to do that?
    Mr. Anderson. Well, I think it is important to note that 
when making resource allocation decisions, not having 100 
percent certainty of what vulnerabilities exist, more 
information is needed.
    And my understanding of the shore infrastructure 
vulnerability assessment, which is the main process that the 
Coast Guard follows, it won't be complete until 2025. So from 
now until 2025, you are operating with 16 percent visibility as 
to what the vulnerabilities are.
    Ms. Plaskett. Admiral Moore, did you want to add anything 
to that?
    Admiral Moore. I thought first I could mention, in terms of 
the work on the islands there and the idea of the hurricane 
reconstitution funding, we have provided detailed expenditure 
plans to Congress for both those supplementals for 2018 and 
2019, and those details, you know, specifically by project what 
we are working on there throughout the whole effort. So that 
information is available to be provided so you understand 
exactly what work is being done.
    As far as the resiliency, I completely agree. I think, 
first of all, we are making an effort to make sure that 
anything we build to monitor resiliency standards withstands 
future storms and we don't have to come back and spend that 
money twice.
    We do very much appreciate the recommendation to include 
that resiliency analysis into our construction decisions, and 
we are going to take that forward for action.
    Ms. Plaskett. Thank you. You know, I look at Sector San 
Juan, which is responsible for all of the Coast Guard 
throughout my district, and they suffered an estimated $156 
million in infrastructure damages due to Maria 2 years ago. And 
I am just thinking about the particular vulnerabilities that 
those of your sectors that are in what may be considered far-
flung areas may face with respect to that.
    And then, you know, how do you need support from us? I am 
concerned about supplementals and those which kind of segregate 
the Territories, which then puts you in a more vulnerable 
state, in terms of doing your infrastructure bills. But is 
there any other thing you would like to add?
    Admiral Moore. Thank you, ma'am, for the opportunity. There 
is one particular area that would be very helpful for us within 
the housing portfolio. We have talked about housing a little 
bit here today, but we have a backlog that is significant 
there, and it is included in that larger backlog. And many of 
our homes where we need maintenance, we don't have the funding 
within our budgetary constraints to get there either.
    We do have a housing fund that, as we divest properties, we 
have been able to put money into that fund. We have got about 
$26 million in there currently. However, we can't access that 
fund without an appropriation. So, if we could have the 
authority to access our housing fund without a direct 
appropriation, that would give me the funding and really the 
flexibility to be able to attack our most critical housing 
issues.
    Mr. Maloney. Thank you.
    Mr. Gallagher.
    Mr. Gallagher. Thank you.
    Rear Admiral Moore, the GAO found that the documented $2.6 
billion Coast Guard shoreside maintenance backlog does not 
necessarily include piers and docks. And I understand that the 
Coast Guard Great Lakes icebreaker home ports are in desperate 
need of major repairs.
    And I am told that the Coast Guard pier at Sault Ste. 
Marie, Michigan, which is a major logistics location, 
particularly during ice season--we have a lot of ice on the 
Great Lakes in winter if some of you who live in warmer 
climates haven't been there. You are always welcome to come 
from Texas. But those logistics locations are crumbling. They 
are unable to accommodate fuel trucks, and the Coast Guard pier 
in Detroit has a failing electrical shore tie to provide 
electrical power to cutters moored there. We just visited; my 
whole team went to the Coast Guard facility in Sturgeon Bay in 
my district, and they are in a building that is a century old. 
They are doing great work, by the way, and they didn't complain 
about it, but that is a concern for me.
    Is there a cost estimate for doing the work at Sault Ste. 
Marie or for Detroit that you know of?
    Admiral Moore. Yes, sir. Thank you for the question. There 
are cost estimates for those two projects, both Sault Ste. 
Marie and Detroit. I am aware of those two. That is part of our 
shore depot maintenance fund, so you won't see a specific line 
item for that, because those are repairs to existing 
facilities, not hurricane damaged but, you know, just repairs 
that need to be done.
    So we do have cost estimates. Those are competing through 
our process for funding, and I am aware of exactly what you are 
talking about.
    Mr. Gallagher. So I guess, just to clarify, my 
understanding, were any funds requested for Sault Ste. Marie in 
the fiscal year 2019 Coast Guard budget request? Would they be 
subsumed within that broader pot you mentioned?
    Admiral Moore. They are within that pot of AFC-43 depot-
level maintenance, and we have prioritized those projects for 
funding in the future.
    The other thing I could point out is on our Unfunded 
Priority List, the UPL also has an item for this depot 
maintenance facility money. So projects like what needs to be 
done at Sault Ste. Marie and in Detroit, those would both fall 
under that account. So there is actually opportunity there on 
the UPL as well.
    Mr. Gallagher. So we will see them on the Unfunded Priority 
List, both Detroit and Sault Ste. Marie?
    Admiral Moore. What you will see is the line item that says 
AFC-43 depot-level maintenance. That includes all of our repair 
work at our own facilities, so it is a broader pot of money 
that we can use for those facilities. But what I am telling you 
is those two projects are prioritized within that pot.
    Mr. Gallagher. Well, then what I would ask--and, obviously, 
this is something you can take back--if there are cost 
estimates, if we can work with you to sort of see those cost 
estimates and a timeline for dock repairs. I think we all want 
the same thing here, and so I would just love to work with the 
Coast Guard on that issue if you can take that back. Let the 
record show he is nodding.
    Admiral Moore. Yes, sir, I can do that.
    Mr. Gallagher. And I know it is outside your 
responsibility, but let everyone at the Coast Guard know we are 
keenly interested in another icebreaker on the Great Lakes. I 
am hearing from my constituents in northeast Wisconsin that 
there was not enough icebreaking on the Great Lakes this past 
winter. Some ships weren't even able to head out on the first 
day that the locks opened because they were afraid of ice 
damage. And I think it is imperative we get another icebreaker 
of the Mackinaw size on the Great Lakes.
    So take that for what it is worth. And, again, for my 
colleagues from warm climates, the cold builds character. So I 
would be happy to host you in my district.
    Mr. Weber. Yes, but the warm climate builds tourism.
    Mr. Brown [presiding]. Mr. Lowenthal.
    Mr. Lowenthal. I don't want to deal with climate changes 
with just adding to tourism.
    Admiral Moore, thank you for being here. I apologize for 
coming a little late. I was in another hearing. I want to ask 
you about the critical issue of how the Coast Guard manages its 
assets and how you mitigate some of the risks that are posed by 
sea-level rise and other aspects of climate change. What are 
the models?
    I am primarily interested in the standards or what do you 
use or the anticipated levels of sea-level rise or flood risk 
and vulnerability do you use, does the Coast Guard use when 
designing new facilities. What do you see as the standard or 
when you are trying to assess critical infrastructure risks? 
Can you give us more about what level of--you know, how you 
predict the future, or what you are using as your model?
    Admiral Moore. Yes, sir, I will be happy to do that. Any of 
the new shore infrastructure that we are building, any of the 
hurricane supplemental work that we are doing to reconstitute 
those facilities, that is all done to modern resiliency 
standards.
    So we employ modern building codes. We do things like 
relocate facilities upland so you are not--you know, you may 
have a lot of older facilities that are low-lying, even stilted 
in some areas. We are able to move those inland a little bit 
and upland. And so what we end up doing is building 2 feet 
above the FEMA 100-year flood plain that is a requirement now.
    Mr. Lowenthal. Two feet above?
    Admiral Moore. Two feet above the 100-year flood plain 
level that FEMA has set.
    So, again, the idea is as we spend this money, the precious 
money that we get for shore infrastructure, we don't want to 
have to spend it twice.
    Mr. Lowenthal. Do you anticipate in your thinking the level 
of sea-level rise, what you see in terms of specifically in 
terms of how that will impact your infrastructure, and what 
sea-level rise you anticipate in the next 20 to 30 years?
    Admiral Moore. Sir, for me, you know, on the engineering 
side, civil engineering side, we are working to the modern 
standards. We basically follow the guidelines for what modern 
construction standards and resiliency metrics would mean. That 
is probably the best answer I can give you.
    Mr. Lowenthal. All right. I want to also talk about, you 
know, the subcommittee has supported the Coast Guard's 
important mission in the Arctic. We have sought to increase 
resources dedicated to this region as we open it up to 
commercial and to recreational kinds of activities.
    And so you must maintain a presence, it is required in the 
Arctic to execute your statutory mission. But so far, as I 
understand, you have done little to maintain the Arctic shore 
infrastructure that you have.
    Can you speak to the Arctic shore infrastructure needs and 
what the Coast Guard is using to address climate impacts like 
thawing permafrost on the existing and future sites?
    Admiral Moore. Yes. In the Arctic, what we do every year is 
a typical exercise called Arctic Shield. That is seasonally 
based, primarily around the summer, but it is a scalable, 
expeditionary style of operations.
    So that gives us the opportunity to adjust to weather 
conditions or population moves or ship traffic or that sort of 
thing. That idea of having sort of a scalable mobile 
expeditionary style response helps us in the Arctic.
    To answer your question about shore infrastructure, we are 
putting significant investment into Kodiak, sir. That is where 
we know we are going to be home porting major ships. That will 
be our hub for Coast Guard housing in the future, and we have 
housing listed on our Unfunded Priority List at Kodiak. We have 
shore facilities that we are using that acquisition 
infrastructure funding for to be ready for those new ships in 
Kodiak. That is where our focus is today.
    Mr. Lowenthal. Thank you. And, finally, I want to express 
my concern about DHS's July section 503 notification that it is 
going to reprogram, I think it is $24.4 million from the Coast 
Guard, to fund additional ICE detention beds and transportation 
resources.
    You know, members on this committee have fought to make 
important progress to grant the Coast Guard the resources it 
needs to capitalize first the first response cutter, the 
National Security Cutter programs after cuts were mandated by 
sequestration. I am disappointed that DHS has diverted these 
funds, and what is the impact of the diversion of these funds 
going to be?
    Admiral Moore. Sir, from my perspective, in the maintenance 
organization, none of that funding is coming out of my 
organization in maintenance. I would have to refer to DHS for 
questions about that.
    Mr. Lowenthal. So you are not--Mr. Anderson, do you have 
any response to that?
    Mr. Anderson. No, I don't. I would also have to say that is 
a better question for either a DHS witness or a Coast Guard 
witness.
    Mr. Lowenthal. I mean, I don't know why we are giving 
money, and then it is being taken from one purpose and used for 
another outside of--you know, the Coast Guard has come and said 
that they really need these resources, and now they have been 
diverted to ICE for detention beds. And I am just telling you I 
am very disappointed.
    Thank you, and I yield back.
    Mr. Brown. Thank you, Mr. Lowenthal.
    My understanding is that there are no further questions by 
members of the subcommittee, so I would like to thank our first 
witnesses for your testimony. Your contribution to today's 
discussion has been very informative and helpful.
    And since there are no further questions, I will now call 
up panel 2. I would like to welcome as they are coming forward 
our next panel of witnesses: Rear Admiral Ann C. Phillips, 
special assistant to the Governor for coastal adaptation and 
protection, Office of the Governor, for the Commonwealth of 
Virginia; Dr. Daniel Cox, CH2M-Hill professor of civil 
engineering at Oregon State University; and Mr. Sean Hecht, co-
executive director for the Emmett Institute on Climate Change 
and the Environment at the University of California at Los 
Angeles School of Law.
    I thank you for being here today, and I look forward to 
your testimony.
    Without objection, our witnesses' full statements will be 
included in the record.
    I also ask unanimous consent to include in the record a 
letter from the Commonwealth of Virginia's secretary of natural 
resources that Admiral Phillips references in her testimony.
    Without objection, so ordered.
    [The information is on pages 63-65.]
    Mr. Brown. As with the previous panel, since your written 
testimony has been made a part of the record, the subcommittee 
requests that you limit your oral testimony to 5 minutes.
    Admiral Phillips, you may proceed.

 TESTIMONY OF REAR ADMIRAL ANN C. PHILLIPS, U.S. NAVY (RET.), 
 SPECIAL ASSISTANT TO THE GOVERNOR FOR COASTAL ADAPTATION AND 
 PROTECTION, OFFICE OF THE GOVERNOR, COMMONWEALTH OF VIRGINIA; 
 DANIEL COX, Ph.D., CH2M-HILL PROFESSOR IN CIVIL ENGINEERING, 
   OREGON STATE UNIVERSITY; AND SEAN B. HECHT, CO-EXECUTIVE 
     DIRECTOR, EMMETT INSTITUTE ON CLIMATE CHANGE AND THE 
ENVIRONMENT, UNIVERSITY OF CALIFORNIA AT LOS ANGELES SCHOOL OF 
                              LAW

    Admiral Phillips. Thank you, Acting Chairman Brown and 
Ranking Member Gibbs and members of the subcommittee. It is an 
honor to have an opportunity to testify before you all today on 
this very important topic.
    I am Ann Phillips. I am the special assistant to the 
Governor of Virginia for coastal adaptation and protection. I 
am a retired surface warfare officer who drove and commanded 
ships for the Navy for 31 years. I have served abroad in Guam 
and Lisbon and operated extensively with NATO in partnership 
with peace nations. I retired in 2014 as a rear admiral and 
commander of Expeditionary Strike Group 2 and since then have 
been involved in multiple efforts to highlight the impacts of 
climate change as a national security issue. Now I work for the 
State of Virginia where climate change has a significant impact 
on our coastal communities and Federal infrastructure today. 
There is an urgent need for coordinated Federal efforts to deal 
with the impacts.
    This subcommittee can help by recognizing climate 
resilience and disaster preparedness as one of the country's 
greatest and most immediate needs and taking action to address 
that need now. In Virginia, we have experienced over 18 inches 
of relative sea-level rise in 100 years. We expect to see 
another 18 inches by midcentury. The duration, severity, and 
impacts of flooding have all increased substantially, and 
coastal storms are magnified as a result.
    We are not simply preparing; we are already living with 
water. We have a water-based economy, all at risk. Our keystone 
is our Federal presence, arguably the largest concentration in 
the Nation, including our largest naval base, Naval Station 
Norfolk, as well as the only shipyard where we build aircraft 
carriers and one of only two places where we build nuclear-
powered submarines. We also host the Coast Guard's Atlantic 
Area Command, Fifth District, and Force Readiness Command. We 
are home to the Port of Virginia, the sixth largest container 
port by traffic volume in the country. We have a tremendous 
beach and water-related tourism industry along with aqua 
culture and fisheries industries. And, finally, our waterfront 
property and housing stock are a key source of property tax 
income for our localities.
    To coordinate across Federal, State, and local partners, 
Virginia has focused on collaborative opportunities, including 
the Hampton Roads Intergovernmental Pilot Project, or IPP; 
joint land use studies conducted through the Department of 
Defense, Office of Economic Adjustment; and Army Corps of 
Engineers' feasibility studies under the 3x3x3 process 
authorized in the 2014 Water Resources Reform and Development 
Act.
    The intergovernmental pilot project I speak of, which was 
conducted from 2014 to 2016, was initiated through the National 
Security Council and convened by Old Dominion University. It 
brought together over 200 Federal, State, and regional 
professionals to develop a whole-of-Government and community 
set of solutions and processes to prepare for sea-level rise 
and recurrent flooding in the Hampton Roads region.
    This work is the subject of a recently completed 
dissertation by Dr. Hannah Teicher, who studied local and 
Federal alliances at both Hampton Roads and San Diego, 
California. Dr. Teicher found that the shared risks between 
installations and the communities that surround them bring 
great potential for joint adaptation planning and, in fact, 
drive a need for it. She also determined two key enabling 
mechanisms as critical to initiating and reinforcing alliances 
between Federal, State, and local partners: recognizing 
independence and constructing credibility.
    As a direct outcome of this regional collaboration 
conducted by the IPP, intergovernmental pilot project, Hampton 
Roads embarked on a series of joint land use studies funded by 
the Office of Economic Adjustment. These included the cities of 
Newport News and Hampton, Norfolk, and Virginia Beach, and a 
third study just underway in Chesapeake and Portsmouth. These 
studies help us understand compatible use of infrastructure by 
Federal, in particular DoD, and local partners and how climate 
and recurring flooding impacts and outcomes affect their 
environmental resilience.
    Virginia localities in the Commonwealth were also partnered 
with the Army Corps on two coastal storm risk management 
studies to further define the needs of communities dealing with 
rising waters and storm surge. Our local governments are in the 
need, and Virginia has laid groundwork to prepare elsewhere.
    We struggle with our general assembly who has been 
reluctant to take funded action on climate change and sea-level 
rise. Under Governor Northam, however, we are taking bold and 
substantive action to address this threat. Governor Northam 
signed Executive Order 24, increasing Virginia's resilience to 
sea-level rise and natural hazards, in November of 2018. This 
directs the Commonwealth to determine the vulnerability of and 
set standards for State-owned infrastructure; develop a coastal 
protection master plan for the State of Virginia; and to 
coordinate, collaborate, and communicate across and with 
Federal and local governments to ensure aligned objectives.
    Even with strong State action, we cannot do this alone. The 
actions of the subcommittee are vitally important to protecting 
people and property. And, again, I ask that you recognize 
climate resilience and disaster preparedness as one of the 
country's greatest and most immediate needs to protect American 
infrastructure and our economy.
    We also ask that the subcommittee help States organize and 
prioritize flood control projects, including those underway 
with the Army Corps of Engineers; deliver timely Army Corps and 
Office of Economic Adjustment studies, and consider third-party 
analysis and study; and also include strong environmental 
review.
    In Virginia, we are committed to building capacity for our 
coastal communities and to collaborating with our Federal and 
local partners, and we know we have no time to waste. Time and 
tide wait for no man.
    Mr. Brown. Admiral, can you close out your statement?
    Admiral Phillips. Thank you. Yes, sir. Thank you again for 
the opportunity to offer this testimony. I look forward to your 
questions.
    [Admiral Phillips' prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Rear Admiral Ann C. Phillips, U.S. Navy (Ret.), 
     Special Assistant to the Governor for Coastal Adaptation and 
      Protection, Office of the Governor, Commonwealth of Virginia
    Chairman Maloney, Ranking Member Gibbs, and distinguished Members 
of the Subcommittee, thank you for the opportunity to testify to you 
today. It is a privilege to be before you at this hearing to discuss 
this very important topic.
    My name is Ann Phillips, and I currently have the honor to serve as 
the Special Assistant to the Governor of Virginia for Coastal 
Adaptation and Protection. I am a retired Surface Warfare Officer--I 
drove and commanded ships for the United States Navy for 31 years, 
served abroad in Guam and Lisbon, Portugal, and operated extensively 
with NATO and Partnership for Peace nations. I retired in 2014 as a 
Rear Admiral and Commander, Expeditionary Strike Group TWO. My 
experience in coastal adaptation and protection, along with climate and 
national security, stems from my work as Chair of the Surface Force 
Working Group for the Navy's Task Force Climate Change while still on 
active duty, and from my work since retiring, chairing the 
Infrastructure Working Group for the Hampton Roads Intergovernmental 
Sea Level Rise Pilot Planning Project from 2014 to 2016, and as a 
member of the Advisory Board of the Center for Climate and Security, 
and on the Board of Directors for the Council on Strategic Risks.
    I've been asked to address the need for collaboration across and 
between Federal facilities and the maritime related businesses and 
communities that surround them, in the context of the current and long 
term risk to infrastructure, the economy, and social fabric of 
Virginia's coastal communities as viewed from my position as Special 
Assistant to the Governor. I would like to first set the stage in 
Coastal Virginia today, then describe what is at risk, and how 
Virginia's unique coastline intensifies that risk. I will then describe 
Virginia's efforts and intent to prepare, adapt and protect our Coast, 
and the actions that we as a Commonwealth and that our coastal 
communities are taking to align our actions with those of our Federal 
partners. Finally, I will touch on what Congress can do to help as we 
prepare for our collective climate-changed futures.
                           Setting the Stage
    Climate change has a significant and intensifying impact on our 
coastal communities in Virginia today. Rising sea levels lead to 
recurrent nuisance flooding, caused by high tides, accompanied by wind, 
and/or increased intensity and frequency of rainfall, or any 
combination of the three. These circumstances intensify the impact of 
coastal storms and hurricanes and the accompanying flooding and storm 
surges. Coastal Virginia deals with water where we did not plan for it 
to be, and that impedes the expected pattern of life, in some form, 
nearly every day. This is our ``new normal''--it affects every aspect 
of our lives in ways that we do not yet understand, or even realize. My 
current position works at the local, regional, state and national level 
to foster action across the whole of government, community and society 
to address and build resilience to this existential threat and to 
protect and adapt Coastal Virginia.
                         Virginia's Unique Risk
    We have a water-based economy in Coastal Virginia. The cornerstones 
of that economy are:

    <bullet>  Our Federal presence, arguably the largest concentration 
in the nation--in particular Department of Defense with Navy as the 
largest service represented, and including the substantial commercial 
industry surrounding military and commercial shipbuilding, maintenance 
and repair. We are also home to the Coast Guard's Atlantic Area 
Command, US Coast Guard Fifth District, (Both in Portsmouth) USCG Force 
Readiness Command (Norfolk), Coast Guard Sector Hampton Roads, Coast 
Guard Base Support Unit Portsmouth, and one of the Coast Guard's 
largest Training facilities, Coast Guard Training Facility Yorktown.
    <bullet>  The Port of Virginia--large and expanding capacity with 
multi-modal access reaching from the East Coast to west of the 
Mississippi River
    <bullet>  Beach and Water-related Tourism
    <bullet>  Water-adjacent and dependent agriculture, aquaculture, 
fisheries, commercial property, and housing stock

    All of this is supported by critical public and private utility and 
transportation infrastructure, as well as a substantial medical/
hospital presence, and the universities, schools, and public 
infrastructure sustaining cities, counties and towns, along our coast.
    Virginia's large military and Coast Guard concentration is bound to 
the water by the very nature of its mission, and at risk from the 
threat of sea level rise and climate change impacts. In their 2016 
report, ``The Military on the Front Lines of Rising Seas,'' the Union 
of Concerned Scientists found that a 3-foot increase in sea level rise 
would threaten 128 coastal DOD installations [including US Coast Guard 
Facilities] in the United States, 43% of which are Navy facilities 
valued at roughly $100 billion.\1\ In its own 2019 ``Report on Effects 
of a Changing Climate to the Department of Defense,'' the Department 
found that 53 of its mission-critical facilities are currently 
vulnerable to recurrent flooding, with 60 such facilities vulnerable 
within the next 20 years. When other hazards from climate change are 
considered (wildfire, drought, desertification), 79 total DOD 
facilities are vulnerable at present. In Virginia, five Hampton Roads 
area facilities are on the US Navy and US Air Force list of most 
vulnerable infrastructure released in June 2019, including Naval Air 
Station Norfolk, Naval Air Station Oceana, Naval Support Activity 
Hampton Roads, Naval Support Activity Hampton Roads-Northwest Annex, 
and Joint Base Langley-Eustis.\2\ US Coast Guard facilities are also 
vulnerable, and the Coast Guard Authorization Act of 2019 addresses 
this, at least in part, by including direction similar to that to DOD 
included in the 2018 NDAA. Specifically, that the Coast Guard identify 
its top 10 most vulnerable facilities, and address adaptation and 
mitigation needs and costs related to impact on its missions and 
facilities.\3\ A 2008 study by the Organization for Co-operation and 
Economic Development, ranked the Hampton Roads metropolitan area as the 
10th most vulnerable in the world related to the value of assets at 
risk from sea level rise.\4\
---------------------------------------------------------------------------
    \1\ ``The US Military on the Front Lines of Rising Seas,'' 
Executive Summary (Union of Concerned Scientists, 2016), https://
www.ucsusa.org/sites/default/files/attach/2016/07/front-lines-of-
rising-seas-key-executive-summary.pdf.
    \2\ United States Department of Defense, ``Report on Effects of a 
Changing Climate to the Department of Defense,'' January 2019, https://
media.defense.gov/2019/Jan/29/2002084200/-1/-1/1/CLIMATE-CHANGE-REPORT-
2019.PDF.
    \3\ Rep. DeFazio, Peter A., ``Coast Guard Authorization Act of 
2019,'' Pub. L. No. H.R. 3049,  407 (2019), https://www.congress.gov/
bill/116th-congress/house-bill/3409/text.
    \4\ RJ Nicholls et al., ``Ranking Port Cities with High Exposure to 
Climate Extremes--Exposure Estimates,'' Environment Working Papers 
(Organization for Economic Co-operation and Development. 2008.), http:/
/www.oecd.org/officialdocuments/publicdisplaydocumentpdf/?cote=ENV/
WKP(2007)1&doclanguage=en.
---------------------------------------------------------------------------
    The Department of Defense and our federal partners are the largest 
employers in the state \5\ and Virginia's percentage of gross domestic 
product derived from the federal presence in the state is 8.9% (the 
highest percentage of any state).\6\ Virginia also has the highest rate 
of defense personnel spending of any state, and is second only to 
California in defense contract spending and defense-related contract 
spending. The Hampton Roads region hosts federal facilities that are 
unique and not easily replicable in other locations, including our 
largest Naval Base, Naval Station Norfolk, as well as the only shipyard 
where we build aircraft carriers and one of only two places where we 
build nuclear-powered submarines--Newport News Shipbuilding, owned by 
Huntington Ingalls Industries. The City of Portsmouth is home to 
Norfolk Naval Shipyard, one of only four Navy-owned and operated 
nuclear repair shipyards in the United States, and very vulnerable to 
flooding. Portsmouth also hosts US Coast Guard Atlantic Area Command, 
US Coast Guard Fifth District, Coast Guard Sector Hampton Roads, and 
Coast Guard Base Support Unit Portsmouth, all in flood-vulnerable 
areas.\7\ Joint Base Langley-Eustis, with Fort Eustis in the City of 
Newport News and Langley Air Force Base in the City of Hampton are also 
vulnerable. Langley AFB, which deals with rising water as a matter of 
routine, and has done considerable work to make its facilities 
resilient, has taken up much of the overflow from the impact to 
aviation training for the F-22 Strike Fighter from Tyndall Air Force 
Base after Hurricane Michael's impact on that facility last year.\8\
---------------------------------------------------------------------------
    \5\ ``Virginia Statewide Community Profile'' (Virginia Employment 
Commission, 2019). https://virginiawlmi.com/Portals/200/
Local%20Area%20Profiles/5101000000.pdf
    \6\ ``Defense Spending by State, FY 2017'' (US Department of 
Defense, Office of Economic Adjustment, March 2019).
    \7\ ``FEMA Flood Map Service Center / Search By Address,'' accessed 
September 16, 2019, https://msc.fema.gov/portal/
search?AddressQuery=USCG%20Portsmouth%2C%20Virginia
#searchresultsanchor.
    \8\ ``Tyndall AFB Personnel, F-22s Temporarily Relocate to Hawaii 
and Alaska,'' U.S. Indo-Pacific Command, accessed July 17, 2019, ttps:/
/www.pacom.mil/Media/News/News-Article-View/Article/1682655/tyndall-
afb-personnel-f-22s-temporarily-relocate-to-hawaii-and-alaska-bases/.
---------------------------------------------------------------------------
    The Eastern Shore of Virginia hosts NASA's Flight Facility at 
Wallops Island, which includes the Virginia Space and Mid Atlantic 
Regional Spaceport, NASA flight test facility, National Oceanographic 
and Atmospheric Administration and Federal Aviation Administration 
facilities, and the Navy's Surface Combat Systems Center Range. These 
facilities are unique. For example, the Navy Surface Combat Systems 
Center Range, the only such test range on the East Coast of the United 
States, supports the majority of new construction combat systems 
training for the Fleet.
    We also are home to the Port of Virginia, the third largest 
container port on the East Coast and sixth busiest port by container 
traffic volume in the United States. A multi-modal port with facilities 
located in Hampton Roads in the cities of Norfolk, Portsmouth, and 
Newport News, and with barge service to the Port of Richmond and an 
Inland Port intermodal transfer facility in Front Royal, Virginia,\9\ 
the Port of Virginia is the only East Coast port with federal 
authorization to dredge to a 55 foot channel depth, and generates a 
total of $60 billion in economic activity for the Commonwealth.\10\ 
With a focus on sustainability, the Port of Virginia works to build 
resilience, aligned with the surrounding communities. Much like the 
regions' federal facilities, however, its future resilience is 
inextricably linked to that of the surrounding cities and other 
localities that support and provide its critical utilities, 
transportation, logistics, and supply chain infrastructure.
---------------------------------------------------------------------------
    \9\ ``NAFTA Region Container Traffic--2017 Port Rankings by TEU's'' 
(American Association of Port Authorities, 2017).
    \10\ ``About the Port of Virginia,'' accessed July 18, 2019, http:/
/www.portofvirginia.com/about/.
---------------------------------------------------------------------------
    Coastal Virginia's substantial tourism industry generates direct 
travel-related expenditures exceeding $5.2 billion in our Coastal 
region \11\. Virginia boasts wide beaches, access to a myriad of water 
sports and recreational activities, as well as natural tidal 
marshlands, unique barrier island structures, and we are a critical 
stopover on the North Atlantic migratory bird flyway, all incredible 
facilities and natural amenities, and all at extreme risk.
---------------------------------------------------------------------------
    \11\ ``The Economic Impact of Domestic Travel on Virginia Counties 
2017: A Study Prepared for Virginia Tourism Authority'' (U.S. Travel 
Association, August 2018), https://www.vatc.org/wp-content/uploads/
2018/08/2017-Economic-Impact-of-Domestic-Travel-on-Virginia-and-
Localities.pdf.
---------------------------------------------------------------------------
    Our substantial aquaculture and wild fishing industries generate 
over $1.4 billion in annual sales,\12\ including oysters, crabs, and 
the largest clam industry on the East Coast of the United States.\13\ 
These industries are vulnerable to both sea level rise and ocean 
acidification and warming. The infrastructure necessary for their 
success ties them to low-lying areas near the water--vulnerable to 
flooding--and accessibility to workplaces and docks is becoming a 
challenge during the more frequent high tide flooding that impacts road 
access, as well as activities on the waterfront. Ocean acidification 
and warming will affect the ability of some species to survive and 
reproduce in Coastal Virginia waters--in particular shellfish, 
endangering the wild-caught and grown seafood industry treasured by the 
Chesapeake Bay region.\14\ For Virginia, this may be only a matter of 
time as such impacts have already been observed in the Pacific 
Northwest region of the United States, costing that region over $110 
million dollars and putting 3,200 jobs at risk.\15\
---------------------------------------------------------------------------
    \12\ ``Fisheries Economics of the United States 2016'' (U.S. 
Department of Commerce, NOAA National Marine Fisheries Service, 2018), 
https://www.fisheries.noaa.gov/content/fisheries-economics-united-
states-2016.
    \13\ Thomas J. Murray and Karen Hudson, ``Economic Activity 
Associated with Shellfish Aquaculture in Virginia 2012,'', https://
www.vims.edu/research/units/centerspartners/map/aquaculture/docs_aqua/
MRR2013_4.pdf.
    \14\ ``Virginia Is Highly Vulnerable to Ocean Acidification'' 
(Natural Resources Defense Council adopted from Ekstrom et al., 2015, 
February 2015), https://www.nrdc.org/sites/default/files/state-
vulnerability-VA.pdf.
    \15\ ``New Study: Rapid Ocean Acidification Threatens Coastal 
Economies in 15 States,'' 2015. NRDC Press Release https://
www.nrdc.org/media/2015/150223.
---------------------------------------------------------------------------
    Finally, our waterfront property and housing stock is a challenge 
we share with many other coastal states. Within the next 30 years--the 
lifespan of a typical mortgage--as many as 311,000 coastal homes in the 
lower 48 states with a collective market value of about $117.5 billion 
in today's dollars will be at risk of chronic flooding (more than 26 
times a year or about every other week). By the end of the century, 2.4 
million homes and 107,000 commercial properties currently worth more 
than $1 trillion altogether could be at risk, with Virginia's coastal 
real estate significantly exposed. The expected Virginia homes at risk 
in 2045 currently contribute about $23 million in annual property tax 
revenue. The homes at risk by 2100 currently contribute roughly $342 
million collectively in annual property tax revenue.\16\ In an ongoing 
Comprehensive Sea Level Rise and Recurrent Flooding Study conducted by 
the City of Virginia Beach and Dewberry, the annualized losses today in 
that City alone result in residential damages of $26 million annually 
due to coastal flooding events. If no action is taken, with 1.5 feet of 
additional sea level rise, expected within 20-30 years, that number 
increases to $77 million annually, and with 3 feet of additional sea 
level rise, forecast within 60-70 years, to $329 million annually, a 
12-fold + increase.\17\
---------------------------------------------------------------------------
    \16\ ``Underwater: Rising Seas, Chronic Floods, and the 
Implications for US Coastal Real Estate'' (Union of Concerned 
Scientists, June 2018), https://www.ucsusa.org/global-warming/global-
warming-impacts/sea-level-rise-chronic-floods-and-us-coastal-real-
estate-implications.
    \17\ CJ Bodnar, ``Comprehensive Sea Level Rise and Recurrent Flood 
Study'' (Dewberry and City of Virginia Beach, May 2019), https://
www.vbgov.com/government/departments/public-works/comp-sea-level-rise/
Documents/slr-update-ccouncil-5-7-19.pdf.
---------------------------------------------------------------------------
   Collaborative Opportunities: The Hampton Roads Sea Level Rise And 
               Resilience Intergovernmental Pilot Project
    Virginia has a longstanding and vital relationship with our Federal 
partners, in particular the Department of Defense and Coast Guard, for 
reasons already stated. In 2014, the Hampton Roads region in particular 
had an opportunity to become part of a strategic partnership project 
effort to address and create practices by which Federal, State and 
Local partners could come together to identify and address climate 
impacts, and develop a codified process for achieving collaborative 
solutions. This project, initiated through the National Security 
Council, was the Hampton Roads Sea Level Rise and Resilience 
Intergovernmental Planning Pilot Project (Intergovernmental Pilot 
Project or IPP). Convened by Old Dominion University, the IPP was one 
of four federal and three Department of Defense climate preparedness 
and resilience planning pilots.\18\ In correspondence as the then 
Acting Deputy Undersecretary of Defense for Installations and the 
Environment, Mr. John C. Conger designated the Navy as lead service 
supporting the Hampton Roads Pilot Project.\19\ The intent of this 
pilot as stated by then Deputy Secretary Conger, was to leverage the 
Department of Defense's existing relationships and resources, develop 
additional partnerships and develop a process by which regional 
preparedness and planning processes that supported both the Department 
of Defense mission and surrounding communities could be developed.\20\
---------------------------------------------------------------------------
    \18\ ``June 27, 2016 IPP SC Consensus Resolution'' (The Steering 
Committee of the Hampton Roads Sea Level Rise Preparedness and 
Resilience Intergovernmental Planning Pilot Project, June 27, 2016), 
https://www.floodingresiliency.org/wp-content/uploads/2016/11/IPP-
Consensus-Resolution-All-Signatures.pdf.
    \19\ John Conger, ``Memoradum for Assistant Secretaries of the 
Army, Navy and Air Force: DoD Climate Preparedness and Resilience 
Planning Pilots'' (Office of the Under Secretary of Defense for 
Installations and Environment, October 29, 2014).
    \20\ John Conger.
---------------------------------------------------------------------------
    The Intergovernmental Pilot Project (IPP) in Hampton Roads ran for 
two years from June 2014 to June 2016, and brought together more than 
200 federal, state and regional professionals over the two-year period. 
Focused on collective holistic understanding of shared challenges and 
developing solutions to prepare for sea level rise and recurrent 
flooding impacts in the Hampton Roads Region, the IPP developed a 
series of final reports, and included five key priorities for 
action.\21\
---------------------------------------------------------------------------
    \21\ Emily E. Steinhilber et al., ``Hampton Roads Sea Level Rise 
Preparedness and Resilience Intergovernmental Pilot Project. Phase 2 
Report: Recommendations, Accomplishments and Lessons Learned'' (Old 
Dominion University, October 2016), https://digitalcommons.odu.edu/
hripp_reports/2/.

    <bullet>  First: Set standards--including but not limited to sea 
level rise scenario planning, first finished floor elevation, and 
building code, and ensure that those standards are common across 
regions and localities with similar anticipated impacts from climate 
change and extreme weather to facilitate aligned planning and 
resilience efforts.
    <bullet>  Second: Ensure the support of a consortium of 
universities, to guarantee the best possible science and engineering 
technology is available to decision-makers.
    <bullet>  Third: Collect, analyze, process and share data. Shared 
data enables common regional understanding and analysis of outcomes, 
essential to the success of any collaborative planning effort.
    <bullet>  Fourth: Develop an understanding of what is critical and 
what is vulnerable from the context of shared infrastructure 
dependencies and interdependencies. Without a full and agreed-upon 
understanding of the nature of critical infrastructure affected by 
rising waters, it will be very difficult to develop a regional holistic 
plan.
    <bullet>  Fifth and finally, develop a plan and a set of strategies 
to achieve desired outcomes and then a process to fund the work 
necessary to achieve those outcomes. The financial instruments that we 
will use to pay for these challenges have not yet been developed, and 
federal support and collaborative alignment across communities is 
essential to address shared impacts.\22\
---------------------------------------------------------------------------
    \22\ Steinhilber et al.

    At the conclusion of the IPP, the steering committee and advisory 
and working group committee chairs signed a resolution recommending 
paths forward that the region might consider.\23\ While the resolution 
was not ultimately adopted at a regional level, many of the 
recommendations have been taken up and implemented by cities, 
localities, and the Hampton Roads Planning District Commission, and 
many more are under consideration today. Those adopted include: setting 
standards, establishing a consortium of universities, and collecting 
and sharing data at a regional level. At the state level, Virginia is 
developing an analysis of critical and vulnerable infrastructure. Our 
challenge, like that of our Federal partners and fellow coastal and 
riverine states remains: how will we pay for this? \24\
---------------------------------------------------------------------------
    \23\ ``June 27, 2016 IPP SC Consensus Resolution.''
    \24\ Steinhilber et al., ``Hampton Roads Sea Level Rise 
Preparedness and Resilience Intergovernmental Pilot Project. Phase 2 
Report: Recommendations, Accomplishments and Lessons Learned.''
---------------------------------------------------------------------------
    The Intergovernmental Pilot Project was also one of two regional 
collaborative efforts analyzed in a recently completed doctoral 
dissertation by Dr. Hannah M. Teicher for her PhD in Architecture for 
the Massachusetts Institute of Technology, Department of Urban Studies 
and Planning, in June 2019.\25\
---------------------------------------------------------------------------
    \25\ Hannah M Teicher, ``Climate Allies: How Urban/Military 
Interdependence Enables Adaptation'' (Doctoral Dissertation, 
Massachusetts Institute of Technology; Department of Urban Studies and 
Planning, 2019), https://dspace.mit.edu/handle/1721.1/122193.
---------------------------------------------------------------------------
    Her dissertation addresses the critical essential elements of this 
committee hearing, and can provide extensive value to Congress and the 
Federal Government as it works to address collaborative planning across 
and between Federal, State and local partners.
    I have included Dr. Teicher's Dissertation ``Climate Allies: How 
Urban/Military Interdependence Enables Adaptation,'' as an attachment 
to this testimony, available at the link cited below.
    Dr. Teicher identifies key points and outcomes highlighting the 
value of such partnerships and alignments between communities and 
regional entities, and their Department of Defense and other Federal 
partners.\26\
---------------------------------------------------------------------------
    \26\ Hannah M Teicher.
---------------------------------------------------------------------------
    In particular, she states ``the shared risks between installations 
and the communities that surround them bring great potential for joint 
adaptation planning and in fact drive a need for it''. Her research 
found that, by using the circumstances and processes already in 
existence in these two unique communities of practice, ``Hampton Roads, 
Virginia and San Diego, California employed the most readily available 
joint planning mechanisms'' to elevate their broader adaptation agenda. 
In Hampton Roads, the IPP led to Joint Land Use Studies to further 
expand resilience planning, and in San Diego, the Integrated Natural 
Resource Management Plan (INRMP) process became the foundation for a 
Memorandum of Understanding between the Navy and the Port of San Diego 
to expand joint adaptation planning.\27\
---------------------------------------------------------------------------
    \27\ Hannah M Teicher.
---------------------------------------------------------------------------
    Finally, Dr. Teicher points out two main enabling mechanisms in her 
dissertation: those of ``recognizing independence and constructing 
credibility,'' as key to not only initiating such alliances, but to 
reinforcing and expanding them.\28\
---------------------------------------------------------------------------
    \28\ Hannah M Teicher.

    <bullet>  Teicher points out the ``benefits of such collaboration -
[include] expanded regional cooperation across a range of jurisdictions 
and sectors, and enhanced technical capacity and increased access to 
federal funding.'' \29\
---------------------------------------------------------------------------
    \29\ Hannah M Teicher.
---------------------------------------------------------------------------
    <bullet>  And the ``emerging risks [to such collaboration, 
including] prioritizing high-value assets over vulnerable populations, 
emphasizing adaptation at the expense of mitigation--addressing 
immediate impact rather than cumulative human causes--and prioritizing 
sensational risks, such as sea level rise rather than more pervasive 
risks, like heat stress'' or recurrent flooding.\30\
---------------------------------------------------------------------------
    \30\ Hannah M Teicher.

    Certainly the IPP process in and of itself brought hundreds of 
stakeholders together, built lasting and ongoing relationships, and 
produced many workable recommendations for the region, accomplished by 
a variety of partnerships. The key deliverables--a whole of government 
mitigation and adaptation planning process, and a recommended 
integrated regional strategy to move forward, can both serve as a 
template for other regions.\31\ Some of this work may be specific only 
to a unique circumstance or area, but when taken as a whole, it brings 
substantive change in the context of local, regional and federal 
collaboration. Finally, the IPP built on previous efforts accomplished 
by other leaders in the Hampton Roads region, and continues to leverage 
those outcomes to accelerate regional adaptation.\32\
---------------------------------------------------------------------------
    \31\ Steinhilber et al., ``Hampton Roads Sea Level Rise 
Preparedness and Resilience Intergovernmental Pilot Project. Phase 2 
Report: Recommendations, Accomplishments and Lessons Learned.''
    \32\ Commonwealth of Virginia, ``EO 24; Increasing Virginia's 
Resilience to Sea Level Rise and Natural Hazards.,'' November 2,2018, 
https://www.governor.virginia.gov/executive-actions/.
---------------------------------------------------------------------------
             Taking Advantage of Existing Federal Programs
    As a direct outcome from the IPP, and as recommended by Commander 
Navy Region Mid-Atlantic, the Navy's Executive Agent for the IPP, the 
Department of Defense, Office of Economic Adjustment (OEA) undertook a 
series of Joint Land Use Studies (JLUS) within the Hampton Roads 
Region. The context of these studies, understanding compatible use of 
infrastructure by federal and local partners, focused on how 
infrastructure external to federal DOD facilities would be impacted by 
the encroachment of recurrent flooding, storm surge, sea level rise, 
and other coastal hazards, and how those impacts and outcomes would 
affect the environmental resilience of the federal facilities in the 
region. The first of the studies, completed in June 2018, built upon an 
existing JLUS with the City of Hampton in 2010, expanded to include 
compatible use aspects, and included the city of Newport News, James 
City and York Counties, and Joint Base Langley-Eustis, with a focus on 
the FT Eustis facility.\33\
---------------------------------------------------------------------------
    \33\ ``Joint Base Langley Eustis (Fort Eustis) Joint Land Use 
Study'' (City of Newport News, March 2018), https://docs.wixstatic.com/
ugd/3a99a7_58423e7847ce4078af32aceafeb6489f.pdf.
---------------------------------------------------------------------------
    JLUS Study objectives typically include four focus areas:

    <bullet>  Provide meaningful input by the public.
    <bullet>  Identify areas where land use conflict occurs.
    <bullet>  Identify strategies to reduce encroachment and promote 
land use compatibility including considerations for regional roadway 
congestion, sea level rise and recurrent flooding, waterway and access 
management, and safety and security for the installation.
    <bullet>  Create an implementation plan and narrative report with 
recommendations and strategies.

    Key recommendations from the Newport News/Hampton JLUS study also 
support IPP outcomes. In particular, establishing a formal 
communications process and developing a series of memoranda of 
understanding to ensure standardized processes for future collaboration 
between the localities and the federal facilities on a host of topics, 
including GIS, land use compatibility, communication, sea level rise 
and recurrent flooding, traffic, waterway access, energy and natural 
resources.\34\
---------------------------------------------------------------------------
    \34\ ``Joint Base Langley Eustis (Fort Eustis) Joint Land Use 
Study.''
---------------------------------------------------------------------------
    The IPP led directly to two additional new JLUS study efforts. The 
Norfolk/Virginia Beach JLUS, including Naval Station Norfolk, Joint 
Expeditionary Base Little Creek/Fort Story and Naval Air Station 
Oceana, and the Portsmouth/Chesapeake JLUS, including Norfolk Naval 
Shipyard in Portsmouth, outlying Fentress Field in Chesapeake, and the 
Portsmouth Naval Medical Center. The Norfolk/Virginia Beach Study has 
just been completed and just finished its final public comment--the 
Portsmouth/Chesapeake study has just started.\35\ These studies are a 
great value to the region and to the Commonwealth of Virginia, as not 
only do we now have a better understanding of how shared infrastructure 
interdependencies will be negatively impacted by climate change effects 
over time, but we also have a prioritized process from which to work 
with our federal partners begin to adapt across the region in ways that 
provide mutual support.
---------------------------------------------------------------------------
    \35\ ``Joint Land Use Studies/Hampton Roads Planning District 
Commission,'' accessed September 16, 2019, https://www.hrpdcva.gov/
departments/joint-land-use-studies/.
---------------------------------------------------------------------------
    Through the assistance of the Department of Defense Office of 
Economic Adjustment, we have the opportunity to apply for additional 
planning grants to allow us to take steps collaboratively with our 
federal partners to begin to plan for some of the IPP/JLUS recommended 
outcomes. This program provides critical planning funding to 
communities adjacent to DOD/Federal facilities that offers direct 
assistance to those facilities for resilience work, and should be fully 
funded and expanded.
    The Commonwealth of Virginia also works closely with the US Army 
Corps of Engineers across a number of programs, most specifically the 
Feasibility Study 3x3x3 process and Continuing Authorities 
programs.\36\ Both processes allow Army Corps districts to work with 
local governments to study the needs of communities dealing with rising 
waters and storm surge. Related to recommendations from the 2015 North 
Atlantic Coast Comprehensive Survey, completed by USACE North Atlantic 
Division, the City of Norfolk and USACE Norfolk District completed a 
3x3x3 in February of 2019 and have proceeded to the preliminary 
engineering design phase.\37\ The second recommended study area, 
Potomac River shoreline in Northern Virginia, has just started a 
Coastal Storm Risk Management Study (July 15, 2019) under the auspices 
of the Baltimore District, USACE, with the Metropolitan Washington 
Council of Governments as the non-federal sponsor, and the Commonwealth 
of Virginia as one of several cost share partners.\38\ The 2018 Water 
Resources Development Act authorized a full coastal study for Coastal 
Virginia, to include flood risk management, ecosystem restoration and 
navigation, which gives the Commonwealth the flexibility to include 
more than one city or municipality in the study area, critical to a 
region such as Hampton Roads, where multiple cities, localities, and 
federal facilities exist in close proximity.\39\
---------------------------------------------------------------------------
    \36\ ``The Corps Feasibility Study--Finding a Balanced Solution,'' 
Headquarters, accessed September 16, 2019, https://www.usace.army.mil/
Media/News-Archive/Story-Article-View/Article/643197/the-corps-
feasibility-study-finding-a-balanced-solution/.
    \37\ ``North Atlantic Coast Comprehensive Study: Resilient 
Adaptation to Increasing Risk,'' Study (United States Army Corps of 
Engineers, 2015), https://www.nad.usace.army.mil/CompStudy/.
    \38\ ``Northern Virginia Coastal Study,'' accessed September 16, 
2019, https://www.nab.usace.army.mil/DC_Coastal_Study/.
    \39\ ``Water Resources Development Act of 2018,'' Pub. L. No. H.R. 
8,  201 (9) (2018), https://www.congress.gov/bill/115th-congress/
house-bill/8/text.
---------------------------------------------------------------------------
    The challenge, though, is that such studies do not include Federal 
property, as dictated by restrictions to funding appropriations 
sources, and so require additional coordination between USACE, DOD, 
State and local participants to align appropriated funding. As an 
example, the Norfolk CSRM study only includes the City of Norfolk, and 
did not include a similar level of effort or the impacts to or outcomes 
of storm surge and flooding for Naval Station Norfolk or Naval Support 
Activity Hampton Roads. While USACE can work for DoD, they must be 
funded with DOD appropriations for such work, which does not often 
happen because of a lack of coordination.
    Further, the Naval Facilities and Engineering Command released an 
excellent Climate Change Planning Handbook: Installation Adaptation and 
Resilience planning guide in January 2017, but with little follow-up on 
how and when facilities should use it. This document should be a key 
tool in federal facility resilience planning.\40\
---------------------------------------------------------------------------
    \40\ ``Climate Change Planning Handbook Installation Adaptation and 
Resilience,'' Final Report (Naval Facilities Engineering Command 
Headquarters, January 2017), https://ww.fedcenter.gov/Documents/
index.cfm?id=31041.
---------------------------------------------------------------------------
    Finally, language in the draft 2020 NDAA directs DOD to fund US 
Army Engineering Research and Development Center (ERDC) to undertake a 
national study of water related risks and vulnerabilities to military 
installation resilience, along with an assessment of ongoing or planned 
projects by the Corps of Engineers that may adapt such risks. This will 
help mitigate this challenge, but meanwhile, the gap in federal 
resilience planning alignment with the USACE 3x3x3 process continues, 
placing communities and military facilities at risk.
                       Virginia is Taking Action
    This is our challenge. In Virginia, we have over 10,000 miles of 
tidally-influenced shoreline.\41\ Virginia has the eighth longest 
tidally-influenced coastline in the country, ranked just behind the 
state of Texas.\42\ \43\ We have experienced over 18 inches of sea 
level rise in 100 years, as indicated by NOAA Sewell's Point tide gauge 
at Pier Six, Naval Station Norfolk. With an average of 4.66 mm of sea 
level rise per year, Virginia has one of the highest rates of relative 
sea level rise change of any state on the East Coast of the United 
States, including the Gulf of Mexico.\44\ We are also experiencing land 
subsidence--most evident in areas where there is heavy use of water 
from our aquifers. Land subsidence varies across Coastal Virginia, and 
can range from as much as 40% to as little as 0% of the observed 
relative sea level rise.\45\ Since the late 1990s, the duration, 
severity, and impacts of flooding have all increased substantially.\46\ 
Current scientific projections, as documented by the Virginia Institute 
of Marine Science Sea Level Report Card, show that our sea levels will 
continue to rise and the rate of rise will accelerate, such that we 
expect an additional 18 inches of relative sea level rise by mid-
century.
---------------------------------------------------------------------------
    \41\ MR Berman et al., ``Virginia--Shoreline Inventory Report: 
Methods and Guidelines, SRAMSOE No. 450.'' (Comprehensive Coastal 
Inventory Program, Virginia Institute of Marine Science, 2016).
    \42\ NOAA Office for Coastal Management, ``Shoreline Mileage of the 
United States,'' 1975.
    \43\ Berman et al., ``Virginia--Shoreline Inventory Report: Methods 
and Guidelines, SRAMSOE No. 450.''
    \44\ ``Sea Level Trends--NOAA Tides & Currents. Sewell's Point VA 
Station,'' 2019, https://tidesandcurrents.noaa.gov/sltrends/
sltrends_station.shtml?id=8638610.
    \45\ D. P. S. Bekaert et al., ``Spaceborne Synthetic Aperture Radar 
Survey of Subsidence in Hampton Roads, Virginia (USA),'' Scientific 
Reports 7, no. 1 (2017): 14752, https://doi.org/10.1038/s41598-017-
15309-5.
    \46\ T Ezer and L Atkinson, ``Sea Level Rise in Virginia--Causes, 
Effects and Response,'' Virginia Journal of Science 66, no. 3 (2015): 
355-59.
---------------------------------------------------------------------------
    Under Governor Ralph Northam, Virginia is taking bold and 
substantive action to identify and fill the gaps. He intends to build 
capacity for Virginia as we set standards and define how we as a 
coastal state will approach this existential threat. During the 2019 
General Assembly Session, Governor Northam proposed legislation to 
begin to do just that, the Virginia Coastal Protection Fund Act, which 
would have modified and funded the Virginia Shoreline Resilience Fund, 
recast as the Virginia Shoreline Protection Fund, and provided a 
continuing source of income--estimated to be at least $50 million 
annually--generated by the sale of carbon dioxide emissions allowances 
received from Virginia joining the Regional Greenhouse Gas Initiative. 
Funds so generated would support implementing hazard-mitigation 
projects to both mitigate and prevent further flood damage. This 
legislation failed in Committee. And the General Assembly went further, 
preventing Virginia from participating in RGGI under any circumstance 
by blocking the use of agency funds for RGGI participation, even though 
it has already been approved by the Virginia State Air Pollution 
Control Board.\47\
---------------------------------------------------------------------------
    \47\ Lewis et al., ``A BILL to Amend and Reenact  10.1-603.25 of 
the Code of Virginia, Relating to the Virginia Coastal Protection Fund; 
Establishment of a Carbon Dioxide Cap and Trade Program; Authorization 
to Establish an Auction Allowance Program Consistent with the Regional 
Greenhouse Gas Initiative Memorandum of Understanding; Deposit and 
Distribution of Proceeds of Allowance Auctions; Virginia Coastal 
Protection Act.,'' Pub. L. No. SB1666 (2019), 10.1-603.25 (2019), 
https://lis.virginia.gov/cgi-bin/legp604.exe?191+ful+SB1666.
---------------------------------------------------------------------------
    Despite these efforts, Governor Northam remains committed to 
coastal resilience. His priorities are to identify critical 
infrastructure that is vulnerable to rising waters and recurrent 
flooding; to determine the best and most practical, innovative and cost 
effective solutions to adapt and protect that infrastructure; to use 
creative and less costly green or green-gray infrastructure approaches 
to protect more dispersed assets and communities; and to leverage 
federal, state and local funds to help make coastal Virginia more 
resilient to climate change.
    To do this, Governor Northam has established a series of executive 
actions, through Executive Order 24, Increasing Virginia's Resilience 
to Sea Level Rise and Natural Hazards, signed on November 2, 2018. With 
this Order, Virginia is directed to determine the vulnerability of and 
set standards for future built infrastructure throughout the 
Commonwealth, to make Commonwealth holdings more resilient. We have 
established and will implement a series of sea level rise scenario 
planning curves, which we will use to ensure the resilience of state-
owned infrastructure and as recommendations for local governments and 
regions to use in planning and preparations for the future. We have 
also established a series of recommendations for first finished floor 
elevation for future constructed state-owned buildings that may be 
located in floodplains.
    Executive Order 24 also directs development of a Virginia Coastal 
Protection Master Plan to adapt and protect our coastal region. This 
plan will build on and align those actions, which our localities and 
regions have already taken to prepare themselves for their future, and 
will lay out a series of recommended actions and strategies for our 
state to develop and prioritize how it will adapt and protect our 
valuable and vulnerable coastline. In this context we view it as 
essential to work with our federal partners as we move forward to 
better prepare our state, regions, localities, and communities, to 
build trust, and demonstrate value. Finally, Executive Order 24 will 
serve to coordinate, collaborate, and communicate across state 
entities, across and with federal entities, and across our Coastal 
regions, communities, and localities to ensure coordinated objectives, 
and the best use of scarce funding dollars.
    Virginia has identified four key areas of focus. First, the use of 
natural and nature-based features as a way to buy time--as the first 
line of defense--as we build our strategy and understanding of what 
infrastructure is critical and vulnerable, and what the best plans and 
processes will be over time to adapt that infrastructure. Second, we 
are focused on collaborative efforts at every level, working with and 
across localities to expand the capacity of their dollars, of state 
dollars, and where possible, of federal dollars. Third, we are 
committed to ensure environmental justice, as underserved communities 
often bear the most substantial brunt of flooding challenges, and yet 
have the least capacity to plan, apply for grant dollars, determine or 
meet federal and state match requirements, and to sort out solutions to 
fund and implement actions to keep their communities and their 
histories viable into the future. Finally, we will facilitate the 
adoption of resilience practices across state agencies and processes.
    Executive Order 24 builds on actions already underway across 
Coastal Virginia. At the federal level, the Department of Defense, 
Office of Economic Adjustment has initiated a series of ``compatible 
use'' Joint Land Use Studies (JLUS) in Coastal Virginia. The Joint Base 
Langley-Eustis Study with the Cities of Hampton and Newport News was 
completed in 2018, and the Norfolk-Virginia Beach JLUS just entered its 
public comment period in June, and is nearly complete. The third JLUS 
study, including the cities of Chesapeake and Portsmouth, has just 
begun and should be complete in FY 2020. These studies help Coastal 
Communities understand the impacts of rising waters and flooding on 
infrastructure in and around their shared federal facilities, and give 
the communities and their federal partners a better understanding of 
how to prepare and prioritize project outcomes of benefit to both to 
ensure operational and community readiness.
    As described earlier, the US Army Corps of Engineers North Atlantic 
Coast Comprehensive Survey (2015), a post-Hurricane Sandy report, 
recommended seven additional Coastal Storm Risk Management Studies, two 
specific in Virginia. The first, the Norfolk Coastal Storm Risk 
Management Study conducted by the USACE Norfolk District, received its 
signed Chief's Report in February 2019. The second, Northern Virginia/
Potomac River Shoreline, executed by the USACE Baltimore District, 
officially started July 15th, 2019.
    To give you a sense of the enormous costs of making our coast more 
resilient, the City of Norfolk USACE Coastal Storm Risk Management 
Study outlines $1.57B in proposed projects to reduce the impact of 
storm surge and risk on the city.\48\ Though this is valuable work, 
critical to the city's future, it does little to address nearer term 
recurrent flooding across the city, and again, such studies do not, by 
law, include Department of Defense infrastructure in considering 
impacts and design outcomes.
---------------------------------------------------------------------------
    \48\ ``Final Integrated City of Norfolk Coastal Storm Risk 
Management Feasibility Study Report/Environmental Impact Statement,'' 
Feasibility Study (Norfolk, VA: US Army Corps of Engineers, Norfolk 
District, September 2018), https://usace.contentdm.oclc.org/digital/
collection/p16021coll7/id/5490/.
---------------------------------------------------------------------------
    And the City of Virginia Beach is completing a series of studies, 
including a full watershed analysis, and a sea level rise and recurrent 
flooding study that has estimated $2.4B in anticipated costs to reduce 
flooding and surge impacts across the city. Virginia Beach has raised 
taxes and storm-water fees, and committed to $1.3B in spending over a 
15-year period to begin to prepare for these impacts, and yet realizes 
that much of what it must do will require the cooperation of nearby 
cities to achieve the full set of desired resilience outcomes.
    Many other cities are staring down costs on a similar scale, and 
rural localities with more dispersed populations and limited tax bases 
have a wholly different set of needs that must be addressed through 
more creative solutions.
                      What Congress Can Do To Help
    First, I would like to thank both the House and the Senate for the 
addition of climate-related amendments in the 2018, 2019, National 
Defense Authorization Act language and the 2020 NDAA mark-up language, 
and for the language contained in the 2019 Coast Guard Continuity Act. 
These efforts help coastal communities in Virginia with substantial 
federal presence improve coordination at the federal, state, and local 
level and improve resilience for our federal and defense facilities 
along with that of the surrounding communities, without which they 
would not be able to ensure our forces are prepared to deploy. I would 
also like to thank the House and the Senate for their work on the 2018 
Disaster Recovery Reform Act and its many innovative solutions to focus 
on pre-disaster hazard mitigation, which will also give options and 
opportunities for coastal communities to better prepare themselves in 
advance of increased hazardous weather and storm activity. Further, in 
February, 2019, Virginia Secretary of Natural Resources, Matthew J. 
Strickler, submitted testimony for the record with specific 
recommendations as to how Transportation and Infrastructure Committee 
could assist Virginia and other states in mitigating and adapting to 
the impact of sea level rise and extreme weather events.\49\ Several of 
his recommendations are particularly germane to this Subcommittee 
testimony, and include:
---------------------------------------------------------------------------
    \49\ Matthew J Strickler, ``Letter to Submit for the Record of the 
February 27, 2019 Transportation & Infrastructure Committee Hearing 
Titled `Examining How Federal Infrastructure Policy Could Help Mitigate 
and Adapt to Climate Change.,' '' February 22, 2019.

    <bullet>  Helping States organize and prioritize flood control 
projects with USACE,
    <bullet>  Delivering timely USACE studies, and considering third 
party analysis and study, and
    <bullet>  Delivering strong environmental review

    I have included Secretary Strickler's letter of February 22, 2019 
as an attachment for the record.\50\
---------------------------------------------------------------------------
    \50\ Matthew J Strickler.
---------------------------------------------------------------------------
    As sea levels rise and extreme weather events, like the extreme 
rain and flash flooding event of July 8th 2019 here in Washington, DC, 
and the events leading up to and post Hurricane DORIAN, become more and 
more common, the United States is under stress. Since 1980 there have 
been have been 219 disasters costing over $1 billion each, for a 
cumulative cost of $1.57 trillion.\51\
---------------------------------------------------------------------------
    \51\ Adam Smith, ``2017 U.S. Billion-Dollar Weather and Climate 
Disasters: A Historic Year in Context.'' (NOAA Climate.gov, January 
2018), https://www.climate.gov/news-features/blogs/beyond-data/2017-us-
billion-dollar-weather-and-climate-disasters-historic-year.
---------------------------------------------------------------------------
    Because of this, since 1980 the federal government has appropriated 
over $73 billion for disaster preparedness and recovery. In response to 
disasters, Congress has provided an additional $254.6 billion in 
supplemental and contingency funds, nearly three times more than had 
been provided in the annual budget.\52\ This is a fiscal and budgeting 
problem as well as a resilience and disaster preparedness problem. We 
know every dollar spent on disaster mitigation saves $6, which should 
be full justification for Congress to take action to increase the 
amount of money spent on resilience and pre-disaster mitigation. The 
funding is needed, whether it is money for the Army Corps of Engineers 
to study and construct flood control projects, or for DOD and Coast 
Guard to study, understand, and prepare their facilities for current 
and future risk, or for FEMA to improve predictive floodplain mapping 
and help communities move out of floodplains, or money for USGS or NOAA 
to better monitor, analyze and understand flooding and storm surges. 
Increased spending now will better protect people, property and the 
fiscal strength of the United States for tomorrow, and save precious 
dollars over time.
---------------------------------------------------------------------------
    \52\ William Painter, ``The Disaster Relief Fund: Overview and 
Issues'' (Congressional Research Service, February 2019).
---------------------------------------------------------------------------
    Further, this Committee and Subcommittee must recognize climate 
resilience and disaster preparedness as one of the country's greatest 
and most immediate needs. Without significant funding for and 
coordination across the federal agencies that provide resilience and 
pre-disaster mitigation, Congress will fail to meet its charge of 
protecting the communities of the United States. In addition, Congress 
should encourage greater alignment of these programs to eliminate 
redundancies and ensure the most expedient and effective use of funds 
to protect people and property and reduce repetitive disaster spending.
    In addition to resilience, pre-disaster mitigation, and 
infrastructure and flood plain actions, the U.S. Army Corps of 
Engineers (USACE) has a $96 billion backlog of authorized but 
unconstructed projects, while annual appropriations for the USACE 
Construction account under Energy and Water Development appropriations 
bills have averaged $2 billion in recent years. Congress has also 
limited the number of new studies and construction projects initiated 
with annual discretionary appropriations, with a limit of five new 
construction starts using FY2019 appropriations.\53\ Since only a few 
construction projects are typically started each fiscal year, numerous 
projects that have been authorized by previous Congresses remain 
unfunded and backlogged. This problem has worsened in recent decades as 
Congress has authorized construction of new projects at a rate that 
exceeds USACE's annual construction appropriations. This drives 
competition for funds among authorized activities during the budget 
development and appropriations process, and only a few projects make it 
into the President's budget each year. Non-federal entities involved in 
USACE projects are frustrated with the extreme effort it takes to fund 
the projects their localities need, and again, those processes do not 
include federal bases that are within or adjacent to community 
boundaries.
---------------------------------------------------------------------------
    \53\ ``Army Corps of Engineers Annual and Supplemental 
Appropriations: Issues for Congress'' (Congressional Research Service, 
October 2018), https://crsreports.congress.gov/product/pdf/R/R45326.
---------------------------------------------------------------------------
    Finally, additional topic areas of need include:

    <bullet>  Substantive and timely, publically-available scientific 
data
    <bullet>  Expanded USACE Project Development, and alignment with 
DOD/USCG resilience needs
    <bullet>  Support for Department of Defense Office of Economic 
Adjustment
    <bullet>  Aligned and Expanded Federal Block Grant Programs
    <bullet>  State resilience incentivized with Federal Matching Funds
                               Conclusion
    In summary, as viewed from the state and community level, there is 
an urgent need for a coordinated federal effort, and for codified 
Federal/community aligned planning processes to deal with the impacts 
of climate and rising waters on Coastal Communities. Rising waters and 
recurrent flooding know no political boundaries; they know no 
boundaries of wealth or race; they know no boundaries of society. 
Coastal communities and their Federal partners across Virginia and 
around the country are being impacted today.
    This Committee can help by recognizing climate resilience and 
disaster preparedness as one of the country's greatest and most 
immediate needs.
    Virginia is committed to building capacity for our coastal 
communities to prepare for and build resilience to this threat, and as 
one of many impacted coastal and riverine states, we need the support 
of a coordinated nationwide federal response to make this happen.
    We have no time to waste because ``Time and Tide wait for no man.'' 
(The words of Geoffrey Chaucer)
    Thank you again for the opportunity to offer this testimony, and I 
look forward to your questions.

    Mr. Brown. Thank you.
    Dr. Cox, you may proceed.
    Mr. Cox. Thank you, Chairman Brown, Ranking Member Gibbs, 
and members of the subcommittee, for the opportunity to testify 
today. My name is Dan Cox. I am a professor in civil 
engineering at Oregon State University with experience in 
climate engineering and community resilience. I am pleased to 
provide testimony on the role that university-based research 
can play in providing the Coast Guard with tools to protect, 
rehabilitate, and mandate resilience and adaptive port 
infrastructure.
    I will focus on science-based, risk-informed decision 
support tools to further promote resilient port infrastructure, 
including adaptive planning, and adaptation of advanced 
materials and natural and nature-based features.
    Mr. Brown. Can you turn on your microphone, please?
    Mr. Cox. Sorry about that. I won't go through the entire 
list again, if that is OK, but I would like to add one more 
point. I would also like to talk a little bit about the 
importance of the graduate education and maintaining a strong 
workforce for the Coast Guard, but, first, I will talk a little 
bit about the risk-informed decision support tools.
    We have already talked today about the importance of the 
mission to be able to absorb and recover quickly after these 
extreme events. The modern risk-informed decision support tools 
that have been developed can be used to predict what the 
consequences of extreme coastal events would be and allows 
people to focus on optimized solutions, so trying to buy down 
the risk where it is the highest. It captures the uncertainties 
with the hazard as well as the response of how--you know, what 
is going to happen to the infrastructure once these storms come 
ashore.
    So I will give you a couple of examples. NIST, the National 
Institute of Standards and Technology, has funded a risk-based 
center that is producing these open-source modeling tools that 
help with this mitigation strategy.DHS, for example, has funded 
a coastal resilience center and is also creating better tools 
for hazard prediction and looking at the related damage. Tools 
such as HAZUS-MH can be used to look at this type of risk. 
Also, the American Society of Civil Engineers are updating 
their standards for critical facilities to withstand floods, 
hurricanes, surge, and waves. These can all be used in some 
capacity to help make port facilities more resilient.
    We have already heard testimony today about the U.S. Naval 
Station in Virginia that has been using these risk-based tools. 
I think the Coast Guard would also benefit from this type of 
study, trying to look at where the risk is the highest for 
their assets.
    In concert with developing these strategies for the extreme 
events, the Coast Guard also has to consider the chronic 
conditions related to sea-level rise and how you are going to 
adapt to these changing conditions in sea level and storminess. 
For example, the U.S. ports, Navy ports on the Pacific coast 
have already looked at things that would affect operational 
days per year in some of their infrastructure and how far into 
the future do they have to plan in order to keep from exceeding 
these thresholds. So is it a 10-year problem, a 20-year 
problem, or a 50-year problem that helps them make better 
decisions on how to rehabilitate their infrastructure.
    Another big issue with ports is a hostile environment for 
infrastructure. Corrosion is a big issue, and one of the big 
problems facing existing ports is maintenance, rehabilitation, 
and repair, and I think the use of some new technologies, 
higher strike concrete composites, these can help be used to 
extend the service life of a lot of our infrastructure.
    There is also an issue with permitting. So you might have a 
great idea, but if you want to get it permitted, you have to 
think about these things, and natural and nature-based features 
are other ways in which we can think about how to adapt, make 
ports adaptive to future climate change.
    Finally, the Coast Guard and other areas of Federal 
Government need a workforce that is trained in understanding 
these issues of port adaptation, resilience. Some of these 
training programs are already in place. Oregon State 
University, Texas A&M University, and the University of Rhode 
Island trains at the graduate level U.S. Coast Guard officers 
to be able to implement some of these solutions. These programs 
exist. Hope they stay in place, and even if they could be 
enhanced, I think that would be great for the U.S. Coast Guard.
    So, in closing, I would just like to thank the subcommittee 
for all of the efforts, and I would be pleased to answer any 
questions.
    [Mr. Cox's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Daniel Cox, Ph.D., CH2M-Hill Professor in Civil 
                  Engineering, Oregon State University
    Chairman DeFazio, Chairman Maloney, and Ranking Member Gibbs, thank 
you for the opportunity to testify today on the importance of port 
infrastructure resilience within the United States Coast Guard. I am 
pleased to provide testimony today on the role university-based 
research can play in providing the Coast Guard with tools to build and 
maintain resilient and adaptive port infrastructure to fulfill its 
mission.
    I am a professor in the College of Engineering at Oregon State 
University and have been conducting research in coastal engineering for 
more than 30 years, including the impacts of extreme coastal storms and 
tsunami on critical infrastructure. Since 2014, I have served as an 
associate director of the Center for Risk-Based Community Resilience, 
headquartered at Colorado State University and supported through the 
National Institute for Standards and Technology. This center has 
supported me and other researchers to investigate coastal impacts on 
infrastructure, including critical facilities and lifelines such as 
electric power networks, water, communication, and transportation 
network that are essential for immediate response and recovery. Our 
work combines engineering, social science, economics and computer 
science to create metrics to assess community resilience and to develop 
open-source computation tools for risk-informed decision-making to 
enable better strategies for hazard mitigation. I am also a member of 
the Center Resilience Center, headquartered at the University of North 
Carolina, and funded through the Department of Homeland Security. 
Through the National Science Foundation's Natural Hazards Engineering 
Research Infrastructure program, I am supported as the principle 
investigator of the O.H. Hinsdale Wave Research Laboratory at Oregon 
State University, which serves as the Nation's shared-used experimental 
facility for coastal engineering research. I am a member of several 
committees of the American Society of Civil Engineers, including the 
chair of ASCE 7-22 Chapter 5 Flood Load subcommittee. Our subcommittee 
provides improvements to building codes to ensures the safe design of 
structures subjected to riverine flooding and to coastal surge and 
waves.
                                Overview
    This testimony provides perspective on the importance of and 
opportunity for the Coast Guard to access and utilize science-based, 
risk-informed decision-support tools to further promote resilient port 
infrastructure, including adaptive planning for port infrastructure, 
advanced materials and health monitoring, natural and nature-based 
features (NNBF), as well as the importance of graduate educational 
programs for workforce development.
 Risk-informed Decision-support Tools for Resilient Port Infrastructure
    Resilience is the ability to absorb and recover quickly from a 
sudden stress. During extreme threats posed by coastal hurricanes and 
tsunami, it is essential that Coast Guard port facilities be able to 
absorb and recover quickly because these facilities are essential for 
emergency response, search and rescue, and for the early stages of 
recovery. Modern, risk-informed decision support tools have been 
developed that can be used to predict the consequences of extreme 
coastal events on port infrastructure and can be used to develop 
optimized solution strategies. Probabilistic tools, rather than 
scenario-based planning tools, can capture the uncertainties in both 
the hazard and system response, and can be used to identify highest-
risk conditions for developing effective mitigation strategies.
    These tools should be considered for resilient port infrastructure 
design, maintenance and operation. The US Naval Station at Norfolk VA, 
for example, has been studied extensively using risk-based approaches 
to determine which types of loading (wind, wave, and surge) were 
threats to the various assets; identify the most likely infrastructure 
failure modes; and generate the probability of damage based on the 
capacity and demand. These studies can also be conducted relevant to 
the Coast Guard or other critical port infrastructure to inform 
performance-based design of critical port infrastructure and improve 
risk communication and urgency for port infrastructure improvements. 
Additionally, work by the NIST-funded Center for Risk-Based Community 
Resilience is producing open-source modeling tools to enable better 
strategies for hazard mitigation. Further, the DHS-funded Coastal 
Resilience Center is creating better hazard prediction tools and 
related damage functions to predict infrastructure damage due to 
hurricane surge and waves, and can be used in conjunction with for 
decision-support tool such as HAZUS-MH. Work by the American Society of 
Civil Engineers is updating design standards for critical facilities to 
withstand floods, hurricane wave and surge, and tsunamis and can be 
used to make port facilities more resilient to these extreme events. 
These examples underscore the increasing access to and utility of 
decision-support tools and building design standards that are available 
to planners that can effectively promote enhanced resiliency of our 
critical federal and coastal infrastructure.
               Adaptive Planning for Port Infrastructure
    In concert with developing effective mitigation strategies for 
extreme events, the Coast Guard must consider port infrastructure under 
the chronic conditions related to sea level rise and changing storm in 
patterns. Nuisance flooding and other hazards associate with chronic 
coastal conditions can impact the Coast Guard's mission, impacting 
readiness and operation. The Coast Guard should consider adaptive 
planning to improve port infrastructure and account for future sea 
level uncertainties and associated short- and long-term 
vulnerabilities. For example, studies conducted on US Naval ports along 
the Pacific Coast, quantify the number of days per year when 
operational thresholds will be exceeded for critical infrastructure 
such as bridges and other lifeline networks due to combinations of 
future sea level rise, El Nino events, and changes in weather patterns. 
Investing in studies and analyses to make these future projections 
would allow port planners to compare elevation, relocation, and other 
adaptive mitigation strategies.
   Advanced Materials and Health Monitoring for Port Infrastructure 
                             Rehabilitation
    Changes in water levels will also affect, and in some cases 
accelerate, the deterioration of port infrastructure. This 
deterioration can be reduced by improving the corrosion resistance of 
steel in reinforced concrete, potentially improving the service life of 
the infrastructure, and allowing adaptive strategies to be enacted. 
Service life models can be used to better document what remaining life 
a facility may have and improve decision-making on infrastructure 
rehabilitation. Improved models relating exposure conditions from 
extreme surge and waves on long term performance can be used to provide 
better service life prediction, and advances in high performance 
concrete can be use improve new construction.
    Natural and Nature-Based Features (NNBF) for Port Infrastructure
    Natural and nature-based features can be used to protect port 
infrastructure and to provide ecological benefits to adjacent areas. 
Research has demonstrated that NNBF can reduce wave and surge 
conditions acting on exposed port infrastructure, and biocementation 
can be used to mitigate effects of erosion and scour under extreme 
storm conditions. Specifically, research relying on field observations 
after major storms combined with laboratory testing and numerical 
modeling confirms the role that NNBF can play in reducing the hazards 
associated with coastal storms on the built environment. At Oregon 
State University, through support of the National Science Foundation 
and the Natural Hazards Engineering Research Infrastructure program, 
and in collaboration with 5 other universities, we recently conducted 
one of the first comprehensive studies of the role of NNBF for coastal 
protection against hurricane wave and surge. This new research allows 
engineers to quantify the benefits of NNBF in the design of coastal 
infrastructure and to use NNBF in conjunction with traditional 
structures. This not only lowers the overall cost of infrastructure 
projects: it can also improve the permitting process by providing co-
benefits for marine habitat and recreation. The US Army Corp of 
Engineers was also a partner on this project and has accelerated 
research and practical application of NNBF to mitigate coastal hazards. 
Similarly, the Coast Guard should consider the role of natural and 
nature-based features in the rehabilitation of existing infrastructure 
and future projects, including ways in which NNBF can supplement and 
integrate with more traditional infrastructure for better meeting 
objectives for adaptation and resilient planning.
        Graduate Educational Programs for Workforce Development
    The Coast Guard and other areas of the federal government need a 
workforce trained in understanding issues of port infrastructure 
adaptation and resilience. Some of these training programs are already 
in place. At Oregon State University, for example, we are engaging with 
Coast Guard and Navy students at the graduate education level. We 
provide a rigorous academic program combined with hands-on research 
projects tailored to the missions of these agencies. We encourage the 
Coast Guard to continue and enhance their workforce training at the 
graduate level in the area of coastal engineering to build and maintain 
resilient and adaptive port infrastructure.
                                Summary
    In closing, I thank the Subcommittee for your efforts to consider 
the role of university-based research and education can play in 
providing the Coast Guard with tools to build and maintain resilient 
and adaptive port infrastructure to fulfill its mission. I would be 
pleased to answer any questions.

    Mr. Brown. Thank you, Dr. Cox.
    Mr. Hecht, you may proceed.
    Mr. Hecht. Thank you, Chairman Brown, Ranking Member Gibbs, 
and members of the subcommittee. I appreciate the opportunity 
to appear before you today, and I am pleased to discuss some of 
the challenges facing the Coast Guard, our ports, and other 
public agencies as they try to make sure our coastal 
infrastructure is resilient to emerging risks relating to 
coastal change.
    For over 10 years, I have studied the way that coastal 
managers and the insurance industry address climate change-
related risks. Managers of coastal properties and 
infrastructure have to make strategic choices about where and 
how to invest. Federal management investment decisions 
influence downstream infrastructure investments in the public 
and private sector. With that in mind, the challenges that are 
faced by global risk managers, like insurers, hold lessons for 
the Federal Government.
    We built our infrastructure around an historical range of 
conditions, knowing there may be extreme conditions at times, 
but it is clear that the past is no longer a reliable indicator 
of the future, and the conditions that we view as extreme today 
will become more ordinary. Moreover, we don't know the 
magnitude or pace of the change precisely since that depends on 
complex physical systems and on how much we reduce greenhouse 
gas emissions.
    Federal agencies have a responsibility to ensure resilience 
to coastal change in the management of Federal assets, and 
vulnerability assessment and adaptation planning are essential 
for agencies to understand and evaluate the risks under a range 
of future scenarios and to strategically invest in resilience.
    I want to note that coastal adaptation planning is 
increasingly common at the State and local level. So, for 
example, California's Coastal Commission, which administers the 
Coastal Zone Management Act in California, has been very 
forward thinking. And the Port of Los Angeles in Representative 
Lowenthal's district recently developed a sea-level rise 
adaptation plan that evaluates physical assets exposure, 
sensitivity to change, and adaptive capacity. Their plan 
reviewed multiple scenarios to account for uncertainty from 
about 2 feet of sea-level rise all the way up to 6 feet of sea-
level rise, which is within the range of predictions that we 
have.
    The private sector is focusing on adaptation more and more, 
and I want to focus on that for a while. Corporations are 
taking steps to assess and address vulnerabilities in their 
assets, and significantly, the insurance sector, which holds 
the most financial risk across the world economy, is 
increasingly concerned with climate-related risks. The type and 
level of disruption and uncertainty climate change will cause 
makes it challenging to plan for the future and increases the 
likelihood of chaotic outcomes.
    Climate change increases the uncertainty of risks, and this 
is a challenge for insurers. Insurers can't insure where they 
can't predict risks over time, so the major insurers are 
investing heavily in better understanding climate risk as they 
sound the alarm. For example, officials at Lloyd's of London 
and Munich Re noted after Hurricane Sandy the likely 
connections between climate change and future increases in 
storm damage, and we see a lot of investment by especially the 
largest global insurers in understanding climate better.
    The most recent annual survey of emerging risks by the 
professionals whose job it is to evaluate financial risk for 
the private sector actuaries named climate change as both the 
top emerging risk and the top current risk last year. The most 
sobering assessments within the insurance sector focus on the 
uncertainty that climate change injects into insurers' business 
models and the strategic challenges that uncertainty creates 
for risk management.
    Within U.S. insurance markets, flood insurance has long 
been a special case among weather-related risks, even 
independent of and long before we recognized climate change 
risk. Private insurers largely pulled out of the flood 
insurance market in the middle 20th century as a result of 
massive correlated losses from hurricanes that made many 
insurers view flood risk as uninsurable.
    One might suspect that availability of private coastal 
flood insurance will only get worse under emerging conditions, 
but recent research instead provides reason for optimism. 
Private flood insurance availability is improving as insurers 
develop more and better information about coastal risk through 
research, modeling, and data analysis and as planners work to 
address those risks. Insurers have made clear that more robust 
information and analysis about emerging risks and evidence of 
community scale risk mitigation planning are crucial to their 
ability to manage risks. The value of anticipating the need for 
elevation of structures or maintaining a wetland that protects 
structures from king tides or storm surges can be quantified 
and considered, and this is of value to insurers.
    So what does this mean for the Coast Guard and for port 
infrastructure? Federal planers can draw lessons. First, more 
information and analysis to clarify risk is crucial. Risk is 
inevitable, but understanding risks enables us to plan for 
them.
    Second, planning for resilience will reduce uncertainty and 
facilitate better investment and prioritization by Federal 
agencies. Just as insurance underwriters are willing to address 
even very difficult risks where loss prevention measures are in 
place, Federal agencies can decrease their vulnerability 
through sound planning.
    And the most crucial action is to integrate resilience 
planning governance into Federal actions at every step to 
consider that climate changes are considered in planning and 
decisionmaking about how and where we build and rebuild. 
Planning informs asset investment by agencies like the Coast 
Guard and also can inform grant making under, for example, the 
Port Infrastructure Development Grant and port security grant 
programs. Investing early to reduce and protect assets in light 
of real science will pay off. Thank you for your consideration, 
and I look forward to your questions.
    [Mr. Hecht's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Sean B. Hecht, Co-Executive Director, Emmett 
    Institute on Climate Change and the Environment, University of 
                California at Los Angeles School of Law
    Chairman Maloney, Ranking Member Gibbs, and Members of the 
Subcommittee:
    Thank you for the opportunity to appear before you today. I am 
pleased to be here to discuss some of the challenges facing the Coast 
Guard, our ports, and other public agencies as they try to make sure 
our coastal infrastructure is resilient to emerging risks relating to 
coastal change. The views I express in this testimony are my own, and 
not the views of UCLA School of Law.
    For over ten years, I have studied the ways private and public 
institutions address emerging climate-change related risks to 
infrastructure and communities. I have followed closely the ways local, 
state, and federal coastal managers address climate change in their 
planning. I have also analyzed climate change's interactions with the 
insurance sector, which holds much of the world's weather- and climate-
related financial risk.
    Managers of coastal properties and infrastructure, including 
federal agencies, have to make strategic choices about where and how to 
invest. Federal management and investment decisions also influence 
downstream infrastructure investments in the public and private sector. 
These decisions necessarily involve consideration of all relevant 
risks. With that in mind, the challenges faced by global risk managers 
like reinsurers hold lessons for the federal government.
    Coastlines, by their nature, undergo constant changes as well as 
occasional serious disruptions. The stability of our coastal 
infrastructure has always required careful attention to the physical 
conditions and the risks these conditions pose. But the evidence is 
clear: sea-level rise and increased storm-related coastal risk present 
new challenges that our infrastructure isn't designed for. Scientists 
have measured sea-level rise over the past century at an average of 6-8 
inches already, with evidence the rate of rise is accelerating. A 
combination of factors, including changes in storm dynamics and the 
impact of rising seas on king tides along with increased urbanization 
and infrastructure on our coastlines, will result in more rapid coastal 
change and more vulnerability than we've seen in the past.
    This will affect communities throughout the U.S. The National 
Oceanic and Atmospheric Administration (NOAA) found in a 2018 report 
that ``While the rate and overall amount of [relative sea-level] rise 
over this century (and beyond) is uncertain, as it is linked to future 
amounts of emissions and global temperature rise, it is nearly certain 
that high tide flooding will become increasingly chronic within coastal 
communities over the next several decades simply under current rates of 
local [relative sea-level] rise.'' \1\
---------------------------------------------------------------------------
    \1\ William V. Sweet et al., Patterns and Projections of High Tide 
Flooding Along the U.S. Coastline Using a Common Impact Threshold (NOAA 
Technical Report NOS CO-OPS 086 2018) (citation omitted), available at 
https://tidesandcurrents.noaa.gov/publications/
techrpt86_PaP_of_HTFlooding.pdf.
---------------------------------------------------------------------------
    Future chronic high-tide flooding in previously safe communities 
illustrates a key point. We built our infrastructure around a 
historical range of conditions--knowing that there may be extreme 
conditions at times. But it's clear the past is no longer a reliable 
indicator of the future, and the conditions we view as extreme today 
may become more ordinary, or at least more frequent. Moreover, we do 
not know what the magnitude or pace of the change will be, since that 
depends on complex physical systems as well as on how much we reduce 
greenhouse gas emissions. It is increasingly challenging to plan 
effectively for the future in a literal climate of uncertainty.
    Federal agencies have a responsibility to ensure resilience to 
coastal change in the management of federal assets. In light of the 
foreseeable direction and probable magnitude of change, planning and 
investment will reduce the economic and social costs of sea-level rise, 
storm surge, and other impacts, compared with reacting when the hazard 
materializes. Vulnerability assessments and adaptation planning help 
agencies to understand and evaluate the risks under a range of future 
scenarios, and then to strategically invest in resilience accordingly.
    I want to note here that adaptation planning is increasingly common 
at the state and local level, in addition to federal efforts. 
California's Coastal Commission, which administers California's Coastal 
Zone Management Act program, has been particularly forward-thinking in 
planning for coastal resilience. Other agencies have also had to 
address coastal change in the context of asset management. For example, 
the Port of Los Angeles, in Rep. Lowenthal's district, recently 
developed a Sea Level Rise Adaptation Plan. That plan evaluates 
physical assets' exposure, sensitivity to change, and adaptive 
capacity, as well as potential economic, social, and environmental 
vulnerabilities. It projects serious consequences if the Port fails to 
adapt.
    The private sector is also focusing on adaptation more and more. 
Corporations are taking steps to assess and address vulnerabilities in 
their assets. Significantly, insurance executives, underwriters, and 
actuaries, who drive decisionmaking by the companies that hold the most 
financial risk across the world economy, are increasingly concerned 
with climate-related risks.
    The Department of Defense has called climate change a ``threat 
multiplier'' to national security, and for good reason. The type and 
level of disruption and uncertainty that climate change will cause 
makes it challenging to plan, and increases the likelihood of chaotic 
outcomes. Similarly, because climate change increases the uncertainty 
of risks, it is a threat to risk managers and their clients.\2\ 
Insurers cannot insure where they can't predict risks over time. The 
major international insurers, which hold the most risk, are 
particularly concerned, and are investing heavily in better 
understanding climate risk--as they sound the alarm within their 
industry and more generally. Officials at both Lloyd's of London and 
Munich Re noted, after Hurricane Sandy, the likely connections between 
climate change and future increases in storm damage.\3\ The projected 
rise in sea level will further increase the risk of storm surge.
---------------------------------------------------------------------------
    \2\ See Sean B. Hecht, Climate Change and the Transformation of 
Risk: Insurance Matters, 55 UCLA L. Rev. 1559 (2008), for a more 
comprehensive discussion of the strategic risks climate change poses 
for the insurance sector. Available at https://www.uclalawreview.org/
pdf/55-6-3.pdf.
    \3\ Munich Re, Natural catastrophe statistics for 2012 dominated by 
weather extremes in the USA (January 3, 2013), https://
www.munichre.com/en/media-relations/publications/press-releases/2013/
2013-01-03-press-release/index.html.
---------------------------------------------------------------------------
    The most recent annual survey of emerging risks by three major 
actuarial societies--the professionals whose job it is to evaluate 
financial risks for the private sector--named climate change as both 
the top emerging risk and the top current risk.\4\ The most sobering 
assessments within the sector focus on the uncertainty that climate 
change has injected into insurers' business model, and the strategic 
challenges it creates for risk management. The International 
Association of Insurance Supervisors recently noted ``the potential for 
physical climate risks may change in non-linear ways, such as a 
coincidence of previous un-correlated events, resulting in unexpectedly 
high claims burdens,'' and concluded that ``[a]t the macro-economic 
level, uninsured losses from physical risks may affect resource 
availability and economic productivity across sectors, the 
profitability of firms and individual assets, pose supply chain 
disruptions, and ultimately impact insurance market demand.'' \5\
---------------------------------------------------------------------------
    \4\ Max J. Rudolph, 12th Annual Survey of Emerging Risks: Key 
Findings (Casualty Actuarial Society et al. 2019), available at https:/
/www.soa.org/globalassets/assets/files/resources/research-report/2019/
12th-emerging-risk-survey.pdf.
    \5\ International Association of Insurance Supervisors, Issues 
Paper on Climate Change Risks to the Insurance Sector (July 2018), 
available at https://www.insurancejournal.com/research/research/
success/climate-change-risks-to-the-insurance-sector/.
---------------------------------------------------------------------------
    Within U.S. insurance markets, flood insurance has long been a 
special case among weather-related risks, independent of climate change 
risk. Private insurers largely pulled out of the flood insurance market 
in the mid-20th century. This was the result of massive, correlated 
losses from hurricanes that made insurers view flood risk as 
uninsurable. Most insurable risks are spread over a large area, and 
occur more or less randomly across a large number of insureds. Think 
about auto insurance: not every drive will have an accident the same 
day. Instead, they are well-dispersed, enabling insurers to price the 
risks and to maintain sufficient capital to pay claims. Storm-related 
losses, and flood-related losses generally, are different. Insurers 
can't spread these risks effectively. The National Flood Insurance 
Program fills the gap in private flood insurance. Of course, that 
program has its own challenges that are out of the scope of this 
hearing.
    One might suspect that availability of private coastal flood 
insurance will only get worse under emerging conditions. But recent 
research instead provides reason for optimism. Private flood insurance 
availability is improving as insurers develop more and better 
information about coastal risks through research, modeling, and data 
analysis, and as planners and infrastructure managers work actively to 
address those risks.\6\ Insurers have made clear that more robust 
information and analysis about emerging risks, and evidence of 
community-scale risk mitigation planning, are crucial. The value of 
anticipating the need for elevation of structures across an entire 
area, or maintaining a wetland that protects structures from king tides 
or storm surges \7\, can be quantified and considered. And over time, 
insurers' decisions may also signal practices that make assets so 
vulnerable that new investment should be avoided.
---------------------------------------------------------------------------
    \6\ Carolyn Kousky et al., The Emerging Private Residential Flood 
Insurance Market in the United States (Wharton 2018), available at 
https://riskcenter.wharton.upenn.edu/wp-content/uploads/2018/07/
Emerging-Flood-Insurance-Market-Report.pdf.
    \7\ Lloyd's of London, Coastal Wetlands Save Hundreds of Millions 
of Dollars in Flood Damages During US Hurricanes (October 25, 2016), 
https://www.lloyds.com/news-and-risk-insight/press-releases/2016/10/
coastal-wetlands-save-hundreds-of-millions-of-dollars-in-flood-damages-
during-us-hurricanes.
---------------------------------------------------------------------------
    What does this mean for the Coast Guard, and for Port 
infrastructure?
    Federal planners can draw lessons from the insurance sector. First, 
more information and analysis to clarify and assess site-specific and 
programmatic risks is crucial. Risk is inevitable. But where agencies 
understand risks, they can plan for them. Developing and using tools to 
assess the vulnerability of their infrastructure and personnel can help 
federal agencies to reduce risk, and to anticipate practices for 
adapting even to catastrophic events by managing risk more effectively. 
And agencies don't need to reinvent the wheel. Other agencies, academic 
researchers, and insurers have developed tools that can assist with 
modeling of physical conditions, assessment of economic and social 
vulnerability, and analysis of other parameters.
    Second, planning for resilience will reduce uncertainty and 
facilitate better investment and prioritization by federal agencies. 
Just as insurance underwriters are willing to address even very 
difficult risks where loss prevention measures are in place, federal 
agencies can decrease vulnerability through sound planning. New 
infrastructure should avoid the most vulnerable areas, and agencies 
should evaluate the adaptability of what they've already built. A range 
of strategies will be necessary, including retrofitting existing 
structures, rebuilding smarter after disasters, using natural 
infrastructure to mitigate risks, and avoiding building in the most 
vulnerable places.
    The most crucial action is to integrate resilience planning and 
governance into federal actions at every step, to ensure that climate 
change's impacts are considered in decisionmaking about how and where 
we build and rebuild, and that agencies understand the reasonable range 
of possible futures. This process will enable agencies to plan 
effectively for a range of scenarios. This type of planning can inform 
asset investment by agencies like the Coast Guard, and also may inform 
other programs, like grantmaking under the Port Infrastructure 
Development Grant and Port Security Grant programs. Investing early to 
reduce risk and protect assets will pay off.
    Thank you for your consideration and I look forward to your 
questions.

    Mr. Brown. Thank you, Mr. Hecht.
    We will now move on to Member questions. Each Member will 
be recognized for 5 minutes, and I will start by recognizing 
myself.
    Admiral Phillips, you mentioned the intergovernmental pilot 
project down at Hampton Roads. What were some of the resources 
that were crucial to that project that any coastal city with 
Federal facilities would need to conduct their own integrated 
adaptation plan.
    Admiral Phillips. Yes, sir. Thank you for your question.
    The intergovernmental pilot project was one of four Federal 
and three Department of Defense pilot projects. It did not come 
with Federal resources or really any resources. It was a total 
voluntary effort. It was approved through the Office of the 
Secretary of Defense, and Navy was designated as lead service, 
so it was totally voluntary throughout.
    What it did have, though, that facilitated action was Old 
Dominion University serving as a convener to provide a neutral 
entity upon which to base actions and activities. It had at its 
start a completed charter and suggestions for working groups. 
There were six working groups and four advisory committees that 
were already formed plus a steering committee and 
recommendations for who should serve on those committees and 
working groups and how the process should move forward. So it 
started with a charter in place. It was authorized by the 
Department of Defense, and the lead service was designated who 
was authorized to participate. And I would also add that we had 
considerable participation from the Coast Guard, Department of 
Homeland Security, Department of Energy, Department of 
Transportation, all facilitated through a letter Senator Kaine 
wrote requesting that the National Security Council include all 
of the agencies in this pilot project effort specifically in 
the State of Virginia.
    So, with that kind of written support, we had a foundation 
upon which to move forward. Then it was a matter of getting the 
cities and localities involved and engaged, and what kept them 
there was Federal, State, and local participation, which many 
of them said they had not seen before. Thank you.
    Mr. Brown. Thank you.
    Dr. Cox, in your testimony, you discuss the potential 
applications of risk-informed decision support tools, and what 
do you see are potential barriers to utilizing a tool like 
that?
    Mr. Cox. I think for the ports in particular, a lot of 
these----
    Mr. Brown. And is your mic on? I haven't been asking 
people.
    Mr. Cox. I think so.
    But I think the Coast Guard in particular, the barriers, I 
think, one, is having the training, people that can operate 
these tools that are just not off the shelf, you know. You need 
somebody who really knows what they are doing and can interpret 
the results.
    I think a second thing is a lot of the consequence, like 
how much damage could occur, it could be specific to the type 
of asset that the Coast Guard has. And if those relations 
aren't developed yet, then somebody has to, either through 
expert opinion or computer modeling or experiments, come up 
with what those damage functions would be.
    So, depending on what they are trying to look at, if it is 
a building, that is kind of--you could say that is done 
already. But if it is a particular port asset, there might have 
to be some work behind the scenes to get the right damage 
function.
    Mr. Brown. Thank you.
    I will now recognize each Member for an additional 5 
minutes of questions, and we will begin with Mrs. Miller.
    Mrs. Miller. Thank you, Chairman Brown and Ranking Member 
Gibbs. I appreciate that.
    And thank you all for being here today.
    Rear Admiral Phillips, how can Congress better collaborate 
with our State and local leaders when it comes to disaster 
preparedness?
    Admiral Phillips. Thank you for your question, ma'am.
    The challenge for State and local leaders is that there are 
a number of Federal programs that work disaster preparedness 
predisaster, FEMA, HUD, NOAA, NFWF, just to name a few. They 
are not coordinated amongst themselves, and this is a part of 
our challenge.
    There are also programs being developed within the 
Department of Defense, the Defense Community Infrastructure 
Program, which was created under the 2019 National Defense 
Authorization Act but not funded, not appropriated, and also 
Defense Access Roads Program, which comes out of MILCON 
dollars, which are always scarce across the services, are also 
options and opportunities for localities and the State perhaps 
to collaborate with Federal entities.
    But the real challenge and the real need is for a 
coordinated effort across Federal agencies that focuses on this 
issue, that aligns grants and funding, and that is 
understandable and accessible by not only States but also 
localities.
    Mrs. Miller. Thank you. I have found that same issue in 
West Virginia in dealing with things.
    Dr. Cox, what are the key factors that lead to Coast Guard 
infrastructure resiliency so that the Service can quickly 
recover from extreme weather events and transition to emergency 
response and search/rescue operations?
    Mr. Cox. Could you please repeat just the first part of the 
question?
    Mrs. Miller. What are the key factors that lead to Coast 
Guard infrastructure resiliency?
    Mr. Cox. Yeah. I think one of the keys is implementing the 
findings of these studies. So, if they are looking at here is 
where the greatest risk is, they know what the greatest risk 
is, OK, well, there needs to be a way to implement those 
findings.
    Mrs. Miller. OK. Thank you.
    Mr. Hecht, what can commercial and residential areas do to 
protect themselves and mitigate damage from flooding such as 
the devastation that struck West Virginia earlier this year?
    Mr. Hecht. Thank you for the question.
    The best thing that local governments can do in communities 
is to do the proper kind of planning. And often what we see is 
that scenario planning, looking at various different possible 
futures because of the uncertainty, is essential to being able 
to plan properly.
    So we might look at one scenario which has a relatively 
small amount of coastal change and another area with a 
different set of assumptions. And vulnerability assessment is 
the practice of doing that and also looking at the social 
vulnerability, not just the physical vulnerability, but the 
social and economic vulnerability that go along with that.
    So we see many examples of local governments that are doing 
that kind of adaptation planning. One of the biggest challenges 
that they face in that planning is funding to do the planning 
and then, of course, the implementation, which sometimes 
creates not only funding challenges but also challenges of 
political will because governments have to make hard choices 
sometimes that affect residents in challenging ways.
    Mrs. Miller. Thank you very much.
    I yield back my time. Thank you.
    Mr. Brown. Thank you.
    Mr. Lowenthal.
    Mr. Lowenthal. Thank you, Mr. Chair.
    My first question is for Mr. Cox. In your testimony, you 
discussed--and this is both the written, especially--you 
discussed how natural and nature-based features can be used to 
protect port infrastructure. Can you elaborate on how expanded 
uses of natural and nature-based features are beneficial to 
private industry, and how can they be used on the large scale, 
such as at some of our Nation's busiest ports, which I 
represent?
    Mr. Cox. Yeah. Thank you for the question.
    So the role of natural, nature-based features, one thing is 
it could be used to mitigate the intensity of the storm. So it 
can reduce surge, wave action, the stuff that is going to 
impact the structure. The other thing it can help to do is to 
change patterns of sedimentation. So one of the big issues with 
ports is keeping them open----
    Mr. Lowenthal. Open.
    Mr. Cox [continuing]. For shipping. And so, if you are 
using a natural system to trap the sediments, basically you can 
improve the navigability of the ports.
    Mr. Lowenthal. What kinds of natural----
    Mr. Cox. In Florida, for example, mangroves. So after 
Hurricane Irma, Maria, they saw that areas with mangroves 
suffered a lot less damage. With climate change there is a 
potential there is going to be more mangroves along the Texas 
coast and further north. That is just one example.
    One of the other ones is called biocementation, so this is 
a process where you are accelerating the rate at which 
sediments can adhere to each other.
    Mr. Lowenthal. Yes.
    Mr. Cox. Basically, you could eventually turn it into 
sandstone, if you wanted to. But trying to come up with an 
engineering way to apply that after a big storm, you know, 
instead of using sandbags or geotubes or something like that.
    Mr. Lowenthal. Thank you.
    Mr. Hecht, in your testimony, you talked about my part of 
the country when you were talking about the Port of Los 
Angeles, which is just adjacent to my district. I am the Port 
of Long Beach, but they are really one combined port. And its 
sea-level rise adaptation plan might be an example for the rest 
of the country. Can you elaborate on how the port actually 
designed and implemented this plan, and what can we learn from 
adaptation projects on this magnitude?
    Mr. Hecht. Yes. Thank you for the question, Representative 
Lowenthal. And I apologize for mischaracterizing the boundaries 
of your district.
    Mr. Lowenthal. I will take the port of--I represented the 
Port of L.A. and Long Beach, as well, while I was in the State 
legislature, so I accept some ownership.
    Mr. Hecht. So the port's planning process was detailed in a 
paper that they published recently just in the last few months. 
I haven't dug into the details of the adaptation plan, and my 
understanding is that it came out recently enough that there 
hasn't yet been implementation.
    Mr. Lowenthal. OK.
    Mr. Hecht. But what seems innovative about it to me and 
important is the fact that they are doing scenario planning, 
that they are looking at different possible futures, some 
futures with less sea-level rise, some with more, some with a 
certain amount of storm surge, and doing that and basing their 
determinations on that modeling.
    The other really important feature of any sound adaptation 
planning, which appears to be in the port's plan, is that they 
are integrating plans for resilience in their planning process. 
It is not just a matter of let's build this thing here and 
let's remove that thing there. It is a matter of integrating 
this type of planning whenever they are making decisions about 
their infrastructure so that they understand what the 
vulnerabilities are of that infrastructure under different 
scenarios.
    And so they explicitly have put into their planning and 
governance taking into account the latest projections of sea-
level rise and related risks over time as they plan new 
infrastructure as they think about what they are doing going 
forward. So those seem to me to be the most important features, 
and they are the features of any really worthwhile adaptation 
planning process.
    Mr. Lowenthal. I also kind of am looking at and want, Mr. 
Hecht, maybe a greater understanding of how potentially some of 
our interventions--the very intervention may cause some 
problems. I raise that in terms of as we invest in resilient 
shore infrastructure, I think it is important to keep in mind 
the environmental impacts of these very upgrades and what they 
might have. Not only should we be concerned about adapting to 
the impact of climate change, but we have to look at how we can 
mitigate the environmental impact of the new infrastructure 
itself. And so can you talk about how investing in resilient 
shoreside infrastructure can be an important way of reducing 
our overall environmental footprint?
    Mr. Hecht. I would be happy to.
    Mr. Chairman, I see my time is up, but may I respond?
    Mr. Brown. Well, since we are on short final, why don't you 
go ahead and answer the question, please?
    Mr. Hecht. Thank you.
    So that is a really important point. And so the California 
Coastal Commission is a good example of an agency that is 
really taking those----
    Mr. Lowenthal. Yes.
    Mr. Hecht [continuing]. Considerations into account. So, in 
their planning processes, they are looking very closely at 
shoreline armoring like seawalls and the spillover impacts that 
those might have and encouraging the use of other types of 
solutions, some of which include the types of natural 
infrastructure solutions that Dr. Cox was talking about.
    In some cases, it is going to be difficult or impossible to 
do that, to protect particular kinds of assets that are fixed 
in place with very long, useful lives. But where possible, that 
is a key aspect of planning is to try to take that into 
account. It is not just about destroying nature and ecosystems; 
it is also about spillover impacts on other users of the 
coastline and beach loss and other impacts like that. So that 
question was very--it really does get at the heart of an 
important point.
    Mr. Lowenthal. Thank you.
    And I yield back. And I thank the chair for letting me have 
that extra minute.
    Mr. Brown. Thank you for that very important question and 
rounded out your 5 minutes brilliantly, yes.
    Mr. Gibbs.
    Mr. Gibbs. Thank you, Chairman.
    Of the GAO's 10 recommendations for the Coast Guard 
management of shoreside infrastructure, which do you see, if 
any, of those recommendations apply to local ports and the 
maritime transportation system? Whoever wants to answer it.
    Mr. Hecht. So I am not deeply familiar with all the 
recommendations in the GAO report. I looked at the report, but 
I don't have it in front of me now. I don't know if my 
copanelists can, but I am happy to talk about particular ideas.
    Mr. Gibbs. That is fine. I will go on. I will move on.
    I guess, Mr. Hecht, I guess you got my attention when you 
talked about out in California, the California Coastal 
Commission figures either the variation of a 2-foot to a 6-foot 
rise in sea level, which is, I think, a pretty good variation.
    I guess my first thought is, what is the sea-level rise at 
the port of L.A., for example? I was out there a few years ago. 
I know it was all built in dredge material. I was fascinated by 
that port out there. But what are we seeing, if any, rise in 
the last 20, 30 years, or what is going on? Just give me an 
idea.
    Mr. Hecht. So, over the last century, we have seen an 
average over the country of 6 to 8 inches. I think that the 
rise is slightly less in southern California so far. There is 
evidence from research that the rate of rise is accelerating.
    And you are correct that that is a highly variable range. 
That is based on estimates not just from the Coastal Commission 
but also from NOAA, which is really the--you know, NOAA has 
done incredible work to really try to define the parameters of 
sea-level rise. And its most recent report--I believe it is the 
most recent report from 2018--provides a lot of insight into 
it. It is hugely challenging to have that type of a range, and, 
again, that is part of why----
    Mr. Gibbs. That goes--well, you mentioned about the 
insurance actuaries.
    Mr. Hecht. Yeah.
    Mr. Gibbs. But how do you--we are building resilient 
infrastructure. How do you figure--you know, when you start 
looking at cost-benefit analysis and, you know, try to be 
reasonable, practical----
    Mr. Hecht. Right. So you look at robustness over a range of 
scenarios. You can't look at just one scenario. You look at the 
range of scenarios, and you can't always plan for the worst 
case, but you can plan for infrastructure to be resilient over 
a range of the most probable outcomes.
    And you can have different plans for different scenarios 
that are adaptable in 10 or 20 or 30 years when we see 
different levels of change. You create infrastructure that is 
adaptable enough that we can build that resilience in and 
change it if we need to. So creating something that might more 
easily be elevated, for example, if you are building something 
new rather than something that is so fixed in place that it is 
immovable would be an example of that.
    Mr. Gibbs. Yeah, if you start new construction, it would be 
more cost effective probably.
    Mr. Hecht. Yes.
    Mr. Gibbs. OK. I don't know if this is a pertinent question 
to this panel. I think maybe. We will see. The Great Lakes. I 
don't know--you are from Oregon, and you are from California, 
and you are from Virginia, so maybe----
    Mr. Hecht. I went to law school at the University of 
Michigan, so----
    Mr. Gibbs. OK, well----
    Mr. Hecht. I lived in Michigan for a while.
    Mr. Gibbs. We are looking at, you know, resilience planning 
in the Great Lakes. You know, should the Great Lakes be just as 
concerned as our coastal--because we don't have hurricanes. We 
kind of do sometimes have nor'easters, but we don't have 
tropical storms. You know, what is the risk on the Great Lakes?
    Mr. Cox. I think the planning tools are there, and if they 
are used, they can basically----
    Mr. Gibbs. Microphone, I think.
    Mr. Cox. Sorry. Maybe I will talk a little closer. I think 
the Great Lakes benefit as well from the resilience planning. 
So it is really just about the ability to absorb and recover 
quickly, and it is up to the Great Lakes to say this is how 
quickly we would need to recover, this is how much we can 
absorb. But I think the tools are there and useful for the 
Great Lakes as well.
    Mr. Gibbs. Of course, with the freeze and the thawing of 
the ice, that might be a different consideration that you don't 
have in L.A., obviously. Because if you had that problem in 
L.A., then we have got a different issue, right?
    Mr. Hecht. Yeah. We are not headed that way.
    Mr. Gibbs. All right. I yield back. I think I am good. 
Thanks.
    Mr. Brown. Are there any further questions for members of 
the subcommittee?
    Seeing none, I would like to thank each of the witnesses 
for your testimony today. Your contribution to today's 
discussion has been very informative and helpful.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing and unanimous consent that the record remain open for 
15 days for any additional comments and information submitted 
by Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If no other Members have anything to add, this subcommittee 
stands adjourned.
    [Whereupon, at 3:32 p.m., the subcommittee was adjourned.]


                       Submissions for the Record

                              ----------                              


  Prepared Statement of Hon. Sam Graves, a Representative in Congress 
     from the State of Missouri, and Ranking Member, Committee on 
                   Transportation and Infrastructure
    As a farmer and a Member whose district is bounded by both the 
Missouri and Mississippi Rivers, I understand the power of water both 
as a necessity and as a sometimes destructive force. In the Midwest we 
must be prepared for river flooding, just like coastal areas must 
prepare for hurricanes and other large coastal storms. Therefore, I 
commend the Chair for holding this hearing on the importance of 
building Coast Guard and port facilities in a way that can withstand 
the ever-increasing forces of mother nature.
    The Coast Guard has a $2.6 billion backlog of construction and 
maintenance projects. I share GAO's concern that this only represents a 
one-for-one replacement rather than a strategic assessment of the Coast 
Guard's long-term operating needs. The Coast Guard needs to undertake 
such an assessment.
    I am particularly concerned that the Coast Guard does not 
understand the shoreside facility needs for its new operational assets. 
Recapitalizing Coast Guard aircraft and the fleet which operates more 
than 50 miles offshore has taken priority in Coast Guard budgets now 
for over 15 years. However, we must make sure that shoreside facilities 
keep pace with commissioning these new assets.
    For example, a $100 million investment is needed to upgrade the 
hangars at Barbers Point in Hawaii to adequately protect the new C-
130Js the Service is procuring. The service life of those aircraft will 
be reduced, and taxpayer dollars wasted, unless the appropriate hangar 
space is provided. Put simply, salty air and exposed planes don't mix. 
While I am glad the Coast Guard is getting the airplanes they need to 
do their jobs, I think we need to be smarter about how we protect these 
investments.
    I look forward to hearing from the witnesses about how the Coast 
Guard can better plan for its future shoreside facility needs, and how 
U.S. ports can design more resilient facilities to withstand coastal 
storms and flooding.

                                 <F-dash>
Letter Referenced in Testimony of Rear Admiral Phillips, Dated February 
 22, 2019, from Matthew J. Strickler, Secretary of Natural Resources, 
  Commonwealth of Virginia, Office of the Governor, Submitted for the 
                    Record by Hon. Anthony G. Brown
                                                 February 22, 2019.
Hon. Peter DeFazio,
Chairman,
House Transportation and Infrastructure Committee, Washington, DC.
Hon. Sam Graves,
Ranking Member,
House Transportation and Infrastructure Committee, Washington, DC.

    Dear Chairman DeFazio and Ranking Member Graves,
    I am writing today to offer the Commonwealth of Virginia's 
perspective on ways the federal government can better assist Virginia 
and other states in mitigating and adapting to the impacts of sea level 
rise and extreme weather events. Please accept this testimony for the 
record of the February 27, 2019 Transportation and Infrastructure 
Committee hearing titled ``Examining How Federal Infrastructure Policy 
Could Help Mitigate and Adapt to Climate Change.''
    Virginia has much at stake as Congress considers legislation to 
address our country's aging infrastructure. In addition to help 
repairing and modernizing roads, bridges, and railways, the 
Commonwealth requires the assistance of the federal government to make 
coastal communities and critical assets more resilient to climate 
change and natural hazards.
    Sea level rise and more frequent and intense weather events have 
combined with land subsidence to dramatically increase flooding and 
storm damage risk to coastal Virginia. We are not unique among coastal 
states in this regard, but with nearly 10,000 miles of tidal shoreline, 
the deepest and one of the busiest ports on the east coast, and 
numerous military installations including the largest naval base in the 
world, we are uniquely vulnerable.\1\
---------------------------------------------------------------------------
    \1\ https://www.vims.edu/bayinfo/faqs/shoreline_miles.php
---------------------------------------------------------------------------
    The recently published, Fourth National Climate Assessment report 
summary includes the following findings regarding infrastructure:

      Climate change and extreme weather events are expected to 
increasingly disrupt our Nation's energy and transportation systems, 
threatening more frequent and longer-lasting power outages, fuel 
shortages, and service disruptions, with cascading impacts on other 
critical sectors. The continued increase in the frequency and extent of 
high-tide flooding due to sea level rise threatens America's trillion-
dollar coastal property market and public infrastructure, with 
cascading impacts to the larger economy . . . Expected increases in the 
severity and frequency of heavy precipitation events will affect inland 
infrastructure in every region, including access to roads, the 
viability of bridges, and the safety of pipelines. Flooding from heavy 
rainfall, storm surge, and rising high tides is expected to compound 
existing issues with aging infrastructure in the Northeast.\2\
---------------------------------------------------------------------------
    \2\ https://nca2018.globalchange.gov/

    In Virginia, these warnings are already ringing true. According to 
the National Oceanic and Atmospheric Administration's 2017 Sea Level 
Trends Map, all eight of the sea level monitoring stations in the 
Commonwealth show a relative sea level rise of one to two feet per 
century, among the highest rates of sea level rise on the east or west 
coasts.\3\ The Hampton Roads Planning District Commission estimates the 
negative impacts on private property and public infrastructure from 
three feet of sea level rise in Southeastern Virginia, in the tens of 
billions of dollars.\4\ As this trend continues, the costs and profound 
impacts of natural hazards associated with climate change will only 
increase the longer we wait to address them. Public health and safety, 
our environment and natural resources, and the economic wellbeing of 
the Commonwealth, including our ports, military installations, 
transportation infrastructure, tourism assets, farms, forests, and 
fisheries are all at risk.
---------------------------------------------------------------------------
    \3\ https://tidesandcurrents.noaa.gov/sltrends/slrmap.html
    \4\ https://www.hrpdcva.gov/uploads/docs/
HRPDC_ClimateChangeReport2012_Full_
Reduced.pdf
---------------------------------------------------------------------------
    We must act now to protect lives and property and reduce taxpayer 
exposure through fiscally responsible planning. It is important to 
understand that we must not only work to make our existing 
infrastructure more resilient to sea level rise and other natural 
hazards, but that we will need to build new infrastructure, both green 
and grey, for the express purpose of making our coastal communities 
more resilient.
    Virginia is already doing its part. Last November, Governor Northam 
issued Executive Order (EO) 24: Increasing Virginia's Resilience to Sea 
Level Rise and Natural Hazards. This sweeping directive establishes a 
roadmap for making Virginia more resilient, including the creation of a 
Coastal Resilience Master Plan for the Commonwealth. A copy of E0-24 is 
attached for your reference.
    Given the enormous scope of this problem and the significant cost 
required to better protect people and property from extreme weather and 
sea level rise, Virginia will require the assistance of the federal 
government to address this pressing issue and to implement our Master 
Plan. On behalf of the Commonwealth of Virginia, we respectfully urge 
the Committee and Congress to consider the following recommendations as 
you develop infrastructure legislation:
1. Provide robust funding to help states and localities address sea 
        level rise and extreme weather events
    As detailed in this letter, the cost of making the United States 
more resilient to extreme weather and sea level rise is enormous. 
Without consistent, dedicated funding, coordinated fully across federal 
agencies, states like Virginia will not be able to adequately protect 
their citizens and the built and natural infrastructure that underpins 
their economies. In particular, we urge Congress to make significant 
investments in pre-disaster mitigation and resilience funding, and U.S. 
Army Corps of Engineers (Corps) flood protection projects. To meet the 
challenge before us, we will need unprecedented investment from the 
federal government to better protect America's coasts. We urge the 
committee to prioritize flood control projects for those areas most at 
risk, and to also prioritize projects that are part of comprehensive 
regional or multi-state plans rather than free-standing projects that 
may be advanced by a particular locality or interest.
2. Encourage green infrastructure solutions where applicable
    Science has shown us that natural defenses against flooding, storm 
surge, erosion, and other forces are often our most effective--and most 
cost effective--solutions for protecting vulnerable areas. By reducing 
storm water runoff and allowing floodplains to function, green 
infrastructure can help manage both localized and riverine floods. In 
areas impacted by localized flooding, green infrastructure practices 
absorb rainfall, preventing water from overwhelming pipe networks and 
pooling in streets or basements. In coastal areas, natural or nature-
based buffers and living shorelines can reduce storm surge and absorb 
flood waters. In addition, green infrastructure provides an array of 
co-benefits including improved water quality and productive fish and 
wildlife habitat. To the maximum extent possible, the Corps should look 
first toward natural and nature based infrastructure solutions for 
coastal protection and flood risk reduction, reserving more costly gray 
infrastructure for situations where it is the only feasible option. In 
Virginia, we hope to anchor our Coastal Resilience Master Plan with a 
limited number of structural flood protection projects, while we fill 
in the gaps with an array of softer solutions including coastal barrier 
protection, land acquisition, property buyouts, buffers, living 
shorelines and more.
3. Help states organize and prioritize flood control proiects
    For years, cities and towns have taken the lead on requesting Army 
Corps flood control studies and construction projects, which has led 
led to a long list of regional studies that either overlap or leave 
gaps in coverage along jurisdictional lines. To ensure that studies are 
providing the maximum benefit, the Corps should assist states in 
prioritizing and aggregating flood control projects. Furthermore, the 
Corps should prioritize new studies and new projects according to the 
greatest flood risk and the greatest economic needs, as well as giving 
priority to projects that are part of a regional comprehensive plan. In 
addition, the Corps should provide regional guidance for how to best 
address sea level rise and pre-disaster hazard mitigation.
4. Deliver timely Army Corps studies and consider third party analysis 
        and study
    In recent years, appropriations bills have limited the number of 
Corps flood control feasibility studies and project starts in any given 
year. We simply cannot afford the delay. Congress and the Corps must 
devise a way to expand capacity to complete such studies more quickly 
and begin detailed planning and project execution to reduce flooding 
and extreme weather risk.
    In an effort to address the critical need for flood control and 
pre-disaster hazard mitigation, some cities or towns have engaged 
private engineering companies to undertake studies on how to best 
reduce flooding. For example, Virginia Beach has spent more than $4 
million studying its vulnerabilities to flooding and sea level rise. 
Rather than begin a new feasibility study by the Corps, Congress should 
ensure that the Corps will accept and validate viable commercial and 
academic study work as the basis for, or in lieu of, a full feasibility 
study.
5. Ensure strong environmental review
    While both the need and desire for coastal protection projects are 
urgent, we must resist the temptation to circumvent or weaken bedrock 
environmental laws. This goes for all infrastructure projects. Robust 
reviews under the National Environmental Policy Act will help ensure 
that projects with negative unintended consequences are not selected, 
and that the needs of impacted communities--particularly environmental 
justice communities--are taken into account. Similarly, thorough and 
effective consultation under the Endangered Species Act is necessary to 
protect vulnerable fish, wildlife, and plants that serve as proxies for 
the health of entire natural systems.
    I understand and appreciate the challenging task that lies ahead of 
you in developing this infrastructure package, and I thank you for your 
consideration of these requests. Please do not hesitate to contact me 
if I can be of further assistance.
        Sincerely,
                                              Matthew J. Strickler.

                                 <F-dash>
Statement of the American Society of Civil Engineers, Submitted for the 
                    Record by Hon. Anthony G. Brown
    The American Society of Civil Engineers (ASCE) appreciates the 
opportunity to submit our position on the importance of long-term, 
strategic investment in our nation's ports infrastructure. ASCE also 
thanks the U.S. House of Representatives Transportation and 
Infrastructure Subcommittee on Coast Guard and Maritime Transportation 
for holding a hearing on this critical issue.
           Overview of ASCE's 2017 Infrastructure Report Card
    Infrastructure is the foundation that connects the nation's 
businesses, communities, and people, serves as the backbone to the U.S. 
economy, and is vital to the nation's public health and welfare. Every 
four years, ASCE publishes the Infrastructure Report Card, which grades 
the nation's 16 major infrastructure categories using a simple A to F 
school report card format. The Report Card examines the current 
infrastructure needs and conditions, assigning grades and making 
recommendations to raise them.
    ASCE's 2017 Infrastructure Report Card rated the overall condition 
of the nation's infrastructure a cumulative grade of ``D+'' across 
sixteen categories, with an investment gap of $2 trillion. The Report 
Card gave our nation's ports infrastructure category a grade of ``C+.''
    The economic consequences of our nation's infrastructure 
deficiencies also extend to families' disposable incomes, with each 
household in the U.S. losing $3,400 each year through 2025; if left 
unaddressed, the loss will grow to an average of $5,100 annually from 
2026 to 2040. It is possible to close the infrastructure investment gap 
and avoid the economic consequences caused by this deficit, but it will 
require sustained and robust investment.
              Ports and the Harbor Maintenance Trust Fund
    Our nation's 926 ports support over 23.1 million jobs, provide 
$321.1 billion in tax revenue to federal state, and local governments, 
and are responsible for $4.6 trillion in economic activity, or roughly 
26 percent of the nation's economy--making them essential to U.S. 
competitiveness. Our ports serve as the gateway through which 99 
percent of America's overseas trade passes, and the top 10 U.S. ports 
accounted for 78 percent of U.S. foreign waterborne trade in 2015. 
However, the investment gap for inland waterways systems and ports is 
expected to be $1.5 billion by 2025.
    According to ASCE's 2016 economic study, Failure to Act: Closing 
the Infrastructure Investment Gap for America's Economic Future, if 
America's current level of investment in its inland waterways and 
marine ports continues, the losses to the nation's economy will 
increase shipping costs, resulting in GDP losses of $95 billion in 2020 
to over $255 billion by 2040. The cumulative loss in national GDP 
through 2040 will be over $4 trillion, resulting in over 738,000 fewer 
jobs in 2020 and growing to over 1.3 million job losses by 2040.
    In a 2015 survey \1\ of ports, a third indicated that congestion 
over the past ten years resulted in a 25 percent decrease in port 
productivity. Few of our nation's ports can accommodate the large ships 
that pass through the Panama Canal, so to remain competitive in the 
global market and to accommodate these larger vessels, ports have been 
investing in their facilities and plan to spend over $154 billion from 
2016 to 2020 on expansion, modernization, and repair. Ports, however, 
are contending with larger container ships and do not always have 
adequate access to the user-fee funded Harbor Maintenance Trust Fund 
(HMTF), which would help these facilities prepare for larger vessels.
---------------------------------------------------------------------------
    \1\ American Association of Port Authorities, 2015 Port Surface 
Freight Infrastructure Survey, April 2015
---------------------------------------------------------------------------
    Enacted in the Water Resources Development Act of 1986, the Harbor 
Maintenance Tax (HMT) is a fee (0.125 percent of the value of cargo) 
collected from users of our nation's maritime transportation system 
that is then used by the U.S. Army Corps of Engineers (USACE) to dredge 
harbors. Despite the significant dredging needs at the majority of U.S. 
ports, the fund's revenues have frequently not been appropriated for 
its designated purposed, instead being used for federal deficit 
offsets. ASCE strongly supported the provision in the Water Resources 
Reform and Development Act (WRRDA) of 2014 that created a phased-in 
approach to reach full use of HMT revenues by FY2025 and that set 
incremental spending targets each year until full use.
    The HMTF's balance currently sits at over $9 billion. Once fully 
funded, it will take five years of complete HMTF appropriations to 
dredge and restore channel depths and widths. ASCE urges the 
Subcommittee to continue implementing the WRRDA 2014 agreement by 
increasing expenditures accordingly and ensuring that HMT revenues are 
used only for its intended purpose, and we support the bipartisan Full 
Utilization of the Harbor Maintenance Trust Fund Act, H.R. 2440.
                            Ports Resilience
    Ports are unique infrastructure systems in that they must 
efficiently move goods while also maintaining secure facilities. 
However, natural disasters not only create high cost damage to ports 
infrastructure, but they can result in the loss of long-term economic 
activity.
    According to the National Oceanic and Atmospheric Administration 
(NOAA), natural disasters cost the country $91 billion in 2018--the 
fourth-highest total costs from natural disasters since NOAA started 
tracking this data in 1980. It also marked the eighth consecutive year 
with eight or more natural disasters that cost at least $1 billion 
each. According to the National Institute of Building Sciences, 
however, every dollar spent on pre-disaster mitigation and preparedness 
saves six dollars in rebuilding costs after a storm. Investment in 
disaster mitigation makes the recovery process shorter while saving 
taxpayer money.
    ASCE believes that a critical component to raising our nation's 
infrastructure grade is careful preparation for the needs of the 
future. This includes the utilization of new approaches, materials, and 
technologies to ensure our infrastructure is both more resilient and 
sustainable--that is, the ability to quickly recover from significant 
weather and other hazard events while reducing impacts on local 
economies, quality of life, and the environment--as well as the need to 
support research and development into innovative materials and 
processes to modernize and extend the life of infrastructure, reduce 
life-cycle costs, expedite repairs or replacement, and promote cost 
savings.
    The nation's economy relies on resilient ports infrastructure that 
can withstand future extreme weather events. As civil engineers, we 
think about building infrastructure that will last for 50 to 100 years 
or more. It shouldn't take a disaster to spur action. The opportunity 
to build strategically is upon us.
   Ports Recommendations From ASCE's 2017 Infrastructure Report Card
    <bullet>  Increase overall investment into the freight program to 
ensure ports can effectively distribute and receive goods as ships 
continue to grow in size.
    <bullet>  Appropriate funds to the congressionally-authorized 
projects to ensure that projects crucial to freight movement are 
completed in a timely manner.
    <bullet>  Ensure that ports have a seat at the table as states 
create and execute freight plans.
    <bullet>  Adopt new technologies to reduce wait times at docks, 
boost efficiency, and increase security.
    <bullet>  Improve freight and landside connections to strengthen 
the entire freight system and reduce congestion that is costly to the 
economy when moving goods.
                               Conclusion
    ASCE believes Congress must prioritize the investment needs--
including building with a resilient eye to the future--of our ports 
infrastructure to protect our nation's economy and millions of jobs, 
and to ensure we remain internationally competitive. ASCE thanks the 
Subcommittee for holding this hearing and bringing attention to this 
critical matter. We look forward to working with you to find investment 
solutions to our nation's ports infrastructure.


                                Appendix

                              ----------                              


  Question from Hon. Sean Patrick Maloney for Rear Admiral Nathan A. 
 Moore, Assistant Commandant for Engineering and Logistics, U.S. Coast 
                                 Guard

    Question 1. In your testimony you describe that your shore 
infrastructure vulnerability assessment will not be completed until 
2025. By that time, many of the Coast Guard's existing infrastructure 
issues will have compounded by increasingly severe natural hazards. 
What will it take to have that assessment completed by 2021?
    Answer. The Government Accountability Office's (GAO) report 
entitled Coast Guard Shore Infrastructure: Processes for Improving 
Resilience Should Fully Align with DHS Risk Management Framework (GAO-
19-675) notes that the Coast Guard's SIVA process is ``not expected to 
be completed until at least 2025.'' In our communications with GAO 
during the development of this report, the Coast Guard emphasized that 
the completion of SIVA Phase II by 2025 is uncertain given funding 
limitations and that the actual completion date will depend on funding 
availability.

   Questions from Hon. Rick Larsen for Rear Admiral Nathan A. Moore, 
  Assistant Commandant for Engineering and Logistics, U.S. Coast Guard

    Question 1. The first Polar Security Cutters will be homeported in 
Seattle, which has been the home of the nation's icebreaking fleet 
since 1976. It is also my understanding the Coast Guard is considering 
homeporting future vessel acquisitions in Northwest Washington. What 
are the berth capacity needs in the Puget Sound region to accommodate 
these new vessels?
    Answer. The ship's design for the Polar Security Cutter is not 
finalized, however, the anticipated berthing requirements are as 
follows:

------------------------------------------------------------------------
                                                Polar Security Cutter
                   Item                              Requirement
------------------------------------------------------------------------
Depth at Mooring..........................  40 feet.
Mooring Length............................  480 feet.
Ship's Beam...............................  90 feet.
Fendering, mooring devices, and deck        Fendering, mooring devices,
 fittings.                                   and deck fittings shall
                                             comply with the Navy's
                                             Unified Facilities
                                             Criteria.
Pier lay down space.......................  4,000 Square Feet area in
                                             addition to pier/wharf
                                             space for pre-staging
                                             supplies and equipment
                                             within \1/2\ mile of the
                                             pier or wharf.
Vertical load.............................  600 pounds per square feet
                                             live load.
Fueling...................................  Capable of being fueled at
                                             pier either by truck
                                             (AASHTO HS20 Truck loading)
                                             or by installed fueling
                                             system.
Shore ties................................  Electric, potable water,
                                             sewage, telephone, local
                                             area network.
------------------------------------------------------------------------


    Question 1.a. Follow-up: Does the Coast Guard also have the 
necessary maintenance and shipyard capacity in the Pacific Northwest 
for new acquisitions?
    Answer. The Coast Guard is currently in the process of establishing 
maintenance requirements for new surface asset acquisitions. The Coast 
Guard is forecasting nation-wide commercial and government industrial 
base challenges based on proposed U.S. Navy fleet expansion, and we are 
looking at all options to best support our new cutters.

    Question 1.b. Follow-up: How are homeport sites being designed to a 
more resilient standard? What are the benefits?
    Answer. All Coast Guard construction projects include resilient 
standards based on local building codes, likely risks, and operational 
requirements. The physical resilience of the building is usually 
addressed through siting considerations, structural criteria, and 
elevation controls. Operational resilience is addressed with emergency 
utilities capability, logistics chain planning, and use of renewable 
energy sources where possible.
    Resilient buildings are more likely to support contingency 
operations during emergency events and restore normal operations faster 
after those events have occurred. They also better protect occupants in 
cases where events happen without warning (e.g. earthquakes) and it is 
not possible to relocate personnel to a safer location prior to the 
event occurring. Where physical reconstitution of resilient buildings 
is required after an event, these efforts are less costly due to the 
improved building survivability.

    Question 2. In my home state of Washington, the impact of climate 
change has resulted in rising temperatures, record-breaking wildfires 
and an acidifying ocean which harms coastal communities. When the Coast 
Guard is considering a new construction project, what are some of the 
climate risk considerations incorporated into planning?
    Answer. As Coast Guard facilities and assets are planned for 
recapitalization, resiliency for natural disasters is factored into 
facility plans and designs. The Coast Guard considers 10 natural 
hazards based on a project's geographical location. Those hazards 
include earthquakes, flooding, tsunamis, sea level rise, coastal 
vulnerability, hurricanes, wildfires, volcanoes, tornadoes, and 
drought.

    Question 2.a. Follow-up: How are carbon dioxide emissions levels 
built into these models?
    Answer. The Coast Guard does not include carbon dioxide emissions 
in its construction considerations beyond efforts to meet the 
requirements of the Executive Order Regarding Efficient Federal 
Operations (EO 13834).

    Question 2.b. Follow-up: To date, Sea Level Change is not 
incorporated into FEMA's 100-year floodplain models, which in your 
testimony you cite as the SILC's baseline standard for designing new 
facilities. What are some other predictive models the Coast Guard could 
apply that incorporate sea level change, storm surge, and the 100-year 
flood models? What agencies do you collaborate with for these data?
    Answer. The Coast Guard primarily uses publicly available products 
from the National Oceanic and Atmospheric Administration (NOAA) and the 
National Aeronautic and Space Administration (NASA) to inform planning 
factors when considering infrastructure project siting. These include 
NOAA's Global and Regional Sea Level Rise Scenarios for the United 
States and NASA's AVISO Level 4 data sets.

   Questions from Hon. Stacey E. Plaskett for Rear Admiral Nathan A. 
 Moore, Assistant Commandant for Engineering and Logistics, U.S. Coast 
                                 Guard

    Question 1. As a result of the Hurricanes, Sector San Juan (to 
include Rio Bayamon Housing) suffered an estimated $156 million in 
infrastructure damages. The entire PC&I portion of the FY18 hurricane 
supplemental appropriation was $719 million. How has disaster funding 
been applied by the coast guard to rebuild island facilities to date? 
What are the rebuilding standards used for these facilities, and how 
does the CG account for the specific vulnerabilities of island 
property?
    Answer. Upon receipt of the Fiscal Year 2018 hurricane supplemental 
appropriation, the Coast Guard commenced repairs to damaged 
infrastructure and concurrently began planning and design efforts to 
rebuild affected facilities in Puerto Rico and St. Thomas to resilient 
standards. To date, the Coast Guard has obligated $42 million for 
repair and rebuild work in Puerto Rico and St. Thomas. Nearly all of 
the repairs will be completed by April 2020, and we anticipate awarding 
the first rebuild contract in October 2020.
    The Coast Guard rebuilds facilities in accordance with applicable 
building codes. When more stringent design criteria are required, the 
Coast Guard exceeds building codes to ensure structures can survive 
likely natural events. The Coast Guard considers historical climate 
data and forecasts to influence design criteria for new construction 
projects and major renovations on the islands. Locations specifically 
affected by flooding and coastal vulnerabilities normally receive 
siting and elevation considerations based on Federal Emergency 
Management Agency (FEMA) flood maps and design criteria recommended by 
the American Society of Civil Engineers. For example, the Coast Guard 
implements a minimum finished floor elevation of the 100-year flood 
level + 3 feet, or the 500-year flood elevation + 1 foot, whichever is 
greater.

    Questions from Hon. Bob Gibbs for Rear Admiral Nathan A. Moore, 
  Assistant Commandant for Engineering and Logistics, U.S. Coast Guard

    Question 1. After Hurricane Katrina, the Coast Guard undertook an 
internal restructuring called Modernization. Among other things, it 
used the Aviation Logistics Center as a model for new surface assets, 
IT, and shoreside infrastructure logistics center. The Aviation 
Logistics model imposed national standards for all Coast Guard aviation 
operations proved successful when the Coast Guard mounted its 
monumental response to the massive hurricane. Unfortunately, it appears 
the Shoreside Infrastructure Logistics Center (SILC) exists largely as 
a paper exercise, and that the six regional civil engineering units 
continue to make decisions without the benefit of national processes 
and standards. The one-for-one replacement of existing Coast Guard 
shoreside facilities is not the best way to assure the Coast Guard can 
carry out its missions in the future.
    Question 1.a. When does the Coast Guard intend to implement a 
national process for reviewing and rating individual projects?
    Answer. Review and prioritization of the Coast Guard's major repair 
and recapitalization projects have been part of a national process 
overseen by the Shore Infrastructure Logistics Command (SILC) since 
2012. The Coast Guard is in the process of updating formal guidance to 
its national and regional shore infrastructure planning boards.

    Question 1.b. When does the Coast Guard intend to review its assets 
nationwide and match those assets to its mission needs?
    Answer. The Coast Guard provides a comprehensive Coast Guard 
Mission Needs Statement to Congress at least every four years with the 
first delivered in 2016. The latest version was delivered in 2018 
(attached).\<dagger>\ The Coast Guard Mission Needs Statement reviews 
the Coast Guard's statutory missions, threats, and opportunities and 
compares them to the service's ability to conduct effective operations 
resulting in the required mission needs of the service.
---------------------------------------------------------------------------
    \<dagger>\ Editor's note: The 126-page report entitled ``Coast 
Guard Mission Needs Statement: Report to Congress--November 21, 2018,'' 
is retained in committee files.

    Question 1.c. Of the ten recommendations in the last three GAO 
shoreside infrastructure reports, how many have been fully implemented? 
Partially implemented? Received no action?
    Answer. The Coast Guard is tracking seven recommendations from two 
recently completed GAO audits on Coast Guard shore infrastructure: six 
from GAO-19-82, Coast Guard Shore Infrastructure: Applying Leading 
Practices Could Help Better Manage Project Backlogs of At Least $2.6 
Billion, and one from GAO-19-675, Coast Guard Shore Infrastructure: 
Processes for Improving Resilience Should Fully Align with DHS Risk 
Management Framework. Of these seven recommendations, one has been 
fully implemented and six have been partially implemented. In addition 
to these recommendations, the Coast Guard is tracking three 
recommendations from GAO-18-9, Coast Guard Actions Needed to Close 
Stations Identified as Overlapping and Unnecessarily Duplicative. These 
three recommendations have been partially implemented.

    Question 1.d. Does the Coast Guard plan to impose a national 
standard for resilient construction and maintenance in areas subject 
coastal storms and flooding? What would be the costs of implementing 
such a policy? The savings?
    Answer. Coast Guard operational resilience standards are applied 
based on the mission criticality of the specific building. Physical 
resilience standards are defined by applicable building codes. 
Locations specifically affected by flooding and coastal vulnerabilities 
normally receive siting and elevation considerations based on FEMA 
Flood Maps and design criteria recommended by the American Society of 
Civil Engineers. Where appropriate, the Coast Guard exceeds building 
codes to ensure structures can survive likely natural events.
    The cost of building to resilient standards increases where we 
exceed building codes because baseline costs are based on building code 
requirements. Examples of design considerations that may exceed 
building codes include a sacrificial first floor, thicker walls, 
emergency power generation, and additional potable water storage and 
purification.
    Following disasters, the Coast Guard's infrastructure 
reconstitution costs have been relatively low for facilities built to 
resilient standards. Recent examples include Coast Guard infrastructure 
at Sabine Pass, Texas, and Great Inagua, the Bahamas, which was rebuilt 
after Hurricane Ike and sustained no damage during more recent 
hurricanes.

Questions from Hon. Sean Patrick Maloney for Nathan Anderson, Director, 
  Homeland Security and Justice, U.S. Government Accountability Office

    Question 1. The Coast Guard began assessing certain buildings for 
vulnerabilities to natural disasters in 2015 and aim to complete that 
process in 2025, but are only 15 percent finished. Taking into account 
the projects that the GAO does not consider necessary to cost, what 
resources would it take to complete that process by 2021?
    Answer. It is unclear what resources it would take to complete the 
Coast Guard's vulnerability assessment process by 2021 because the 
Coast Guard's phase I analysis did not identify all shore 
infrastructure assets that are critical to its missions. Additionally, 
its ongoing phase II assessment, which involves more detailed 
structural analyses of 1,500 buildings, is limited in scope to 
earthquakes or tornado and hurricane winds, depending on the building. 
Moreover, the phase II assessment, which began in September 2018, 
included just one contract for about $700,000 to determine if 15 
buildings at multiple Coast Guard sites are vulnerable to earthquakes. 
According to the contract, these 15 assessments are to be completed in 
October 2021. However, the Coast Guard did not have a charter that 
outlined a methodology for the broader development of phase II. A Coast 
Guard memo from March 2019 recommended that phase II assessment work be 
prioritized based on how critical a building is to Coast Guard 
operations, its occupant density, and its overall age and condition, 
and the Coast Guard has data it could use to accomplish this 
assessment. As a result, we recommended in September 2019 that the 
Coast Guard implement a risk-informed approach to better guide its 
shore infrastructure investment decisions.
    Further, even if the assessment process could be completed by 2021, 
we cannot estimate the resources it would take because the Coast Guard 
would then have to identify projects needed to address assessment 
results. But, as we reported in February 2019, (1) the Coast Guard was 
unable to provide us with documentation showing whether and to what 
extent risk reduction methods were considered in its funding 
prioritization processes for shore infrastructure projects, and (2) it 
was unclear whether future Coast Guard prioritization decisions would 
focus on the most critical risks and consider resilience as a factor 
when choosing which projects to fund. As a result, we are unable to 
estimate resources needed to address the Coast Guard's shore 
infrastructure vulnerabilities.

    Question 2. Should the Coast Guard conduct comprehensive adaptation 
planning for its facilities? To what extent does the Coast Guard 
coordinate with local planning bodies when identifying critical assets 
and planning shoreside infrastructure improvements?
    Answer. GAO's High Risk work on Limiting the Federal Government's 
Fiscal Exposure by Better Managing Climate Change Risks [https://
www.gao.gov/highrisk/limiting_federal_government_fiscal_exposure/
why_did_study#t=2], states that the federal government needs a 
comprehensive approach to improve the resilience of the facilities it 
owns and operates and the land it manages.\1\ This involves 
incorporating climate change resilience into agencies' infrastructure 
and facility planning processes.\2\ It also involves accounting for 
climate change in National Environmental Policy Act (NEPA) analyses and 
working with relevant professional associations to incorporate climate 
change information into structural design standards. Specifically, in 
November 2016 we reported that standards-developing organizations--such 
as professional engineering societies--are the primary source of the 
standards, codes, and certifications that federal, state, local, and 
private-sector infrastructure planners follow.\3\ In this report, we 
found that standards-developing organizations generally have not used 
forward-looking climate information in design standards, building 
codes, and voluntary certifications, but instead have relied on 
historical observations.
---------------------------------------------------------------------------
    \1\ See GAO, https://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did_study#t=2.
    \2\ See GAO, Climate Change Adaptation: DOD Can Improve 
Infrastructure Planning and Processes to Better Account for Potential 
Impacts, GAO-14-446 [https://www.gao.gov/products/GAO-14-446] 
(Washington, D.C.: May 30, 2014); Climate Change Adaptation: DOD Needs 
to Better Incorporate Adaptation into Planning and Collaboration at 
Overseas Installations, GAO-18-206 [https://www.gao.gov/products/GAO-
18-206] (Washington, D.C.: Nov 13, 2017); Climate Resilience: DOD Needs 
to Assess Risk and Provide Guidance on Use of Climate Projections in 
Installation Master Plans and Facilities Designs GAO-19-453 [https://
www.gao.gov/products/GAO-19-453]: (Washington, D.C.: Jun 12, 2019).
    \3\ See GAO, Climate Change: Improved Federal Coordination Could 
Facilitate the Use of Forward-Looking Climate Information in Design 
Standards, Building Codes, and Certifications, GAO-17-3 [https://
www.gao.gov/products/GAO-17-3] (Washington, D.C.: Nov 30, 2016).
---------------------------------------------------------------------------

Questions from Hon. Rick Larsen for Nathan Anderson, Director, Homeland 
      Security and Justice, U.S. Government Accountability Office

    Question 1. What research has the GAO done into the use of nature-
based infrastructure in climate mitigation projects beyond the more 
conventional mitigation approaches (e.g. structure elevation, flood-
proofing, relocation, etc.)?
    Question 1.a. Follow-up: Are there potential returns on investment 
with nature-based infrastructure?
    Question 1.b. Follow-up: Should the Coast Guard consider other 
types of adaptation techniques?
    Answer (1.a.-1.b.). In March 2019, we reported on how the Army 
Corps of Engineers (Corps) determines when to use natural 
infrastructure (e.g. wetlands and beaches), or hard infrastructure 
(e.g., seawalls) for coastal management projects.\4\ For coastal storm 
and flood risk management projects, the Corps is supposed to choose the 
infrastructure type with the greatest net benefits. Reducing damages to 
existing structures, including homes and commercial buildings, is the 
primary benefit the Corps considers when identifying benefits for 
coastal storm risk management project alternatives, according to its 
planning guidance. Specifically, the guidance outlines general steps 
for estimating damage reduction benefits, which are to be calculated 
and included in each coastal storm and flood risk management 
alternative's economic analysis. We also found that the Corps is 
beginning to pursue the use of natural infrastructure in its planning, 
but that it can be difficult to calculate the net benefits of natural 
infrastructure. For example, it can be hard to put a dollar value on 
environmental benefits, such as providing habitat for fish and birds.
---------------------------------------------------------------------------
    \4\ See GAO, Army Corps of Engineers: Consideration of Project 
Costs and Benefits in Using Natural Coastal Infrastructure and 
Associated Challenges, GAO-19-319 [https://www.gao.gov/products/GAO-19-
319] (Washington, D.C.: Mar 28, 2019).
---------------------------------------------------------------------------
    Further, our October 2019 Disaster Resilience Framework: Principles 
for Analyzing Federal Efforts to Facilitate and Promote Resilience to 
Natural Disasters states that, in addition to built-infrastructure 
assets, information about how natural ecosystems contribute to disaster 
resilience and overlap with the built environment can help provide 
additional insight into how to design better solutions that account for 
the condition and benefits of the whole system.\5\ For example, as we 
have previously reported, coastal ecosystems--including wetlands, 
marshes, and mangroves--may shield communities from some of the impacts 
of climate change.\6\
---------------------------------------------------------------------------
    \5\ See GAO, Disaster Resilience Framework: Principles for 
Analyzing Federal Efforts to Facilitate and Promote Resilience to 
Natural Disasters, GAO-20-100SP [https://www.gao.gov/products/GAO-20-
100SP] (Washington, D.C: Oct 23, 2019).
    \6\ See GAO, Climate Change: Information on NOAA's Support for 
States' Marine Coastal Ecosystem Resilience Efforts, GAO-16-834 
[https://www.gao.gov/products/GAO-16-834] (Washington, D.C.: Sep 28, 
2016).

    <bullet>  According to the Fourth National Climate Assessment, 
information on benefits of resilience efforts is lacking in many 
sectors, though some information exists on the benefits and costs of 
such efforts in certain sectors, such as resilience efforts in coastal 
areas, resilience efforts designed to protect against riverine flooding 
(i.e., flooding that occurs when river flows exceed the capacity of the 
river channel), and resilience efforts related to agriculture at the 
farm level.\7\ According to this assessment, some of the actions in 
these sectors, at least in some locations, appear to have large 
benefit-cost ratios--both in addressing current variability and in 
preparing for future change. According to the National Oceanic and 
Atmospheric Administration's (NOAA) Office for Coastal Management, 
wetlands can protect coastal communities from powerful storm surge by 
buffering waves and absorbing additional water. NOAA estimates that 
coastal wetlands in the United States provide about $23 billion in 
storm protection services each year.\8\
---------------------------------------------------------------------------
    \7\ Jay, A.,D.R. Reidmiller, C.W. Avery, D. Barrie, B.J. DeAngelo, 
A. Dave, M. Dzaugis, M. Kolian, K.L.M. Lewis, K. Reeves, and D. Winner, 
2018: Overview. In Impacts, Risks, and Adaptation in the United States: 
Fourth National Climate Assessment, Volume II [Reidmiller, D.R., C.W. 
Avery, D.R. Easterling, K.E. Kunkel, K.L.M. Lewis, T.K. Maycock, and 
B.C. Stewart (eds.)]. U.S. Global Change Research Program, Washington, 
D.C.
    \8\ See https://coast.noaa.gov/data/nationalfacts/pdf/hand-out-
natural-infrastructure.pdf and National Research Council of the 
National Academies, America's Climate Choices: Panel on Adapting to the 
Impacts of Climate Change, Adapting to Impacts.
---------------------------------------------------------------------------
    <bullet>  As a federal agency, the Coast Guard should pursue every 
feasible opportunity to limit federal fiscal exposure to climate change 
risks within its planning and construction processes. As GAO stated in 
its High Risk area Limiting the Federal Government's Fiscal Exposure by 
Better Managing Climate Change Risks [https://www.gao.gov/highrisk/
limiting_federal_government_fiscal_exposure/why_did_study#t=2], the 
federal government needs a comprehensive approach to improve the 
resilience of the facilities it owns and operates, and land it manages. 
This involves incorporating climate change resilience into agencies' 
infrastructure and facility planning processes, such as agency efforts 
to implement our prior recommendations.\9\ It also involves accounting 
for climate change in NEPA analyses and working with relevant 
professional associations to incorporate climate change information 
into structural design standards.\10\
---------------------------------------------------------------------------
    \9\ See GAO, High-Risk Series: Substantial Efforts Needed to 
Achieve Greater Progress on High-Risk Areas GAO-19-157SP [https://
www.gao.gov/products/GAO-19-157SP] (Washington, D.C.: Mar 6, 2019).
    \10\ GAO-19-157SP [https://www.gao.gov/products/GAO-19-157SP].
---------------------------------------------------------------------------

   Questions from Hon. Sean Patrick Maloney for Rear Admiral Ann C. 
   Phillips, U.S. Navy (Ret.), Special Assistant to the Governor for 
Coastal Adaptation and Protection, Office of the Governor, Commonwealth 
                              of Virginia

    Question 1. Is there a comprehensive national report on port 
vulnerability available? What variables and concerns should such a 
report take in to account?
    Answer. Congressman Maloney, Thank you for the opportunity to 
testify and to answer Questions for the Record. As related to a 
comprehensive national report on Port Security, the Department of 
Homeland Security, Cybersecurity and Infrastructure Security Agency, 
(DHS/CISA) is currently working in partnership with the U.S. Army Corps 
of Engineers (USACE) to develop a uniform set of guidance for assessing 
port resilience with three scope levels: single port, a regional system 
of ports, and an inland marine transportation system. This project 
draws from the Regional Resilience Assessment Program (RRAP) 
Methodology that DHS/CISA has developed and used for the past 10 years 
to conduct a large number of assessments of infrastructure 
resilience.\1\ Many of these assessments have involved ports, but they 
have not been specific to the port of interest and focused on 
particular regions, and the resulting reports have generally been 
designated FOUO, which impacts public access. Working with USACE, DHS 
plans to augment this assessment methodology with quantitative and 
qualitative tools developed by USACE in addition to analytical 
approaches developed by National Laboratory partners supporting the 
Regional Resilience Assessment Program. DHS is in the process of 
drafting the guidance and conducting case studies using some of these 
analytical techniques. They intend to produce a general methodology 
supported by a suite of analytical tools that can be selected based on 
the resilience question being considered, and to ensure the results are 
released publicly when complete--they estimate at least a year to 
completion.
---------------------------------------------------------------------------
    \1\ ``Regional Resiliency Assessment Program,'' U.S. Department of 
Homeland Security, February 5, 2010, https://www.dhs.gov/cisa/regional-
resiliency-assessment-program.

    Question 2. While Congress provided for $292.7 million in 
discretionary grant funding through the Port Infrastructure Development 
Program as part of the Consolidated Appropriations Act of 2019, it is 
my understanding that the Department of Transportation has not issued a 
single grant nor did the President request further funding in his 2020 
Budget Request. If the Port of Virginia were to be awarded a grant from 
that program, what sort of resilient infrastructure investments would 
you be able to make?
    Answer. The Port of Virginia maintains a proactive stance on 
preparing for its future infrastructure needs across a range of 
circumstances, and over the past year, has been creating a 
comprehensive document that details the port's Design and Construction 
Standards and Preferences. This document (in draft form) borrows from 
established industry practices that take into account the latest 
technology and engineering solutions. The Port of Virginia's 
construction is governed by those standards and preferences--whether 
grant funded or not.
    The Port of Virginia has applied for a Port Infrastructure 
Development grant for additional capacity and corresponding upgrades to 
rail operations at the Norfolk International Terminals. The following 
paragraph is excerpted from their grant application:

        ``It is important to address project resiliency at the onset of 
        design for all projects. The NIT CRY Optimization project has a 
        projected service life of 30 years which necessitates adopting 
        a Basis of Design that reflects industry accepted resilient 
        design criteria. The Port of Virginia continues to lead 
        regional discussions and sustainability action and is proud to 
        have created a set of Resilient Design Criteria as part of its 
        Design and Construction Standards and Preferences. These design 
        criteria encourage all engineered projects to adopt future 
        intensity-duration charts for rainfall projections, baseline 
        flood elevations, and best practices for resilient design. The 
        port views this project as an opportunity to further the 
        resiliency of both terminal infrastructure and regional/
        national freight infrastructure.''

    The United States Maritime Administration (MARAD) administers the 
Port Infrastructure Development Grant process.\2\ As stated in your 
question, to date, no awards have been made, but the Port of Virginia 
expects announcements around the start of the calendar year.
---------------------------------------------------------------------------
    \2\ US Maritime Administration, ``About Port Infrastructure 
Development Grants: MARAD,'' accessed November 6, 2019, https://
www.maritime.dot.gov/PIDPgrants.
---------------------------------------------------------------------------
    Finally, the Port of Virginia's annual Sustainability Report 
details those activities that illustrate its commitment to 
environmental stewardship, fiscal responsibility, the health and well-
being of its colleagues, port partners and neighbors, and to building 
strong community relationships.\3\
---------------------------------------------------------------------------
    \3\ ``Port of Virginia--Sustainability Report 2018,'' accessed 
November 6, 2019, http://www.portofvirginia.com/fy18-sustainability-
report/.
---------------------------------------------------------------------------

Questions from Hon. Anthony G. Brown for Rear Admiral Ann C. Phillips, 
    U.S. Navy (Ret.), Special Assistant to the Governor for Coastal 
  Adaptation and Protection, Office of the Governor, Commonwealth of 
                                Virginia

    Question 1. In the EPA's draft report, ``Environmental Justice 
Primer for Ports'' from 2016, the agency identified that near-port 
communities and tribes can face unique challenges due to sustained 
exposure to pollutants and toxins from ports, and that the 
disproportionate impacts experienced by these communities are often 
compounded when they do not receive the same level of benefits from 
port activities--such as jobs and economic growth--that are enjoyed 
regionally.
    Question 1.a. As ports work to become more resilient and develop 
their infrastructure, how can they best do so in a way that encompasses 
principles of environmental justice?
    Answer. Congressman Brown, Thank you for the opportunity to testify 
and to answer Questions for the Record. The Port of Virginia has a 
particular focus on sustainability to meet present needs without 
compromising future generations, communities, or the environment. With 
facilities in Norfolk, Portsmouth, Newport News, barge service to 
Richmond, and an Inland Port Intermodal transfer facility in Front 
Royal, Virginia--all localities with under-served populations--the Port 
of Virginia works to build resilience, as recommended in the EPA Draft 
Environmental Justice Primer for Ports, through a focus on community 
engagement, through building long-term relationships with near-port 
communities, working to ensure environmental regulatory compliance, 
responsible land use, and through integrating port needs and community 
goals.\4\ In addition, they have focused on increasing capacity while 
reducing emissions, and have been awarded their 16th consecutive River 
Star Business Award for environmental excellence by the Elizabeth River 
Project. Much like the regions' federal facilities, the Port of 
Virginia understands its future resilience is inextricably linked to 
that of the surrounding cities and other localities that support and 
provide its critical utilities, transportation, logistics, and supply 
chain infrastructure. The Port of Virginia's annual Sustainability 
Report details those activities that illustrate its commitment to 
environmental stewardship, fiscal responsibility, the health and well-
being of its colleagues, port partners and neighbors, and to building 
strong community relationships. Key to the success of their efforts is 
their focal point of community stewardship, partnership, and 
engagement.
---------------------------------------------------------------------------
    \4\ Office of Transportation and Air Quality, ``Environmental 
Justice Primer for Ports: The Good Neighbor Guide to Building 
Partnerships and Social Equity with Communities'' (United States 
Environmental Protection Agency, July 2016), https://nepis.epa.gov/Exe/
ZyPDF.cgi?Dockey=P100OYGB.pdf.

    Question 1.b. Were there any lessons learned from the Hampton Roads 
pilot project regarding the intersection of climate adaptation planning 
and environmental justice issues?
    Answer. The Hampton Roads Pilot Project focused on whole of 
government and community solutions to prepare the Hampton Roads Region 
to adapt to sea level rise and recurrent flooding. Its particular focus 
was in the coordination among and between communities, localities, and 
Federal, State and local stakeholders. It did not specifically address 
environmental justice, and did not focus on environmental regulatory 
compliance, rather it worked to determine a series of regional 
priorities, to inform future actions, and to understand the need for 
and in some contexts to develop institutionalized processes that would 
facilitate continued formal stakeholder collaboration. Key deliverables 
included whole of government mitigation and adaptation planning 
processes and integrated regional recommendations, with the intent that 
both could be adapted for use by other regions--a particular interest 
area of the National Security Council and Department of Defense.\5\ \6\
---------------------------------------------------------------------------
    \5\ John Conger, Acting Under Secretary of Defense, ``Memoradum for 
Assistant Secretaries of the Army, Navy and Air Force: DoD Climate 
Preparedness and Resilience Planning Pilots,'' October 29, 2014.
    \6\ Emily E. Steinhilber et al., ``Hampton Roads Sea Level Rise 
Preparedness and Resilience Intergovernmental Pilot Project. Phase 2 
Report: Recommendations, Accomplishments and Lessons Learned'' (Old 
Dominion University, October 2016), https://digitalcommons.odu.edu/
hripp_reports/2/.
---------------------------------------------------------------------------
    Nevertheless, the Whole of Government and Community effort would 
not have been successful without the hundreds of stakeholders and 
volunteer leaders from across the full spectrum of government, 
academia, and the community, many of whom participated out of a sense 
of duty to their community and shared commitment to collaboration.\7\ 
This in and of itself drives to the heart of ensuring environmental 
justice, cross community collaboration and inclusion, supported by 
``recognized interdependence and constructed credibility'' between 
stakeholders.\8\ This outcome is also reflected at the State level with 
Governor Northam's Executive Order 24, Increasing Virginia's Resilience 
to Sea Level Rise and Natural Hazards, and Executive Order 29, 
Establishment of the Virginia Council on Environmental Justice. Again, 
institutionalized processes, built on continued and ongoing 
relationships and partnerships between stakeholders were and continue 
to be the key to a successful effort, and to adaptive planning, across 
the full spectrum of community, the ``whole of society.''
---------------------------------------------------------------------------
    \7\ ``June 27, 2016 IPP SC Consensus Resolution'' (The Steering 
Committee of the Hampton Roads Sea Level Rise Preparedness and 
Resilience Intergovernmental Planning Pilot Project, June 27, 2016), 
https://www.floodingresiliency.org/wp-content/uploads/2016/11/IPP-
Consensus-Resolution-All-Signatures.pdf.
    \8\ Hannah M Teicher, ``Climate Allies: How Urban/Military 
Interdependence Enables Adaptation'' (Doctoral Dissertation, 
Massachussets Institute of Technology; Department of Urban Studies and 
Planning, 2019), https://dspace.mit.edu/handle/1721.1/122193.

    Question 2. You recommended that we establish a coordinated 
Interagency Task Force for help agencies like FEMA, HUD, NOAA, NFWF, 
and others to coordinate amongst themselves. What are some lessons from 
the Hampton Roads pilot project that would be well applied to such a 
task force?
    Answer. The Hampton Roads Pilot Project was fortunate to have the 
participation of and collaboration with a number of Federal partners. 
This was in large part facilitated at the request of Senator Kaine, who 
wrote letters requesting such participation to stakeholder Cabinet 
Secretaries at the Federal and State level, as well as other Deputy and 
Assistant Secretaries, Mayors, and Planning District Directors within 
the Hampton Roads Region--requesting their agencies' support and 
participation.\9\ Ultimately, their participation was critical to the 
overall success of the effort, and many participants stated they stayed 
with the two-year process because it was the first time Federal, State 
and local participants sat at the table together to develop processes 
to determine solutions for the region.
---------------------------------------------------------------------------
    \9\ Emily E. Steinhilber et al., ``Hampton Roads Sea Level Rise 
Preparedness and Resilience Intergovernmental Pilot Project Phase 1 
Report: Accomplishments and Lessons Learned'' (Old Dominion University, 
November 2015), 1, http://www.mari-odu.org/news/IPP-Phase-1-Report-
with-Appendices.pdf.
---------------------------------------------------------------------------
    One of the key recommendations of the Pilot Project was that such 
interoperability should be institutionalized, in particular at the 
regional level, such that the regional presence of federal agencies had 
an agreed-upon means to remain involved in the ongoing planning and 
needs to prepare the Region for sea level rise and recurrent flooding, 
as well as other efforts that would benefit from such a regional 
collaborative effort. This concept could mirror a similar approach with 
the establishment of an Interagency Task Force at the Federal level, 
which could coordinate across agencies, and develop and implement a 
national policy, standards and processes to address and prepare for 
climate impacts.
    A similar construct was directed by President Obama's Presidential 
Memorandum on Climate Change and National Security, of September 21st, 
2016. The Memorandum specifically focused on ``establishing a framework 
to direct Federal Departments and Agencies to ensure climate-related 
impacts were fully considered in national security doctrine, policies 
and plans.'' \10\ It built on existing Presidential directives and 
policies, including the Climate Action Plan of June 2013, and Executive 
Orders 13653 (Preparing the United States for the Impacts of Climate 
Change) of November 1, 2013 (revoked in 2017), 13677 (Climate-Resilient 
International Development) of September 23, 2014, and 13693 ( Planning 
for Federal Sustainability for the Next Decade) of March 19, 2015.\11\ 
\12\ \13\ \14\ It further directed the establishment of a Climate and 
Security Working Group, chaired by members of the National Security 
Council, and including representation from stakeholder Federal 
departments and agencies. Unfortunately, this group never convened, but 
the need for an institutionalized national-level focus, process and 
strategy, one that could be replicated at the State and regional level 
to coordinate on Pre-disaster preparedness, planning and adaptation 
development was shown by the IPP to be of value.
---------------------------------------------------------------------------
    \10\ Barack Obama, ``Presidential Memorandum--Climate Change and 
National Security'' (The White House Office of the Press Secretary, 
September 21, 2016), https://obamawhitehouse.archives.gov/the-press-
office/2016/09/21/presidential-memorandum-climate-change-and-national-
security.
    \11\ Executive Office of the President, ``The President's Climate 
Action Plan'' (The White House, June 2013), https://
obamawhitehouse.archives.gov/sites/default/files/image/
president27sclimateactionplan.pdf.
    \12\ Barack Obama, ``Executive Order 13653: Preparing the United 
States for the Impacts of Climate Change,'' November 6, 2013, https://
www.federalregister.gov/documents/2013/11/06/2013-26785/preparing-the-
united-states-for-the-impacts-of-climate-change.
    \13\ Barack Obama, ``Executive Order 13677: Climate-Resilient 
International Development'' (The White House Office of the Press 
Secretary, September 26, 2014), https://www.federalregister.gov/
documents/2014/09/26/2014-23228/climate-resilient-international-
development.
    \14\ Barack Obama, ``Executive Order 13693: Planning for Federal 
Sustainability in the Next Decade'' (The White House Office of the 
Press Secretary, March 25, 2015), https://www.federalregister.gov/
documents/2015/03/25/2015-07016/planning-for-federal-sustainability-in-
the-next-decade.
---------------------------------------------------------------------------
    In addition, the 2016 Water Resources Development Act directed the 
US Army Corps of Engineers to establish an Interagency Coordination 
process, to participate in any State level activities related to 
Federal property that would be impacted by local, regional, or State 
adaptation and protection efforts to prepare for coastal resilience. 
The 2016 WRDA/WIN Act Sec. 1183(b) \15\ language, (shown below) could 
also be a template for an interagency coordination effort, though it is 
not clear how USACE has implemented this legislation.
---------------------------------------------------------------------------
    \15\ ``Water Infrastructure Improvements For The Nation Act,'' Pub. 
L. No. 114-322, Sec.  1183(b) (2016), https://www.congress.gov/114/
plaws/publ322/PLAW-114publ322.pdf.

        (b) INTERAGENCY COORDINATION ON COASTAL RESILIENCE.--
                (1) IN GENERAL.--The Secretary shall convene an inter-
                agency working group on resilience to extreme weather, 
                which will coordinate research, data, and Federal 
                investments related to sea level rise, resiliency, and 
                vulnerability to extreme weather, including coastal 
                resilience.
                (2) CONSULTATION.--The interagency working group 
                convened under paragraph (1) shall participate in any 
                activity carried out by an organization authorized by a 
                State to study and issue recommendations on how to 
                address the impacts on Federal assets of recurrent 
                flooding and sea level rise, including providing 
                consultation regarding policies, programs, studies, 
                plans, and best practices relating to recurrent 
                flooding and sea level rise in areas with significant 
                Federal assets.

 Questions from Hon. Sean Patrick Maloney for Daniel Cox, Ph.D., CH2M-
      Hill Professor in Civil Engineering, Oregon State University

    Question 1. In your testimony, you cite the importance of modern 
technology and data that should be considered for resilient port 
infrastructure design, maintenance, and operation. How should the Coast 
Guard best adopt those technologies given that they maintain 20,000 
shore facilities?
    Answer. A response was not received at the time of publication.

    Question 2. In your testimony you discuss how natural and nature-
based features can be used to protect port infrastructure. Can you 
elaborate on how expanded use of natural and nature-based features are 
beneficial to private industry and how they can be used on a larger 
scale at some of our nation's busiest ports?
    Answer. A response was not received at the time of publication.

    Question 3. Is there a comprehensive national report on port 
vulnerability available? What variables and concerns should such a 
report take in to account?
    Answer. A response was not received at the time of publication.

    Question 4. In your written testimony, you mentioned the potential 
for integrating advanced materials into infrastructure reinforcement 
projects for expanding service life, can you speak to what this entails 
and how the economics works for building with more advanced materials 
to extend service life may also reduce costs?
    Answer. A response was not received at the time of publication.

   Questions from Hon. Rick Larsen for Daniel Cox, Ph.D., CH2M-Hill 
        Professor in Civil Engineering, Oregon State University

    Question 1. States like Washington are working to address growing 
infrastructure needs and a transition to sustainable, energy-efficient 
efforts to mitigate the impacts of climate change. How can we ensure 
that technologies like port electrification, are designed to withstand 
sea level rise and other climate impacts?
    Answer. A response was not received at the time of publication.

    Question 2. In your testimony, you mentioned the potential for 
integrating natural and nature-based features into port infrastructure 
projects. Can you talk more about what that entails and whether there 
are cost benefits for reinforcing exposed port infrastructure?
    Answer. A response was not received at the time of publication.

    Question 3. Mr. Cox, in your experience with the National Institute 
for Standards and Technology (NIST), what further investments are 
needed to enhance infrastructure adaptation and mitigation?
    Answer. A response was not received at the time of publication.

    Questions from Hon. Sean Patrick Maloney for Sean B. Hecht, Co-
    Executive Director, Emmett Institute on Climate Change and the 
   Environment, University of California at Los Angeles School of Law

    Question 1. The Port Authority of New York New Jersey pays $200 
million annually to insure $9 billion in assets. Are there other models 
for insuring coastal property or reducing perceived risk that we should 
consider? When and how should the government intervene in such an 
increasingly risky market?
    Answer. Insurers will cover risks only under certain conditions. 
Risks that do not meet these conditions may be considered uninsurable, 
because the basic model of collecting premiums to pay for losses 
wouldn't work without them. Disaster risks, including many that relate 
to climate change, have many of the markers of uninsurability, as does 
incremental sea-level rise.
    Here are factors that determine whether a risk is insurable:

    <bullet>  The largest possible loss should not affect the insurer's 
solvency (ability to have the capital to pay all claims).
    <bullet>  The average loss should be determinable and quantifiable 
(to allow insurers to plan for risk and set premiums rationally).
    <bullet>  Risks should be independent and well-distributed in time 
and space rather than correlated (so that the insurer can diversify 
risks effectively and avoid insolvency or other failures).
    <bullet>  The pool of insureds should not be skewed toward those 
with high risk, and the insurance contract should not motivate 
policyholders to fail to take self-protective measures (moral hazard).
    <bullet>  There must actually be a market in which supply and 
demand yield a price point for any given level of insurance against any 
given risk.

    Insurers can take actions to try to make risks more insurable, 
especially engaging in research to understand risks as well as 
possible. But the financial dynamics of disasters are particularly 
challenging for risk management: not only are basic parameters of 
disasters themselves unpredictable (for example, how many hurricanes of 
what magnitude in what location make landfall), but a single year of 
extremely large covered losses may be high enough to render an insurer 
insolvent. Unlike, for example, automobile insurance, insurers can't 
spread disaster risks effectively. The widespread disruption in 
insurance markets after Hurricane Andrew's wind-related destruction in 
Florida illustrates this well.
    The example of Hurricane Andrew demonstrates how some types of 
climate-related risk challenge core principles of insurability. A given 
level of overall risk from a particular kind of insured loss may be 
perfectly acceptable if losses are likely to be well-distributed and 
independent. But concentration or correlation of losses--as occurs in 
hurricanes, wildfires, and other major disasters--makes it more likely 
that an insurer may will suffer unsustainable losses within a single 
year. Uncertainty, or ambiguity of risk--the inability to assess and 
quantify probabilities of predicted losses with sufficient precision--
makes insurers reluctant to insure risks, except at high cost. In 
extreme cases, uncertainty will render a risk uninsurable by rendering 
risks unquantifiable, concentrated, and unable to be priced at a level 
consumers or regulators will tolerate.
    This recognition of uninsurability happened long ago with flood 
insurance in the United States. Private insurers largely pulled out of 
the flood insurance market in the mid-20th century. This was the result 
of massive, correlated flood-related losses that made insurers view 
flood risk as uninsurable--or at least insurable only at very high cost 
through specialty insurance products. The federal government stepped in 
to insure homes at risk of flood damage through the National Flood 
Insurance Program, but that program relies, when there are significant 
correlated losses from events like hurricanes, on subsidies from 
general federal funds.
    As climate change affects weather patterns, changing sea levels and 
storm surge as well as changing tropical storm and precipitation 
dynamics, it will become even harder for insurers to manage these 
already-difficult types of risks. Many of these risks may end up being 
insured through government-run risk pools--as is already the case with 
earthquake insurance in California, flood insurance nationally, and a 
significant amount of weather risk on the gulf coast. Insurers have 
been working in recent years to develop new financial instruments to 
try to address those risks by providing incentives for capital 
investment that can provide funding to address the risks when they 
materialize. These include catastrophe bonds and other types of 
insurance-linked securities, as well as other parametric products that 
provide capital when a triggering physical condition is reached.
    For essential infrastructure, government agencies at all levels 
will have to make difficult choices about investment and risk 
management. Competent port managers are projecting future risks and 
making decisions that reflect those risks. Ultimately, while insurance 
and other financial risk-management tools will continue to play a role, 
I believe the federal government will have to view investment in 
resilience and rebuilding of infrastructure as a cost that must be 
borne by some combination of private actors (such as shipping 
companies) and the public, and will have to make choices with that in 
mind. I note, also, that hardening coastal infrastructure has its own 
environmental costs, including spillover effects, or externalities, 
that negatively impact other coastal resources; this should be 
considered, and the use of natural infrastructural features should be 
encouraged where possible.

    Question 2. In your experience, what percent of ports are using 
risk-based approaches to determine resilient infrastructure designs?
    Answer. I do not have data to answer this question. A survey of the 
ways that ports nationally or internationally are responding to sea-
level rise is outside my experience or expertise. Anecdotally, I can 
say that over the past decade, port managers everywhere are beginning 
to look at design in light of sea-level rise risk. This article by 
researchers at RAND provides one model for this type of risk 
management, Robust Decision Making (RDM), with a case study focus on 
the Port of Los Angeles: https://www.ncbi.nlm.nih.gov/pmc/articles/
PMC5802450/

    Question 3. Is there a comprehensive national report on port 
vulnerability available? What variables and concerns should such a 
report take in to account if it does not yet exist?
    Answer. I am not aware of a comprehensive national report on port 
vulnerability. One very recent publication, Climate Change Adaptation 
Planning for Ports and Inland Waterways, was published by PIANC, the 
World Association for Waterborne Transport Infrastructure. This 
guidance document provides detailed technical climate adaptation 
guidance for ports: https://navclimate.pianc.org/about/navclimate-news/
climate-change-adaptation-planning-guidance-launched-by-pianc
    Other resources are available, such as this book: https://
www.researchgate.net/publication/
281119163_Climate_Change_and_Adaptation_Planning_for_
Ports.
    There is also a literature on why adaptation planning in the 
context of ports and other infrastructure has lagged. For example, this 
article explores the concept of a ``leadership void'' with a port case 
study: https://www.frontiersin.org/articles/10.3389/feart.2019.00029/
full
    More generally, the federal government, local and state 
governments, and academic researchers have developed widely-used 
frameworks for climate adaptation. The federal toolkit is available 
here: https://toolkit.climate.gov/#steps

    Question 4. As ports work to become more resilient and develop 
their infrastructure, how can they best do so in a way that encompasses 
principles of environmental justice?
    Answer. Environmental injustice--the disproportionate impact of 
environmental and public health harms on low-income communities and 
communities of color--is a serious and well-documented problem in the 
United States and globally. Ports, while necessary for our economy, 
contribute to environmental injustice through emissions from freight 
movement. Ships, trucks, and short-haul equipment contribute 
significantly to pollution that disproportionately affects those who 
live near ports and freight corridors. Port-related infrastructure and 
industrial land uses also dominate the landscape of nearby communities 
in other ways. The report available here, developed by the nonprofit 
Harbor Community Benefit Foundation when I was the board chair of that 
organization, documents some of those impacts relating to the Port of 
Los Angeles: https://hcbf.org/blog/hcbf-proudly-releases-harbor-
community-off-port-land-use-study/
    Addressing the impacts of port-related land use changes, air 
emissions, toxic substances, and flood and other infrastructure risk on 
local communities should be an essential component of any port's 
planning processes. Ensuring community participation and input into 
planning processes is, in turn, an essential piece of addressing those 
impacts.

    Question 5. At what point do we disinvest from coastal property? 
Are there better ways to get a picture of what industrial or federal 
properties we should let fall into the water?
    Answer. The process of climate change adaptation planning, 
including the tools of social, economic, and physical vulnerability 
assessment and the planning processes that follow that assessment, 
should inform all management of coastal infrastructure. There is no 
fixed answer to the question of under what conditions we need to 
disinvest, or ``retreat''; ultimately, government agencies will have to 
make decisions based on weighing the probable social, economic, and 
physical consequences of different options. Unfortunately, this 
decisionmaking will inevitably have to happen under conditions of deep 
uncertainty.

    Question from Hon. Rick Larsen for Sean B. Hecht, Co-Executive 
   Director, Emmett Institute on Climate Change and the Environment, 
         University of California at Los Angeles School of Law

    Question 1. Your testimony describes how more robust information 
and analysis about emerging risks and community-scale risk mitigation 
planning, can reduce port insurance costs in the near and long term. 
Yet, a recent study by the International Association of Ports and 
Harbors and the American Association of Port Authorities found that 
most ports are concerned about the impacts of sea-level rise, but not 
implementing adaptation strategies. What are some incentives to 
encourage ports to implement these strategies and remain competitive 
nationally and internationally?
    Answer. I believe that competent managers who are looking at long-
term consequences, and who have the resources to assess and implement 
adaptation strategies, will be motivated to take into account sea-level 
rise in their planning. The key is to make sure that managers and 
planners are incentivized to look at long-term rather than short-term 
planning. Providing funding, and stressing the dire necessity of a 
national mandate to understand and adapt to changing coastal 
conditions, are minimal conditions. Unfortunately, currently, many 
local and state governments and federal agencies are not providing 
adequate resources to address the problem, and the political mandate is 
not there in many jurisdictions or under the current federal 
administration. Government needs to acknowledge the scientific basis 
for concern, to foreground the research demonstrating the economic, 
social, and physical need for adaptation, and to provide funding 
mechanisms for both basic research and specific adaptation planning and 
implementation.

                                  [all]

                                    
</pre></body></html>
